<html>
<title> - EPCA REGULATION OF PLUMBING SUPPLIES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                   EPCA REGULATION OF PLUMBING SUPPLIES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

                                H.R. 623

                               __________

                             JULY 27, 1999

                               __________

                           Serial No. 106-76

                               __________

            Printed for the use of the Committee on Commerce


                               <SNOWFLAKE>



                    U.S. GOVERNMENT PRINTING OFFICE
58-509                      WASHINGTON : 1999



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
                                     BILL LUTHER, Minnesota
                                     LOIS CAPPS, California

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                    Subcommittee on Energy and Power

                      JOE BARTON, Texas, Chairman

MICHAEL BILIRAKIS, Florida           RALPH M. HALL, Texas
CLIFF STEARNS, Florida               KAREN McCARTHY, Missouri
  Vice Chairman                      THOMAS C. SAWYER, Ohio
STEVE LARGENT, Oklahoma              EDWARD J. MARKEY, Massachusetts
RICHARD BURR, North Carolina         RICK BOUCHER, Virginia
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
CHARLIE NORWOOD, Georgia             SHERROD BROWN, Ohio
TOM A. COBURN, Oklahoma              BART GORDON, Tennessee
JAMES E. ROGAN, California           BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ALBERT R. WYNN, Maryland
HEATHER WILSON, New Mexico           TED STRICKLAND, Ohio
JOHN B. SHADEGG, Arizona             PETER DEUTSCH, Florida
CHARLES W. ``CHIP'' PICKERING,       RON KLINK, Pennsylvania
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)



                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Goike, David, Masco Corporation, representing Plumbing 
      Manufacturers Institute....................................   137
    Haege, Glenn, talk show host, WXYT...........................    24
    Knollenberg, Hon. Joe, a Representative in Congress from the 
      State of Michigan..........................................     9
    Kosmensky, Gerald, President, Gerald Building Company........    27
    Lieberman, Ben, Policy Analyst, Competitive Enterprise 
      Institute, representing the National Consumer Coalition....    19
    Osann, Edward R., President, Potomac Resources, Inc..........    50
    Taylor, Jerome, Director of Natural Resource Studies, Cato 
      Institute..................................................    30
    Tippin, David L., Director, Tampa Water Department...........    44
    Whalen, George V., National Association of Plumbing, Heating, 
      Cooling Contractors........................................    54
    Willardson, Anthony, Associate Director, Western States Water 
      Council....................................................   143
Material submitted for the record by:
    American Society of Plumbing Engineers, prepared statement of   157
    CTSI Corporation, prepared statement of......................   163
    Williams, Harold, Jr., prepared statement on behalf of The 
      American Supply Association................................   161

                                 (iii)




                  EPCA REGULATION OF PLUMBING SUPPLIES

                              ----------                              


                         TUESDAY, JULY 27, 1999

                  House of Representatives,
                             Committee on Commerce,
                          Subcommittee on Energy and Power,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2322, Rayburn House Office Building, Hon. Joe Barton 
(chairman) presiding.
    Members present: Representatives Barton, Bilirakis, Burr, 
Whitfield, Norwood, Shimkus, Bryant, Hall, Sawyer, Rush, and 
Dingell (ex officio).
    Aslo present: Representative Bilbray.
    Staff present: Amit Sachdev, majority counsel; and Rick 
Kessler, minority professional staff member.
    Mr. Barton. The subcommittee will come to order. We are 
going to hold today a hearing on H.R. 623, introduced by 
Congressman Knollenberg of Michigan, a bill to amend the Energy 
Policy and Conservation Act to eliminate certain regulation of 
plumbing supplies.
    This is bipartisan legislation. It has 82 cosponsors, 
including myself, and as I said, it has been introduced by the 
gentleman before the subcommittee, Mr. Knollenberg of Michigan. 
As a part of the Energy Policy Act of 1992, Congress created 
national uniform standards regulating the amount of water that 
could be used by faucets, showerheads and water closets. For 
faucets and showerheads, Congress set the maximum flow rate at 
2.5 gallons per minute, for water closets, which most people 
know as toilets, Congess mandated that only 1.6 gallons per 
flush could be used. Today we will hear testimony on H.R. 623 
to consider whether to repeal these national water standards, 
thereby reverting back to State and local government control to 
establish such water standards as they feel are appropriate for 
their regional needs.
    This is an issue that is easy to make light of, obviously, 
because of the subject matter, but it is important that we take 
this legislation seriously. I am a cosponsor and I want to make 
it perfectly clear that I support the need to conserve and not 
waste the precious water resources of our Nation. In my view 
the issue before us today is not whether to encourage water 
conservation in the United States, but how best to do so.
    Why should this legislation be taken up now. The reason is 
fairly simple and straightforward. In hundreds of strongly 
worded letters, e-mails and telephone calls, the public has 
asked that this issue be revisited. As many of my colleagues 
can attest, since passage we have heard quite literally and 
vocally in our town meetings and in our districts that 
consumers are not satisfied with the performance of these new 
appliances. We have heard many accounts that the low flow 
appliances simply do not work. They do not perform adequately.
    These concerns have been raised by news programs on 
television and radio and in newspapers across the country. The 
principal task before us today is to determine whether the 
national one size fits all standard set in Congress in 1992 is 
the most effective way to achieve water conservation in the 
United States. Has the Federal standard one size fits all 
artificially constrained the marketplace for water conservation 
products? Is this an issue that is better addressed at the 
regional level where State and local governments will better 
account for regional water supply and demand? Finally, is there 
a win/win scenario to address the problems that we have heard, 
one that ensures a true marketplace for affordable plumbing 
appliances that perform better and still meet the country's 
water conservation needs?
    We have assembled an esteemed group of experts on both 
sides of the issue to address this problem. We are going to 
start by hearing from the Congressman who has introduced the 
legislation, the gentleman from Michigan, Mr. Knollenberg. And 
once he has spoken, then we will have two panels of experts, 
again one panel that supports the legislation generally and one 
panel that has questions about it. Seeing no member of the 
minority party yet in attendance, we will recognize Mr. 
Bilirakis, distinguished member of the Health and Environment 
Subcommittee and a gentleman who helped pass the act back in 
1992, for an opening statement. Mr. Bilirakis.
    Mr. Bilirakis. Mr. Norwood was here before me.
    Mr. Barton. Well, you are senior and you have been a leader 
on this issue.
    Mr. Bilirakis. First, I would like to thank you, Mr. 
Chairman, for scheduling this hearing at a time I could 
participate. I would also like to take a moment to welcome 
David Tippin, the Director of the Tampa Water Department, here 
to Washington.
    The topic of today's hearing, Mr. Chairman, as you have 
indicated is legislation that proposes to repeal Federal water 
conservation standards enacted as part of the Energy Policy and 
Conservation Act of 1992 for certain plumbing appliances.
    As a representative from a State where water conservation 
is an important issue, I strongly oppose this legislation. Most 
of us take water for granted and we assume that we can simply 
turn on the tap or a garden hose and there will be a steady 
stream of cheap clean water, but in many States and localities 
there is much more to it than that. In my home State of 
Florida, water conservation has become a way of life. Residents 
routinely experience drought conditions, water audits, state-
of-the-art leak detection methods, lawn sprinkling bans and 
other measures are frequent reminders of the severity of my 
State's water shortfalls.
    The drought now effecting several portions of the United 
States also serves to underscore the need to make more 
efficient use of our water supplies. Even where water is not 
scarce, new water efficient plumbing products help consumers 
and communities hold down the rising costs of additional water 
supply and waste water treatment infrastructure. These costs 
are especially relevant in a climate where residential monthly 
water and sewage charges rose by 75 percent between 1986 and 
1996 for those using 1000 cubic feet of water.
    Americans now spend about $50 billion each year on 
residential water and sewer bills. We spend an additional $16 
billion on the cost of the energy needed to heat domestic hot 
water. New capital improvements will play a major role in 
driving water and waste water costs up in the future. Data 
published by the Environmental Protection Agency in 1997 shows 
that the public water systems and waste water treatment 
agencies will need to invest approximately $280 billion to 
protect public health and to accommodate growth over the next 
20 years. A significant portion of this investment, over $200 
billion, will be for facilities and equipment.
    In a typical single family home 80 percent of all indoor 
water use is devoted to flushing toilets, taking showers, 
washing clothes and allowing fixtures to leak. Without changing 
our life-style, the volume of water committed to each of these 
uses can be substantially reduced with the water efficient 
plumbing appliances required by this, by EPAct. Out of all of 
these fixtures, the 1.6 gallon flush toilet has received the 
most attention. This is due in part to a number of poor 
performing toilets being placed in the market in the early 
1990's. Since the mid-1990's, my understanding is that 
manufacturers have provided toilets which work well and meet 
all national testing standards. Reports ranging from Consumer 
Reports magazine to post-installation studies by utilities 
promoting major toilet rebate and replacement programs show a 
significant degree of satisfaction with the new fixtures.
    For example, 90 percent of San Diego, California customers 
who participated in a toilet rebate program were satisfied with 
their new 1.6 gallon per flush toilets. In Austin, Texas, 95 
percent of users were satisfied or very satisfied with the 1.6 
gallon per flush toilets. And 91 percent of Tampa, Florida 
consumers were likely to purchase another 1.6 gallon per flush 
toilet in the future.
    How significant are the savings from water efficient 
appliances? Water conserving fixtures used in houses built in 
1998 save 44 million gallons of water every day, totaling a 
savings of more than $33.6 million a year. All told, water 
conserving fixtures could cut demand by 30 percent, an 
estimated 5.4 billion gallons per day. Moreover, the energy 
savings resulting from using hot water more efficiently with 
new showerheads and faucets is expected to reach $1.9 billion 
per year by 2010 for the residential sector alone.
    The positive impact of water conservation can be dramatic. 
The population of Los Angeles has risen by nearly 1 million 
since 1970, an increase of 32 percent. Yet residential and 
business customers last year used virtually the same amount of 
water as they used 29 years ago. How is this possible? By low 
flow toilets saving the city 9 billion gallons of water each 
year.
    In 1997 Tampa bay water completed its regional demand 
management plan. This plan estimated that by the year 2000, 
approximately 5.25 million gallons per day will be saved by 
EPAct's water conserving plumbing fixture requirements. The 
plan estimates the savings will increase to 15.5 million 
gallons per day by 2010 and to over 20 million gallons per day 
by 2015.
    When the House of Representatives debated EPAct, it 
overwhelming approved uniform national efficiency standards for 
faucets, water closets, urinals and showerheads to conserve 
both energy and water by a vote of 328 to 79, and I repeat 328 
to 79.
    H.R. 623 would repeal these uniform national standards, the 
very standards that are broadly supported by manufacturers, 
plumbing contractors and wholesalers, water and waste water 
utilities, and environmental organizations. If enacted, this 
measure would increase the burden on States and communities 
seeking to enforce our water efficiency standards, and it would 
also force U.S. Manufacturers to commit time and money 
designing products for differing flush volumes, flow rates, 
test procedures and labeling requirements, all of which could 
vary by State and local jurisdiction if uniform national 
standards are repealed.
    Plumbing suppliers and wholesalers are primarily small 
independent businesses who are in the unique position of owning 
their inventory. Enactment of H.R. 623 could render portions of 
this stock obsolete and unmarketable which could have a 
devastating impact on these small businesses. H.R. 623 injects 
a measure of uncertainty into the planning for billions of 
dollars of water supply and waste water treatment 
infrastructure nationwide.
    Water efficiency, as you said right at the outset, Mr. 
Chairman, is no joke. A consistent and stable regulatory 
environment as provided by current law is a critical ingredient 
for new investment competition and product development in the 
plumbing industry. Water conservation is the easiest and most 
cost effective strategy we can use to combat present and 
projected water supply shortfalls, and repealing the 1992 
conservation standards is in my strong opinion bad policy.
    Mr. Chairman, thank you very much. I look forward to 
hearing from our witnesses, and I appreciate your indulgence. 
Thank you.
    Mr. Barton. Thank you, Congressman Bilirakis. We will put 
you down as undecided on this legislation.
    The gentleman from Georgia, Mr. Norwood, is now recognized 
for an opening statement.
    Mr. Norwood. Thank you very much, Mr. Chairman, and thank 
you very much for holding this hearing which on the face of it 
tends to make it grin, but it is truly a serious matter. My 
State of Georgia is surrounded by water. We are surrounded by 
rivers except on our north end, and water conservation is 
extremely important to us. We take that very seriously. On the 
other hand, I am a very proud cosponsor of Mr. Knollenberg's 
bill and hope that we can reverse the 1992 water conservation 
standards, at least on the Federal level, as soon as possible.
    At home I am in difficulty with my sons, both of whom are 
building houses and they are old enough to be men, and I have 
to sit there and plead with them please don't go to the black 
market. That doesn't play very well in the 10th District if my 
sons were to do that. However, they are not satisfied with the 
1.6 gallon flushers that don't work. We do need to conserve 
water, but we don't have a vehicle that does that. When you 
turn around and flush that same toilet twice, you really 
haven't saved a lot.
    I find myself in an interesting position in that I am 
renovating a building which has a great number of 20-year-old 
toilets that I am told by the local inspector, he doesn't blame 
it on the Georgia law, he blames it on the Federal law, that I 
have to rip them all out and put in new units. Well, I can 
catch on why some folks who make toilets might think that is a 
good idea. That doesn't go over my head at all.
    But interestingly enough in my district the plumbing 
contractors and suppliers are very much against the 1992 water 
conservation standard. They didn't feel like people in 
Washington, DC. In their normal effort to have one size fits 
all really need to tell them exactly how they want to do that.
    So I applaud Mr. Knollenberg and look forward to this 
hearing today, and I hope we will all take this as a very 
serious matter because I certainly do. Thank you, Mr. Chairman.
    Mr. Barton. Thank you Congressman Norwood. We would now 
like to recognize the distinguished ranking member of the full 
committee, Mr. Dingell, for an opening statement.
    Mr. Dingell. Mr. Chairman, I thank you for your kindness 
and recognition. I want to welcome my dear friend, Mr. 
Knollenberg. He is a valuable member of the Michigan 
delegation. He and I work together on many things that are 
important to our State. He is wisely and properly respected and 
I am happy to see him here. I would observe that I do have an 
opening statement which I would ask unanimous consent to put in 
the record.
    Mr. Barton. Without objection.
    Mr. Dingell. My good friend from Michigan and I do not 
agree on this legislation, and I would just make the 
observation that despite the concerns that have been expressed 
outside this committee, water consumption has dropped at the 
same time the population has significantly increased. A lot of 
this is due to reduction in interior residential water use and 
most of this has been as a result of the 1.6 gallon per flush 
toilets.
    Water pollution is a growing problem in this country. We 
are not addressing it because we are not putting money into the 
construction of waste water treatment works and sewer 
construction. This is having a terrible impact on waters in 
areas that are served by my good friend from Michigan and I. 
The result of this is that we are now seeing terrible pressure 
on the communities that he and I serve to spend enormous sums 
of money to clean up waters, rivers that he and I are well 
familiar with. The Huron, the Clinton, the Rouge, and the 
Raisin in southeast Michigan are all being afflicted with 
terrible problems of pollution.
    And with the figures that I am getting on satisfaction, for 
example in Denver, the satisfaction was 87 percent. 9 percent 
of the people registered an unhappy experience. Obviously we 
are going to have to perfect these kinds of toilets, but 
hopefully these kinds of toilets do offer us a chance, until 
the replacement of the old ones has been completed, of 
significantly bettering not only our water use but reducing the 
amount of money that the country has to spend on waste 
treatment.
    And I would note that in 1992 when this legislation was 
passed out of this committee which established the standards, 
it was as a result of an unusual coalition: industry, 
environmentalists, small businesses and the States. Those 
provisions passed the House 328 to 79 and they were viewed 
widely as being useful, necessary and good, and I believe the 
result--a reduction in needs for waste treatment, water 
savings, a saving of taxpayer dollars--has been very, very 
good.
    I say these things with respect for my friend. He is a very 
fine person and a valuable member of the delegation and a great 
public servant. I am sorry we differ, but we will try and do so 
with respect and affection. But I do want him to know that I am 
going to do the best that I can to beat this legislation.
    Mr. Barton. Well, that is two undecideds. The gentleman 
from North Carolina, Mr. Burr, is recognized for a brief 
opening statement.
    Mr. Burr. I thank you, Mr. Chairman. I welcome my good 
friend and former neighbor in the Longworth Building, Mr. 
Knollenberg, as well as our other panelists who are here to 
testify today about plumbing standards enacted by the Energy 
Policy Act.
    Mr. Barton. Are you reading off of what I think you are 
reading off of?
    Mr. Burr. Would the gentleman like some time?
    Mr. Barton. I am just observing what you are reading off 
of.
    Mr. Burr. Mr. Chairman, the 1992 Energy Act enacted 
burdensome and frivolous regulations on the sizes of toilets 
and showerheads. Specifically new toilets manufactured in the 
United States can only use 1.6 gallons per flush. And 
showerheads are permitted to use only 2.5 gallons per minute. 
Of course the average American might take these regulations as 
another urban myth, much like the baby alligator who was 
flushed down the toilet into the sewer and grew to terrorize 
the city's water works. Of course under the 1992 EPAct, that 
alligator probably couldn't have been flushed on the first or 
the second or the third try in a low flow, 1.6 gallon per flush 
toilet. It would have taken 2 or 3 flushes.
    Seriously, these regulations have cost home owners and home 
builders adding as much as $200 to the cost of installing a new 
toilet in the home. These regulations also strain the 
relationship between homeowner and home builder. As we will 
hear later, home builders often receive complaints about the 
operation of their toilets. When the contractor responds that 
the faulty toilet is the result of a mandate from Washington, 
the homeowner blames the contractor for making excuses for poor 
professionalism.
    These numbers are backed up by the fact that in 1998 the 
National Association of Home Builders survey found that 72 
percent of home builders consider the 1.6 gallon toilet to be a 
problem.
    It should be noted, Mr. Chairman, that the NAHB has 
recently taken a neutral stance on my colleague Mr. 
Knollenberg's legislation. Also, how is the goal of water 
conservation achieved when a toilet must be flushed more than 
once to remove waste or a person has to take a 10-minute shower 
instead of a 5-minute shower because of the weak water pressure 
produced from a low-volume showerhead.
    H.R. 623, Mr. Chairman, does not impose any new mandates or 
any new Federal regulations on plumbing manufacturers who 
currently oppose this bill. This bill does not outlaw low flush 
toilets or low volume water heads. In fact I am a little 
confused as to why those manufacturers don't want to put the 
best product that they can make on the market.
    Mr. Chairman, I used to joke with my colleagues about the 
legislation that he proposed when his office was located next 
door to mine until I made a trip to Wilmington, North Carolina. 
After a long day of work, I returned to my hotel hoping to 
relax from a day of discussing real problems that Congress 
should be dealing with. I made my way to the hotel bathroom 
only to find a sign next to the toilet stating that because of 
Federal regulations limiting the size of the toilet, it was 
necessary for me to flush at least twice. If that was 
unsuccessful, to call the front desk.
    I felt personally offended by the idea that the Federal 
Government feels it has the right to regulate how many times I 
am required to flush.
    Mr. Chairman, if we allow these regulations to stay in 
place, we in effect put our stamp of approval on an intrusive 
and burdensome Federal Government. If States and localities are 
responsible for zoning laws and building codes, I think it is 
time we return the right of choosing the size of toilet and of 
showerheads back to the governments as well.
    Again, I want to thank you, Mr. Chairman, for your insight 
to hold these hearings and welcome my dear friend Congressman 
Flush and thank him for H.R. 623, and with that I yield back 
the balance of my time.
    Mr. Barton. We will not put the gentleman's statement in 
its current configuration in the record. He will have to 
conform to normal standards of statements in terms of what is 
put in the record. We appreciate----
    Mr. Burr. Mr. Chairman, in a quick calculation that I have 
made with the 1.6 gallon toilet, this last Friday, I believe, 
the Vice President with his trip down the Connecticut River 
cost us 6 billion flushes.
    Mr. Barton. Who stayed up all night making that 
calculation?
    Mr. Burr. Mr. Norwood and I between the powers of North 
Carolina and Georgia came up with that calculation.
    Mr. Barton. I see.
    Mr. Burr. I thank the chairman.
    Mr. Barton. The gentleman from Texas, the distinguished 
ranking member of the subcommittee, Mr. Hall, is recognized for 
an opening statement.
    Mr. Hall. Mr. Chairman, I don't really have an opening 
statement, but I am sure interested in this bill. I think I ran 
into Joe on the floor last year when he introduced it and he 
was so persuasive that I immediately signed on.
    When I got back to my district I found out that one of the 
major manufacturers gives X number of people jobs in my 
district and they were very opposed to this common sense pro 
consumer legislation. And while I have not signed on this year, 
I was just thinking in the Congressman's presentation, I didn't 
get to hear it but I have read it, it says, ``In fact, the 
situation has gotten so bad that many individuals are traveling 
out of the country just to pick up a toilet that works. This is 
a common occurrence at the Detroit-Canadian border,'' and I was 
just think how if my wife called here and they said Ralph is 
out looking for a potty that works, I don't know but what she 
would believe it.
    It is a pretty common sense bill, and I am going to take 
another look at maybe coming on it. I don't think that we have 
any business telling them--invading their private areas as much 
as they are with this kind of legislation.
    And the gentleman mentioned alligators. I remember an old 
story about they sent one of the waiters out to the spring to 
get a bucket of water on one of the hunting mesas, and he 
pulled up the bucket and he saw an alligator, and he came 
running back in. He said there was an alligator out there. They 
said did you bring the water? He said, yeah, but if that 
alligator is as scared as I am, that water ain't fit to drink.
    Mr. Barton. We really appreciate that story.
    Mr. Hall. You can erase that one with one of those Nixon 
erasers. I yield back the balance of my time.
    Mr. Barton. The gentleman from Tennessee, Mr. Bryant, is 
recognized for an opening statement.
    Mr. Bryant. Thank you, Mr. Chairman. I thank you for having 
this hearing and Mr. Knollenberg, a good friend from Michigan. 
I thank him for his bill. So far from what I have heard, we 
have said all that we can say from this end. I know there are 
some other folks that have some additional things to make in 
their statements. I am not going to add any more to the level 
of this debate so far, but I am looking forward eagerly to 
hearing from Congressman Knollenberg and the others on the 
following panels who have firsthand knowledge in many cases and 
can tell us the pluses and the minuses of this legislation. I 
look forward to hearing this and I yield back the balance of my 
time.
    Mr. Barton. The gentleman from Illinois, Mr. Rush, is 
recognized for an opening statement.
    Mr. Rush. Thank you, Mr. Chairman. I want to commend you 
for this hearing, and I want to commend the author of H.R. 623 
for this bill. We are here today to look at an issue that quite 
honestly has two viable sides. Certainly there are complaints 
regarding how the current water flow standards effect the 
quality of living. On the other hand, the benefits of the 
current standards cannot be denied. A savings of 44 million 
gallons of water a day with a dollar savings of $33.6 million a 
year. Let us make no mistake, water is a resource, which means, 
at times, if not all the time, it can be scarce.
    We as Members of Congress have a duty to provide standards 
which encourage conservation. Having said that, Mr. Chairman, 
the means we apply to achieve conservation should not, if not 
necessary, be so overburdensome that the conservation 
regulations totally handicap water usage.
    I look forward to this afternoon's discussion on this 
issue. I hope that we can find a solution which conserves water 
and provides consumers with effective water usage. What I do 
not recommend is that we simply toss out effective conservation 
regulation without being sure of the effect of any replacement.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Barton. Thank you, Congressman Rush. The gentleman from 
the great State of Kentucky, Mr. Whitfield, is recognized for 
an opening statement.
    Mr. Whitfield. Thank you, Mr. Chairman. I am glad to see 
you, Mr. Knollenberg, and I really appreciate your bringing 
this issue to our attention. I look forward to your testimony. 
I yield back the balance of my time.
    Mr. Barton. The gentleman from Ohio, Mr. Sawyer, is 
recognized for an opening statement.
    Mr. Sawyer. Let me say thank you to you and to Mr. 
Knollenberg for his tenacity and to Mr. Rush for his carefully 
stated words.
    [Additional statement submitted for the record follows:]
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Thank you, Mr. Chairman. This afternoon, we are here for a 
Subcommittee hearing on H.R. 623, legislation to amend the Energy 
Policy Act of 1992 to repeal the national uniform standards for certain 
types of plumbing appliances, including showerheads and water closets.
    In 1992, Congress set the maximum flow rate at 2.5 gallons per 
minute for faucets and showerheads and at 1.6 gallons per flush for 
water closets.
    I strongly support the need to conserve, and not waste, the 
precious water resources available in our country. The issue before the 
Subcommittee today is whether it is more appropriate to establish water 
standards for plumbing appliances using a uniform federal standard, or 
whether it makes more sense to allow state and local governments to 
establish standards that are tailored to their regional needs.
    Since passage of the Energy Policy Act of 1992, we have heard from 
consumers and groups urging us to revisit this issue. In doing so 
today, I hope our invited experts can offer insights that will ensure a 
winning solution that provides affordable and effective plumbing 
appliances that meet this Country's water conservation goals.
    I look forward to the testimony of our esteemed witnesses.

    Mr. Barton. The gentleman from Michigan, the sponsor of the 
bill, is recognized for such time as you may consume. I 
understand you also have a short video. We are not going to put 
the clock on you, Congressman, but we hope that you manage your 
time well.

STATEMENT OF HON. JOE KNOLLENBERG, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Knollenberg. Thank you, Mr. Chairman.
    I am very appreciative of the comment and opening 
statements, et cetera. I think you have all done a good job in 
presenting both sides of this issue and I am delighted to have 
the opportunity now to address you with some thoughts that 
pertain to H.R. 623, the Plumbing Standards Improvement Act of 
1999. As you know, Mr. Chairman, back in 1992 the 102d Congress 
and President Bush enacted amendments to the Energy Policy Act. 
Tucked inside this large bill was a little-noticed provision 
that vastly expanded the reach of the Federal Government by 
imposing new, overreaching mandates on plumbing products 
manufactured in the United States.
    Specifically, under this new law the Federal Government now 
regulates the flow of water in American toilets and 
showerheads. Since 1994, new toilets manufactured in the United 
States can only use 1.6 gallons of water per flush and 
showerheads are permitted to use only 2.5 gallons of water per 
minute.
    Under the guise of improving the Nation's energy policy and 
conserving water, these burdensome regulations have created an 
unnecessary headache for the American people who have been 
saddled with toilets and showers that in many cases do not work 
properly.
    In the view of millions of American consumers, the Federal 
Government has no business engaging in this type of unnecessary 
and counterproductive regulation. Therefore, in the 105th 
Congress I first introduced legislation to repeal these 
ridiculous mandates. Since that time, my office has received 
not hundreds but thousands of phone calls, letters and e-mails 
from disgruntled consumers who are angry that their new toilets 
repeatedly clog, require multiple flushing, and do not save 
water.
    Their message is clear and straightforward. Get the Federal 
Government out of my bathroom.
    At this time, I request the committee's permission to show 
a segment from the ABC news program 20/20. I believe that this 
footage clearly outlines the issues at hand and offers 
testimonials from several Americans who are unhappy with the 
quality of the 1.6 gallon toilets.
    Mr. Barton. If we can turn the monitor so that the audience 
has a fighting chance to see it in addition to the members. 
People on this side may have to move over temporarily.
    [Videotape shown.]
    Mr. Knollenberg. Mr. Chairman, I appreciate your indulgence 
and the committee's indulgence to hear that short tape. I think 
that this tape makes a very compelling case that there is no 
legitimate reason for the Federal Government to be in the 
business of regulating the American people's toilets.
    There are many challenges that face this Nation, such as 
securing the future of Social Security, cutting taxes for 
working Americans, improving the quality of our schools, et 
cetera. Clearly, the Federal Government has more important 
things to do than regulating the amount of water used to flush 
a toilet.
    This regulation offers a vivid example of why the American 
people believe the Federal Government is too large and too 
intrusive. H.R. 623 responds to these concerns. This bill does 
not impose any new mandates on plumbing manufacturers. I 
repeat, this bill does not impose any new mandates on plumbing 
manufacturers. It provides them with the opportunity to make a 
product the American people will want to buy.
    Strangely enough, the Plumbing Manufacturers Institute has 
led the opposition to this common sense pro consumer 
legislation, and I am still perplexed by their opposition.
    In conversations with representatives from the industry, I 
have been told that the 1.6 gallon toilets work and consumers 
are happy with them.
    This is contrary to the messages I have received from angry 
individuals from every region of the country. But for the sake 
of argument, let's concede their point. This raises a very 
interesting question. Given the fact that my bill simply ends 
the Federal Government's regulation of toilets and does not 
require the plumbing manufacturers to meet any new Federal 
requirements, why are they so worried? If the 1.6 gallon 
toilets work, consumers will buy them and the plumbing 
manufacturers will continue to make money. And, if States and 
localities believe that regulation of this type is vital to 
their well-being, H.R. 623 does nothing to prevent them from 
adopting these kinds of standards at the State and local level.
    In reality, consumers are not happy with the performance of 
the 1.6 gallons toilets, and the plumbing manufacturers know 
that if the Federal standard is eliminated, someone will enter 
the market and produce a product that consumers want to buy at 
a reasonable price.
    This is not something for the narrow special interests to 
be afraid of. It is called capitalism, and it has served the 
American people well for over 200 years.
    Mr. Chairman, while there is no question that this issue 
registers on the giggle meter, it is no laughing matter, 
particularly not for the individuals who have been forced by 
politicians in Washington to use inferior products. Make no 
mistake, the American people are upset, and they are demanding 
that Congress do something about this egregious intrusion of 
the Federal Government into their daily lives. In fact, the 
situation has gotten so bad that many individuals are traveling 
out of the country just to pick up a toilet that works. As has 
been noted, this is a common occurrence at the Detroit-Canadian 
border.
    Clearly the time has come for Washington to get out of 
American people's bathrooms. It is time for us to correct this 
overzealous Federal regulation. It is time to get back to some 
common sense. It is time for this Congress to say to the 
American people, we understand the difference between 
appropriate regulation and just plain bad regulation. This is 
bad regulation and it needs to be repealed now.
    I want to thank the chairman and the members of this 
committee for your indulgence. I look forward to working with 
you to resolve this problem once and for all. Again, I would be 
happy to respond to any questions.
    [The prepared statement of Hon. Joe Knollenberg follows:]
    Prepared Statement of Hon. Joe Knollenberg, a Representative in 
                  Congress from the State of Michigan
    Chairman Barton, members of the Subcommittee on Energy and Power, I 
want to thank you for holding this important hearing on H.R. 623, the 
Plumbing Standards Improvement Act of 1999.
    Mr. Chairman, in 1992, the 102nd Congress and President Bush 
enacted the Energy and Policy Act. Tucked inside this large bill was a 
little noticed provision that vastly expanded the reach of the federal 
government by imposing new, overreaching mandates on plumbing products 
manufactured in the United States.
    Specifically, under this new law, the federal government now 
regulates the flow of water in American toilets and showerheads. 
Specifically, new toilets manufactured in the United States can only 
use 1.6 gallons of water per flush, and showerheads are permitted to 
use only 2.5 gallons of water per minute.
    Under the guise of improving the nation's energy policy and 
conserving water, these burdensome regulations have created a 
unnecessary headache for the American people who have been saddled with 
toilets and showers that in many cases do not work properly.
    In the view of millions of American consumers, the federal 
government has no business engaging in this type of unnecessary and 
counterproductive regulation. Therefore, in the 105th Congress, I first 
introduced legislation to repeal these ridiculous mandates. Since that 
time, my office has received thousands of phone calls, letters, and e-
mails from disgruntled consumers who are angry that their new toilets 
repeatedly clog, require multiple flushing, and do not save water.
    Their message is clear and straightforward: Get the federal 
government out of my bathroom.
    At this time, I request the committee's permission to show a 
segment from the ABC News' program, 20-20. This footage clearly 
outlines the issues at hand and offers testimonials from several 
Americans who are unhappy with the quality of the 1.6 gallon toilets.
    Thank you Mr. Chairman for your indulgence.
    Ladies and gentlemen on the committee, this tape makes a compelling 
case that there is no legitimate reason for the federal government to 
be in the business of regulating the American people's toilets.
    There are many challenges that face our nation, i.e. securing the 
future of Social Security, cutting taxes for working Americans, 
improving the quality of our schools, etc.
    Clearly, the federal government has more important things to do 
than regulating the amount of water used to flush a toilet.
    This regulation offers a vivid example of why the American people 
believe their federal government is too large and too intrusive. H.R. 
623 responds to these concerns. This bill does not impose any new 
mandates on plumbing manufacturers. It simply provides them with the 
opportunity to make a product that the American people will want to 
buy.
    Strangely enough, the Plumbing Manufacturers Institute has led the 
opposition to this common-sense, pro-consumer legislation, and I am 
still perplexed by their opposition.
    In conversations with representatives from the industry, I have 
been told that the 1.6 gallon toilets work and that consumers are happy 
with them.
    This is contrary to the messages I have received from angry 
individuals from every region of the country, but for the sake of 
argument, let's concede their point.
    This raises an interesting question: Given the fact that my bill 
simply ends the federal government's regulation of toilets and does not 
require the plumbing manufacturers to meet any new federal 
requirements, why are they so worried?
    If the 1.6 gallon toilets work, consumers will buy them, and the 
plumbing manufacturers will continue to make money. And, if states and 
localities believe that regulation of this type is vital to their well-
being, H.R. 623 does nothing to prevent them from adopting these kinds 
of standards at the state and local level.
    In reality, consumers are not happy with the performance of the 1.6 
gallon toilets, and the plumbing manufacturers know that if the federal 
standard is eliminated someone will enter the market and produce a 
product that consumers want to buy at a reasonable price.
    This is not something to for the narrow, special interests to be 
afraid of. It's capitalism, and it has served the American people well 
for over two hundred years.
    Mr. Chairman, while there is no question that this issue registers 
on the giggle meter, it's no laughing matter for the individuals who 
have been forced by politicians in Washington to use an inferior 
product.
    Make no mistake, the American people are upset, and they are 
demanding that Congress do something about this egregious intrusion of 
the federal government into their daily lives.
    In fact, the situation has gotten so bad that many individuals are 
traveling out of the country just to pick up a toilet that works. This 
is a common occurrence at the Detroit/Canadian border.
    Clearly, the time has come for Washington to get out of the 
American people's bathrooms. It's time for us to correct this 
overzealous federal regulation. It's time to get back to a little 
common sense.
    And it's time for this Congress to say to the American people, we 
understand the difference between appropriate regulation and just plain 
bad regulation. This is bad regulation, and it needs to be repealed 
now.
    I want to thank the members of the committee for your consideration 
of this issue, and I look forward to working with you to resolve this 
problem once and for all.

    Mr. Barton. Is that your opening statement?
    Mr. Knollenberg. That is. In fact, if I can submit for the 
record some additional materials, but that is the statement.
    Mr. Barton. The Chair is going to recognize himself for the 
first 5 minutes. If we have a speedy member, we will try to 
keep the hearing going if we can get somebody to go vote and 
come back. We will suspend briefly if we have to.
    My first question is the individuals that go to Canada or 
Mexico and bring a higher capacity device back into the 
country, they are not violating any law by doing that, are 
they?
    Mr. Knollenberg. They are not. The toilets are actually 
exported to Canada, and in effect they are imported by 
Americans going over the line and back into the U.S.
    Mr. Barton. So a U.S. manufacturer can manufacture the 
higher capacity equipment and export it legally and then 
American citizens can go to foreign countries, purchase it 
legally and bring it back into the country legally?
    Mr. Knollenberg. Individuals can do that on an individual 
basis.
    Mr. Barton. And the current Federal standards that are on 
the books today, are those for individual homes or do they also 
encompass hotels and apartments?
    Mr. Knollenberg. They apply to both individual residences 
and commercial. That law went into effect a little later, but 
it has come on line now so it does impact the commercial 
products as well.
    Mr. Barton. So if we pass your legislation, we are not 
repealing the State and community right in a community setting 
to impose a standard, if they so wish?
    Mr. Knollenberg. They can do whatever they are doing now. 
This bill does nothing to intervene or involve itself with 
current law or practice. And what we literally are doing is 
saying if you love the 1.6 gallon toilets, you can have them. 
And in those areas that choose to take that type of device, 
they are certainly able to do so. But we don't have any 
movement or any opposition to that.
    Mr. Barton. Has any consumer group, Consumer Reports 
Magazine, Good Housekeeping, has anybody done any studies to 
verify the anecdotal evidence that the lower capacity toilets 
don't work as well?
    Mr. Knollenberg. Others will comment on that, Mr. Chairman, 
but yes, there have been those kinds of reports. And I would 
simply say, why am I hearing from thousands and thousands of 
people if these products work so well? And I would just tell 
you that people are not happy with the performance. They are 
not happy with the quality of performance. And if they choose 
to buy one that does work, they may find that it is going to 
cost substantially more than the typical standard regular 
toilet they have been used to. It is only when you get into 
changing or remodeling your bathroom or new home that you have 
this problem. So we have touched a small percentage of 
American's households, and I think that is why this flame has 
gotten pretty high with respect to irritation.
    Mr. Barton. What is your answer to the concern raised by 
the supporters of the existing law, Mr. Bilirakis and others, 
who say that water consumption has actually declined because of 
this new equipment, and that is a noble goal and if we repeal 
it, water consumption usage would go back up?
    Mr. Knollenberg. I don't believe that they will go back up. 
But let me just say that the studies that have been done only 
have a small percentage of American households that have had to 
make that conversion from the old to the new. The data is 
pretty much limited. It is very small.
    And I would tell you that I personally would like to see 
water consumption reduced because I think we do have an 
obligation to consider that. If they can do it with 1.6 gallon 
toilets, great. If they can do it with 1 gallon, great. There 
is technology perhaps that is on the cusp of coming into being, 
but it is not here yet. What we have seen is they have slid a 
product into our face that is a one size fits all that may or 
may not work. Americans are not used to that. They are unhappy 
and frustrated about it. So in the end I think we are on the 
same side of the fence but all of those communities that want 
to continue the water conservation problems that they have, 
even if they want to double flush, can do so.
    Mr. Barton. Assuming that we find support to mark this up 
in subcommittee and pass it at full committee, and that is an 
assumption, what is your view of how many votes this 
legislation might get as a stand-alone bill out on the floor?
    Do you believe that you have got sufficient support to pass 
it on the House floor if we can get it through subcommittee and 
full committee?
    Mr. Knollenberg. I believe we can do that. Let me say also 
that the reason for this hearing is to bring this out in the 
open so we do have a chance to let the sun shine in and show 
members of the committee what is taking place here, that the 
mandate is not something that is going to hurt the existing law 
or the existing situation.
    So I believe we will have a better opportunity after this 
hearing is concluded, and thank you for bringing about a 
successful move in the direction of bringing it to closure.
    I would just tell you that any optimism is there, but I am 
only going to make a judgment on this after the hearing is 
over. I think that will help us a great deal.
    Mr. Barton. It just dawned on the chairman that the witness 
has to vote also. I can't continue the hearing because you 
would miss the vote. So we are going to recess but we are going 
to go vote and come back ASAP. I am not going to give a time. 
But as soon as the last vote is over, we will be reconvening 
within 10 minutes of the last vote on the House floor. So we 
are in recess very briefly.
    [Brief recess.]
    Mr. Barton. The committee will come back to order.
    The gentleman from Illinois, Mr. Rush, will be recognized 
for 5 minutes for questions.
    Mr. Rush. Thank you, Mr. Chairman. I am eager to unplug 
this process here.
    Mr. Barton. That is a mild way to put it.
    Mr. Rush. Mr. Knollenberg, there is a minimum standard 
right now of 1.6 gallons, I believe it is.
    Mr. Knollenberg. That's right.
    Mr. Rush. If you were going to raise the standard, what is 
your recommendation?
    Mr. Knollenberg. I have no recommendation. The bill speaks 
to no recommendation. It merely says let's get away from the 
1.6 gallon toilets. Now that might generate through technology 
a toilet that works and performs because we are really looking 
at performance. That is our goal. It could be that they could 
work on a gallon. I don't have any higher level in mind, and 
the bill does not speak to any.
    Mr. Rush. Your bill has been around for a couple of years. 
Are there different States, Governors, or legislative bodies 
that have endorsed your bill?
    Mr. Knollenberg. We have not gone after Governors or 
legislative bodies, but what we have done is within the 
membership of Congress we have concentrated on getting their 
endorsement and we have 85 Members of the House that have 
supported it openly.
    What we do get of course, as you will find from these other 
gentleman who will testify, is support from a variety of arenas 
that are from people all over the country. The folks we are 
hearing from are from California and Maine and Michigan, Texas, 
all of them. I can't tell you that it has been anything but a 
panorama of response.
    Mr. Rush. My final question, Mr. Chairman, I just 
recently--just this year, moved from the Cannon Building to the 
Rayburn Building and I have noticed a difference in the way the 
toilets flush in the Rayburn Building versus the Cannon 
Building. Is the Federal Government, has the Congress--are our 
toilets----
    Mr. Barton. It is hard to phrase it properly.
    Mr. Rush. It is. Are we at the same standard? Does this 
law--are we adhering to the law?
    Mr. Knollenberg. The law comes into focus whenever there is 
a remodeling process or if there is a new building and they 
need to change the old toilets. So I couldn't tell you if we 
are or not. Honestly, you would have to ask somebody frankly 
who--perhaps the Architect would know the specifics of that. I 
can't even tell you whether it is a 1 gallon urinal. I can tell 
you about the 1.6 gallon toilet, and I can tell by the way it 
works or doesn't work.
    Mr. Barton. We are not subject to the specific law because 
the building was constructed before 1992.
    Mr. Knollenberg. There is no mandate that says you have to 
change tomorrow. You can last for 50 years. If the thing works, 
you can keep it. I am just not aware of what that status is.
    Mr. Rush. I am sure that this law is not--that this 
standard is not operational for the Members of Congress because 
we don't hear the same outcries that we hear from consumers. So 
I am sure that it is not the same standard.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Barton. I now recognize Congressman Bilirakis for 5 
minutes of questions only.
    Mr. Bilirakis. Thank you, Mr. Chairman. Joe, and I want to 
commend you and compliment you for your presentation.
    Mr. Knollenberg. Thank you.
    Mr. Bilirakis. I am not belittling this issue, but we have 
had some high powered health care hearings and things of that 
nature, and we never can get any media, and you somehow managed 
to get the media here today. Maybe I can learn from you in that 
regard.
    Mr. Barton. It is just his smiling face that they like to 
cover.
    Mr. Bilirakis. And my not smiling face, I guess.
    The gentleman from Illinois just said that he has not had 
an avalanche of indications here on this legislation. We have 
received 5 letters over 3 years since you first introduced your 
legislation in support of your legislation, and I am advised by 
my staff we have about a half foot high pieces of 
communication, principally I will admit from suppliers and 
plumbers and whatnot, who are very much against the 
legislation, Joe.
    Again, I want to repeat because the chairman and I spoke 
about this on the way back from the vote, the 328 to 79 vote 
that a couple of us have mentioned previously, that was not a 
vote on the omnibus piece of legislation, the water bill. That 
was a vote on adding this amendment, to the omnibus bill back 
in May 1992. So we had 328 members who at that time felt very 
strong about this issue. Obviously an awful lot of those 328 
felt, including myself, are very much for States rights and 
generally against more government regulations and things of 
that nature. Yet Congress felt awfully strongly back in those 
days that it was necessary to do something here. The State of 
Pennsylvania is going through drought problems, as are so many 
other parts of the country.
    I am also advised that Consumer Reports tells us that their 
post-installation studies promoting major toilet rebate and 
replacement program show a significant degree of satisfaction 
with the new fixtures.
    San Diego consumers who participated in a toilet rebate 
replacement program were satisfied with their new 1.6 gallon 
per flush toilets. In Austin 95 percent of users were 
satisfied; and Tampa, Florida, 91 percent were satisfied. And 
Joe, on the double flushing situation I am also told, and this 
will be testified to later on by our Tampa representative, in a 
soon to be released study, AWWA Research Foundation has found 
that even in instances of double flushing, the slightly higher 
flushes per day did not offset the volume of water used by the 
larger volume flush toilets. And further, the study stated that 
on average double flushing of low flush toilets does not appear 
to happen any more often than double flushing of nonlow-flush 
toilets.
    So we have talked about customer satisfaction and the 
double flushing. We have talked about the strong support for 
this legislation on this particular amendment, if you will, 
adding it to the overall bill. We have talked about the 
nonavalanche of letters that I have received. What I have 
received have been against your legislation. With all due 
respect, we had good reasons to do it back at that time. You 
have good reasons, I am sure, to come in with your piece of 
legislation. I can ask you maybe a question and that sort of 
thing, but I don't know that we really ought to be doing that.
    Mr. Knollenberg. Could I respond.
    Mr. Barton. I didn't hear a question.
    Mr. Knollenberg. I think you brought up a good point, if 
you would indulge. You are right about that vote, it was on the 
amendment.
    Mr. Barton. Let the record show that I voted against it, 
though.
    Mr. Knollenberg. I want to remind you the limited amount of 
debate was probably 10 to 15 minutes. You also remember this 
was an amendment to a much larger bill. And it was done in a 
very sped-up fashion. Some of the folks that voted for that 
particular amendment the last time are on my bill. So I think 
you have to also realize that it was probably done in----
    Mr. Bilirakis. They are going to have to answer to that.
    Mr. Knollenberg. I know about Consumers Reports and the 
studies which have been done. You can get them. But I can tell 
you if you only had five, I have tens of thousands. Well over 
10,000 responses, I can tell you for sure. We have those locked 
in a room. Perhaps you are on a closed circuit. We are not and 
we got tons of them.
    Mr. Barton. The Chair will stipulate that there are members 
that try to be on both sides of an issue. I know that is a 
revelation. I can see how people would vote for the amendment 
that Congressman Bilirakis supported and then be on your bill. 
It would not be the first time that a member has tried to 
placate both sides of an issue.
    The gentleman from Georgia, Mr. Norwood, is recognized for 
5 minutes.
    Mr. Norwood. Thank you very much, Mr. Chairman.
    Mr. Knollenberg, as you know, the 103d Congress made a lot 
of votes. One of them was this amendment, and then the 104th 
Congress really changed a great deal. Are there any studies 
showing that great big change in Congress from the 103d to the 
104th might have been related to the 328 votes that voted for 
this Federal Government controlling our bathrooms.
    Mr. Barton. It was the 102d Congress. There was a change 
between the 102d and 104th.
    Mr. Knollenberg. We have not analyzed that.
    Mr. Norwood. I would if I were you.
    Mr. Knollenberg. That bill in its original form wasn't 
effective overnight. The trigger was forward on both 
residential and commercial. So if you are talking commercial, 
they were not affected until a couple of years later. So I 
think it had a future effective date. It didn't appear to be a 
problem of immediate concern, and it wasn't. It has only been 
when you remodel or only when you build a new house you have to 
deal with the problem.
    Mr. Norwood. Are you familiar, Mr. Knollenberg, with the 
studies I keep hearing thrown out saying since we have gone to 
the 1.6 gallon per flush toilet, such and such community saved 
X amount of water? Do you know how they determine that?
    Mr. Knollenberg. I am familiar with several of those 
studies. In fact, I think they are all flawed. Keep in mind 
that everybody in a given community has not made the 
conversion. In fact, in some communities very few have made the 
conversion from the old to the 1.6. I think you can infer a lot 
of things from an investigation or survey, but quite honestly, 
I think they are all flawed. I would even tell you that 
Consumers Report, if you read that one, cover to cover, I would 
challenge some of the comments made by recommendations that are 
made by Consumers Report. Incidentally, in the end they did not 
exactly really come down totally in favor of the idea, it was 
sort of the lukewarm endorsements.
    Mr. Norwood. How do they measure the amount of water saved 
at the wastewater treatment plant unless you can isolate the 
amount of water coming from the toilet to the wastewater 
treatment plant? How do you do this?
    Mr. Knollenberg. I think that is a good question. Frankly, 
I don't know how to do that. I recognize that is a problem 
though. I think some of the people that are going to appear on 
the next panel will be in a position to give you some insight 
there. In certain localities where they have not mandated, 
actually converted everything to the 1.6, they probably can 
draw from that conclusion that there is--that would be 
something I think that might be readable as maybe more factual.
    On the other hand, what was there before? Who knows? Was it 
a building that, frankly, had some ill working plumbing to 
begin with? Did they convert from that to the 1.6? The consumer 
will not know any difference.
    Mr. Barton. If the gentleman would yield quickly, what was 
the traditional standard toilet size before we went to 1.6?
    Mr. Knollenberg. It is interesting, I heard a comment here, 
I don't know who made it, that in 1970, some study, you could 
have had a 5 gallon, one bigger than that. I can't tell you 
exactly the date, perhaps others can, when they went to a 3.5, 
but you have--remember the older closets up on top? Those held 
some pretty substantial volumes of water.
    Mr. Barton. Is it fair to say that we cut it in half at a 
minimum?
    Mr. Knollenberg. I think you can say that, yes. The 1.6's 
did not just come out in 1992. They have been around for some 
time. Of course, the magic of 1.6 is that it is 6 liters. Where 
does that come from? We are not on the metric standard.
    Mr. Bilbray. Will the gentleman yield further? Isn't it 
true that prior to 1992, there are a number of States that 
already established 1.6 standards?
    Mr. Knollenberg. That is right. And, you know, Mr. 
Bilirakis, they can still do that. If they wanted that kind of 
system, they can still have it. My bill does not prevent that.
    Mr. Bilbray. I guess the point is there must have been some 
magic to the 1.6 for them to do it, 17 to do it, either prior 
or even having thought of it.
    Mr. Knollenberg. Certain communities across the country, 
and you know where they are, obviously, did go to a water 
conservation method that included the 1.6's. I don't know if 
that was a central mandate within that particular governmental 
entity, but I do know that they have done that.
    How, all I can say is they choose to do that. If their 
happiness in performance is satisfactory, if their performance 
is satisfactory, and they are happy about it, then I would say 
that they have nothing to worry about. We are not going to 
touch that. This bill does not get into that. We just do not 
think that a one size fits all is good for the entire country.
    Mr. Bilbray. Thank you. I apologize.
    Mr. Norwood. No problem. Mr. Chairman, thank you.
    In conclusion, and perhaps this question is directed to 
counsel or you, but I understood you to say that the reason we 
really don't have any trouble with any of this in Washington, 
or at least in the Federal buildings, is that none of this 
applies to any of the Federal buildings built prior to 1992.
    Mr. Barton. That is correct, unless we were to do a massive 
remodeling program. Then I think it would apply. I am not even 
sure it would apply in that case. It would be interesting. It 
could be argued it would apply.
    Mr. Norwood. Would it apply if you simply wanted to repaint 
the inside of Rayburn? Does that mean you would also have to 
change the toilets?
    Mr. Barton. No.
    Mr. Norwood. Is that true in the private sector?
    Mr. Barton. I think you can repaint without having to redo 
toilets in the private sector. I am speaking like I really know 
what I am saying here. So far the experts are nodding their 
heads.
    Mr. Norwood. Well, part of what you said was it really 
costs a lot of money if we had to do it at this level up here. 
It would be very----
    Mr. Barton. Actually Mr. Rush said that.
    Mr. Norwood. Well, I presume it would take a lot of money 
to redo all of these buildings. But, you know, it takes a lot 
of money for a little individual to have to redo their building 
too, to replace perfectly good toilets, to put in new toilets 
because 328 people up here debated 10 minutes they ought to 
have to do it. So I encourage you, Mr. Knollenberg, we will get 
there.
    Mr. Barton. I believe the next gentleman who was here at 
the time would be the gentleman from Tennessee, Mr. Bryant, for 
5 minutes.
    Mr. Bryant. Thank you, Mr. Chairman. I would still have an 
interest in hearing from other panel members, and I appreciate 
very much Mr. Knollenberg's very fine presentation. In light of 
our time constraints, I would like to go ahead and move forward 
and yield back my time.
    Mr. Barton. The gentleman from Illinois, I would encourage 
you to follow the standard just set by the gentleman from 
Tennessee.
    Mr. Shimkus. I have great respect for my friend and 
colleague from Tennessee and I follow the same standard.
    Mr. Barton. Thank you. I see no other member present who 
has not had an opportunity. We will hold the record open for 
any questions members wish to forward to you. We thank you for 
your persistence in this, Congressman. I think based on the 
next two panels, we will see if there is a consensus on whether 
to move forward or not. We appreciate your testimony, but you 
are excused at this point in time.
    Mr. Knollenberg. Mr. Chairman, members, thank you. I 
greatly appreciate you being willing to listen to all this.
    Mr. Barton. We would now like the second panel to come 
forward. We have Mr. Ben Lieberman, who is representing the 
National Consumer Coalition. We have Mr. Glenn Haege, who is a 
talk show host in Michigan. We have Mr. Gerald Kosmensky, who 
is the President of Gerald building company, a construction 
company, and Mr. Jerome Taylor, who is the Director of Natural 
Resource Studies for the Cato Institute.
    Gentleman, welcome to the committee. Your statements are in 
the record in their entirety. We are going to start with Mr. 
Lieberman and go right down the line and give you each 5 
minutes to summarize. Then we will have questions.

   STATEMENTS OF BEN LIEBERMAN, POLICY ANALYST, COMPETITIVE 
   ENTERPRISE INSTITUTE, REPRESENTING THE NATIONAL CONSUMER 
COALITION; GLENN HAEGE, TALK SHOW HOST, WXYT; GERALD KOSMENSKY, 
PRESIDENT, GERALD BUILDING COMPANY; AND JEROME TAYLOR, DIRECTOR 
          OF NATURAL RESOURCE STUDIES, CATO INSTITUTE

    Mr. Lieberman. Good afternoon. My name is Ben Lieberman and 
I am a policy analyst with the Competitive Enterprise 
Institute.
    Mr. Barton. You need to put the microphone close to you, 
Mr. Lieberman.
    Mr. Lieberman. The Competitive Enterprise Institute is a 
public policy organization committed to advancing the 
principles of free enterprise and limited government. Today I 
represent 9 member organizations of the National Consumer 
Coalition, with a total of more than 3 million members. None of 
the groups I am representing today receive Federal funding 
relevant to the subject of these hearings, and none have a 
financial stake in this matter. My remarks will focus on the 
consumer perspective on the Federal law mandating low flush 
toilets. I believe that consumers have been harmed by this law 
and that passage of H.R. 623, which would repeal it, is in the 
best interests of the American people.
    In 1992, several conservation and environmental lobbyists 
were successful in adding language to the Energy Policy Act 
requiring that toilets use no more than 1.6 gallons per flush, 
less than half the water of most existing models. At the time, 
the general public had virtually no idea what was being done to 
them. However, since the mandate took effect in 1994, millions 
of Americans, whether buying a new house or just replacing an 
old toilet, have had bad experiences with these water stingy 
models.
    Simply put, these new toilets do not perform as well as 
their higher flush predecessors, yet cost considerably more. 
Many complain that the new toilets require increased cleaning 
and clog up more frequently. Others complain of the need to 
flush more than once, which in addition to being annoying and 
unpleasant, cuts into the amount of water that is actually 
conserved.
    Some insist that these problems are few and far between, or 
only apply to the earliest of the low flush models, but such is 
not the case. Quite the contrary, I have never seen a stronger 
grassroots backlash against a product than the one against low 
flush toilets. And although some of the newest 1.6 gallons per 
flush models are improvements over previous low flush versions, 
they are still not as good as the higher flush models, and the 
best of them cost considerably more. Indeed, a 1998 National 
Association of Home Builders survey found that 72 percent of 
homebuilders consider the 1.6 gallon toilets to be a problem.
    I think it is clear that there is widespread consumer 
dissatisfaction with these toilets. Nonetheless, I am sure we 
will hear arguments to the contrary from plumbing fixture 
manufacturers who currently enjoy a guaranteed market for these 
expensive low flush toilets that would never be able to compete 
in the absence of a mandate. We will probably hear similar 
arguments from various bureaucrats and activists who have been 
involved in this issue over the years. But before we get bogged 
down in the debate over which kind of toilet is best, let's not 
forget what the real controversy is: The issue is not whether 
low flush toilets are better or worse than high flush toilets; 
the real issue is who should get to decide such things, 
individual consumers, or special interests. Clearly, this is a 
choice best left to the consumer, and that is what H.R. 623 
would do.
    Proponents of low flush toilets have implied that H.R. 623 
would somehow restrict the availability of low flush toilets, 
but nothing could be further from the truth. This bill in no 
way stops anyone who wishes to continue selling 1.6 gallon per 
flush toilets from doing so. It also in no way restricts 
consumers from buying low flush toilets, if that is what they 
really want. H.R. 623 would only serve to expand consumer 
choice by making the sale of higher flush toilets legal once 
again.
    By the way, this is why I find it so hard to believe the 
critics of H.R. 623, who insist that the new low flush toilets 
are as good or even better than the old style toilets. Assuming 
the 1.6 gallons per flush toilets are as good as their 
proponents say, then why are they so afraid of a little 
competition from the higher flush models?
    Looking into the future, if the low flush mandate is not 
repealed, the situation will likely get worse, not better, in 
the years ahead. Keep in mind that the 1.6 gallons per flush 
figure is just the starting point. The language in the statute 
delegates to the Department of Energy the authority to set even 
tighter standards in the future. And, as anyone familiar with 
Federal agencies knows, bureaucrats rarely pass up such 
opportunities, especially when pressured by special interests, 
some of whom are already hinting that more needs to be done.
    If H.R. 623 does not pass and the current law remains in 
place, expect a future push for 1.4 or 1.2, or maybe even 1.0 
gallons per flush toilets standards, the result of which could 
be even bigger problems for consumers.
    Although my remarks today focus on the consumer impact of 
the low flow toilet mandate, I would like to briefly address 
the conservation arguments put forward to justify this costly 
and intrusive measure.
    The claim made by the supporters of low flush toilets is 
that we need nationwide conservation measures to avert the 
coming national water crisis.
    Mr. Barton. You can at least finish your sentence.
    Mr. Lieberman. Let me go right to the end.
    Mr. Barton. Get to the bottom line here.
    Mr. Lieberman. The bottom line. In conclusion, I would like 
to try to put this issue in a broader context, especially since 
some in Congress may not see this as terribly important.
    Underperforming toilets, after all, are not as serious as 
most issues you deal with. But in a larger sense, the low flush 
toilet controversy and its resolution could be a signal for 
Washington's future direction.
    A Federal Government that believes it has the right, the 
need, and, quite frankly, the competence to set design 
standards for toilets is a government losing sight of its 
limits and its limitations. And if our government is so 
beholden to special interests that it will continue to foist a 
clearly unwanted choice on the American people, then there are 
few constraints on the damage it can inflict.
    On the other hand, a Congress that truly listens to the 
people, admits its mistake, and gets itself out of the plumbing 
business by passing H.R. 623 would be taking a very important 
step toward sensibility.
    Thank you.
    [The prepared statement of Ben Lieberman follows:]
 Prepared Statement of Ben Lieberman, Policy Analyst, The Competitive 
Enterprise Institute Representing Nine Members of the National Consumer 
                               Coalition
    Good afternoon. My name is Ben Lieberman and I am a policy analyst 
with the Competitive Enterprise Institute, a public policy organization 
committed to advancing the principles of free enterprise and limited 
government. Today, I represent 9 member organizations of the National 
Consumer Coalition, with a total of more than 3 million 
members.<SUP>1</SUP> None of the groups I am representing today receive 
federal funding relevant to the subject of these hearings, and none 
have a financial stake in this matter. My remarks will focus on the 
consumer perspective on the federal law mandating low flush toilets. I 
believe that consumers have been harmed by this law, and that passage 
of HR 623, which would repeal it, is in the best interests of the 
American people.
---------------------------------------------------------------------------
    \1\ 60 Plus Association, Americans for Tax Reform, Association of 
Concerned Taxpayers, Citizens for a Sound Economy, Competitive 
Enterprise Institute, Consumer Alert, Frontiers of Freedom, Heartland 
Institute, Seniors Coalition.
---------------------------------------------------------------------------
                   a bad idea with no public support
    In 1992, several conservation and environmental lobbyists were 
successful in adding language to the Energy Policy Act requiring that 
toilets use no more than 1.6 gallons per flush, less that half the 
water of most existing models. At the time, the general public had 
virtually no idea what was being done to them. However, since the 
mandate took effect in 1994, millions of Americans, whether buying a 
new house or just replacing an old toilet, have had bad experiences 
with these water stingy models.
    Simply put, these new toilets do not perform as well as their 
higher flush predecessors, yet cost considerably more. Many complain 
that the new toilets require increased cleaning, and clog up more 
frequently. Others complain of the need to flush more than once, which 
in addition to being annoying and unpleasant, cuts into the amount of 
water that is actually conserved.
     a widespread consumer backlash against an unwanted and poorly 
                           performing product
    Some insist that these problems are few and far between, or only 
apply to the earliest of the low flush models, but such is not the 
case. Quite the contrary, I have never seen a stronger grassroots 
backlash against a product than the one against low flush toilets. And, 
although some of the newest 1.6 gallons per flush models are 
improvements over previous low flush versions, they are still not 
nearly as good as the higher flush models, and the best of them cost 
considerably more. Indeed, a 1998 National Association of Homebuilders 
survey found that 72 percent of homebuilders consider the 1.6 gallon 
toilets to be a problem.
            consumers have a right to choose for themselves
    I think its clear that there is widespread consumer dissatisfaction 
with these toilets. Nonetheless, I am sure we will hear arguments to 
the contrary from plumbing fixture manufacturers, who currently enjoy a 
guaranteed market for these expensive low flush toilets that would 
never be able to compete in the absence of a mandate. We will probably 
also hear similar arguments from various bureaucrats and activists who 
have been involved in this issue over the years. But before we get 
bogged down in the debate over which kind of toilet is best, lets not 
forget what the real controversy is. The issue is not whether low flush 
toilets are better or worse than high flush toilets; the real issue is 
who should get to decide such things, individual consumers, or special 
interests. Clearly, this is a choice best left to the consumer, and 
that is what HR 623 would do.
              hr 623 would serve to expand consumer choice
    Proponents of low flush toilets have implied that HR 623 would 
somehow restrict the availability of low flush toilets, but nothing 
could be further from the truth. This bill in no way stops anyone who 
wishes to continue selling 1.6 gallons per flush toilets from doing so. 
It also in no way restricts consumers from buying low flush toilets, if 
that's what they really want. HR 623 would only serve to expand 
consumer choice by making the sale of higher flush toilets legal once 
again. By the way, this is why I find it so hard to believe the critics 
of HR 623 who insist that the new low flush toilets are as good or even 
better than the old style toilets. Assuming the 1.6 gallons per flush 
toilets are as good as their proponents say, then why are they so 
afraid of a little competition from the higher flush models?
         as bad as things are, regulators could make them worse
    Looking into the future, if the low flush mandate is not repealed, 
the situation will likely get worse, not better, in the years ahead. 
Keep in mind that the 1.6 gallons per flush figure is just the starting 
point. The language in the statute delegates to the Department of 
Energy the authority to set even tighter standards in the future. And, 
as anyone familiar with federal agencies knows, bureaucrats rarely pass 
up such opportunities, especially when pressured by special interests, 
some of whom are already hinting that more needs to be done. If HR 623 
does not pass and the current law remains in place, expect a future 
push for 1.4, or 1.2, or maybe even 1.0 gallons per flush toilets 
standards, the result of which would be even bigger problems for 
consumers.
   the conservation rationale behind this measure does not make sense
    Although my remarks focus on the consumer impact of the low flow 
toilet mandate, I would briefly like to address the conservation 
arguments put forward to justify this costly and intrusive measure. The 
claim made by the supporters of the low flush toilet mandate is that we 
need nationwide water conservation measures to avert the coming 
national water crisis. This argument greatly exaggerates the problem, 
and is but the latest in a long line of resource depletion doomsday 
scenarios, virtually none of which has ever come true. In fact, take 
out the word water, put in the word energy, and we've been through all 
this before with the energy crisis of the 1970s. If you remember back 
then, the self-proclaimed experts insisted that the world was going to 
run out of oil, by some estimates as soon as the 1980s or 1990s. They 
argued that federal conservation measures were the only way to prevent 
a very bleak future. Unfortunately, Congress believed them and enacted 
laws that burdened consumers with gas rationing and wasted billions of 
tax dollars on synthetic fuels research and other boondoggles. And of 
course, the energy crisis turned out to be a complete dud. Today, we're 
hearing the very same arguments (and in a few cases, the very same 
people making those arguments) in regards to the supposed water crisis. 
But the doomsayers track record indicates that we should be skeptical.
    The reality is that water is cheap and plentiful for the majority 
of Americans. Personally, I live in the Washington, DC metro area and 
pay about $4 and change for every thousand gallons, and that's water 
and sewer combined. Now I'm not a water policy expert, but $4 for a 
thousand gallons doesn't sound like a crisis to me. And what is true 
for this area is true for most of the nation. Now granted, there are 
parts of the country where water is more scarce or where sewage 
treatment facilities are bumping up against capacity, and we will hear 
from water officials representing those areas. However, these are local 
problems that can best be dealt with at the state or local level, and 
most likely in smarter ways than low flush toilet mandates. The current 
law simply forces a costly and intrusive solution on all Americans for 
something that simply is not a problem for most of them.
    there is no need for a federal one-size-fits-all toilet standard
    Defenders of the status quo have also made the argument that if the 
federal low flush law is repealed, it will just be replaced by a 
patchwork of conflicting state standards. Thus they argue, we are 
better off with a uniform federal low flush statute. This argument 
fails for several reasons.
    First of all, low flush toilet mandates are a very unpopular idea, 
and that is just as true at the state level as it is at the federal 
level. If the 1.6 mandate is killed by Congress, it probably will die 
out at the state level as well. Granted, there were some states that 
enacted low flush standards just prior to the Energy Policy Act, but 
these laws were passed in much the same way as the federal law--by 
special interests, working behind the scenes, with little if any public 
awareness, let alone public support. But today, the cat is out of the 
bag, the public has had to deal with the new toilets for several years, 
and they clearly don't like this mandate, no matter what level of 
government is trying to impose it. At this point, I find it hard to 
believe that the citizens of any state would put up with a low flush 
toilet standard that uniquely burdens them. But even if I am wrong and 
a few state governments try to retain the 1.6 gallons per flush 
standard, so be it. That is hardly an excuse to burden the citizens of 
all the other states as well. Again, the argument that we need a heavy 
handed, one-size-fits-all federal standard in order to usurp the states 
simply does not make sense.
                               conclusion
    In conclusion, I would like to try to put this issue in a broader 
context, especially since some in Congress may not see this issue as 
terribly important. Underperforming toilets, after all, are not as 
serious as most issues you deal with. But in a larger sense, the low 
flush toilet controversy and its resolution could be signal for 
Washington's future direction. A federal government that believes it 
has the right, the need, and quite frankly the competence to set design 
standards for toilets, is a government losing sight of its limits, and 
its limitations. And if our government is so beholden to special 
interests that it will continue to foist a clearly unwanted choice on 
the American people, then there are few constraints on the damage it 
can inflict.
    On the other hand, a Congress that truly listens to the people, 
admits its mistake, and gets itself out of the plumbing business by 
passing HR 623 would be taking a very important step towards 
sensibility. Thank you.

    Mr. Barton. Thank you, Mr. Lieberman.
    Mr. Haege, your statement is in the record. We would ask 
you to try to summarize in 5 minutes.

                    STATEMENT OF GLENN HAEGE

    Mr. Haege. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak with you and the committee today regarding 
this important bill under consideration, namely, the Plumbing 
Standards Improvement Act of 1999.
    This is a very important issue that affects every American 
in a very personal way. I would also like to thank Congressman 
Joe Knollenberg for introducing this bill.
    Mr. Chairman, first I feel that it is important to 
establish my background for you and the other members and why I 
feel very qualified to speak as an expert on home improvement 
and on the behalf of a great number of American homeowners 
across this country.
    My name is Glen Haege. I am known professionally as 
America's Master Handyman. Over 30 years ago I began my 
professional career working as a retail store manager and 
trainer for one of the country's leading paint manufacturers; 
namely, the Sherwin Williams Paint Company.
    After 8 years, I then began working in the retail hardware 
industry as the general merchandise manager for ACO Hardware, 
the largest independent hardware store chain in the country, 
and served as one of their directors.
    Eighteen years ago I began making appearances on various 
radio and television programs on behalf of the hardware store 
chain to present advice and answer home improvement questions 
from listeners. In 1983, I began hosting my own radio call-in 
program called the ``Ask the Handy Man'' with Glen Haege show, 
on weekends on CBS owned WXYT radio in Detroit. The program was 
expanded over the years and now airs for 8 hours every weekend.
    Starting in October 1996, a 2-hour portion of my program 
has been nationally syndicated across the entire country. My 
show airs on stations in 48 States and on close to 200 radio 
stations. It is the most popular home improvement radio show in 
the Nation. It is estimated that over the years I have answered 
over 50,000 home improvement questions from listeners and at 
personal appearances.
    Fellow broadcast industry executives have also recognized 
my talents and I have recently been named as one of the 100 
most important radio talk show hosts in America. In addition, I 
write a weekly newspaper article for the Detroit News, which is 
syndicated around the country by Gannett Newspapers. I am also 
the author of 8 books on the subject of home improvement.
    Mr. Barton. We will stipulate you are an expert.
    Mr. Haege. Thank you. From these conversations, I can tell 
you without a doubt that there is a major problem in the 
bathrooms across America. It is just beginning to become 
apparent to most people. Basically, people everywhere complain 
their newer, low flush toilets just don't work.
    They don't know what is causing the problem, but they 
constantly complain about the toilets do not function properly 
to remove waste from the bowl and they have to flush repeatedly 
to get the job done.
    I have attended numerous trade industry shows and have 
discovered an interesting fact. Many plumbing manufacturers 
have boasted proudly that they are on their fourth or fifth 
generation design for their toilet bowls in a period of only 3 
years. Why are they having to keep spending their research and 
development dollars to keep redesigning 1.6 gallon flush 
toilets so often in such a short period of time?
    The passing of the amendments to the Energy Policy Act in 
1992 that mandated these new low flush toilets have spawned the 
growth of a new industry product called vacuum assisted flush 
systems. These are what you gentleman use in the building that 
you are talking about. They have added an average of $200 to 
the cost of a toilet. You may not know, but these vacuum flush 
systems have been installed in most new commercial buildings, 
such as the one in the Capitol. I know that many Members of 
Congress have received calls and letters from their 
constituents written on toilet paper. I started that in March 
1997.
    I have also been the recipient of thousands of notes and 
letters complaining. Many of them paid for plumbing 
professionals to come to their home and fix their toilet, only 
to be told that you should keep a yardstick next to their 
toilet to break up the waste so it would go down.
    It has gotten to the point that many Americans are crossing 
the border to Canada and Mexico to purchase these now illegal 
toilets, bringing them back over the border. This is not the 
way to handle this situation.
    Who is complaining about the 3.5 gallon toilets? Not the 
homeowners, gentleman. They were very satisfied with a system 
that has worked well for years. What measures of conservation 
are served when the homeowners have to flush several times? 
Nothing is saved. More resources are wasted.
    It is not a safety issue, it is not a cosmetic issue, it is 
a real pain in the bathroom that needs a second look. All we 
are saying is give people a choice. I know that you all know 
the old adage of if it ain't broke, don't fix it. Well, in my 
opinion and the opinion of thousands of people across America 
that call in to my radio program, the old 3.5 gallon flush 
toilets were not broken and the fix that was passed in 1992 by 
the U.S. Congress that mandates 1.6 gallon flush toilets is 
just not working, Mr. Chairman.
    Thank you.
    [The prepared statement of Glenn Haege follows:]
        Prepared Statement of Glenn Haege, Talk Show Host, WXYT
    Thank you, Mr. Chairman, I appreciate the opportunity to speak with 
you, and the Committee, today regarding this important bill under 
consideration, namely, the Plumbing Standards Improvement Act of 1999.
    This is a very important issue that affects every American in a 
very personal way.
    I would also like to thank Congressman Joe Knollenberg for 
introducing this Bill.
    Mr. Chairman, first I feel that it is important to establish my 
background for you and the other members of the committee and why I 
feel very qualified to speak as an expert on home improvement and on 
the behalf of a great number of American homeowners across the country.
    My name is Glenn Haege. I am known professionally as America's 
Master Handyman.
    Over 30 years ago, I began my professional career working as a 
retail store manager and trainer for one of the country's leading paint 
manufacturers, namely, the Sherwin Williams Paint Company.
    After 8 years, I then began working in the retail hardware industry 
as the General Merchandise Manager for ACO Hardware, the largest 
independent hardware store chain in the country, and served as one of 
their Directors.
    18 years ago I began making appearances on various radio and 
television programs, on behalf of the hardware store chain, to present 
advice and answer home improvement questions from listeners. In 1983, I 
began hosting my own radio call-in program, called the ``Ask the 
Handyman'' with Glenn Haege show, on weekends, on CBS-owned, WXYT-AM 
radio in Detroit.
    This program was expanded over the years and now airs for eight 
hours, live, every weekend.
    Starting in October 1996, a two-hour portion of my program has been 
nationally syndicated across the entire country. My show airs on 
stations in 48 states and on close to 200 radio stations. It is the 
most popular home improvement radio show in the nation.
    It is estimated, that over the years, I have answered over 50,000 
home improvement questions from listeners and at personal appearances.
    Fellow broadcast industry executives have also recognized my 
talents and I have recently been named as ``One of the 100 Most 
Important Radio Talk Show Hosts in America'' for the second year in a 
row by Talkers Magazine, a leading trade publication.
    In addition, I write a weekly newspaper article for The Detroit 
News, which is syndicated around the country by Gannett Newspapers. I 
also am the author of 8 books on the subject of home improvement. I 
have been quoted in major newspapers, such as The New York Times, The 
Washington Post, and The Boston Globe, regarding home improvement and 
this important issue.
    Based on length of my program, the number of stations that carry my 
show, audience ratings, newspaper articles and books, I can tell you, 
without doubt, that I speak to more people about home improvement, 
every weekend, than anyone else in America.
    This large audience reach gives me access to a great number of 
people who call in to discuss their home improvement problems.
    From these conversations, I can tell you without a doubt that there 
is a major problem in bathrooms all across America. It is just 
beginning to become apparent to most people. Basically, people 
everywhere complain that their newer, low-flush, toilets just don't 
work.
    They don't know what is causing the problem, but they constantly 
complain about the toilets do not function properly to remove waste 
from the bowl and that they have to flush repeatedly to get the job 
done.
    I have attended numerous industry trade shows and have discovered 
an interesting fact. Many plumbing manufacturers have boasted proudly 
that they are on their fourth or fifth generation design for their 
toilet bowls in a period of only 3 years. Why are they having to keep 
spending their research and development dollars to keep redesigning 1.6 
gallon flush toilets so often in such a short period of time? The 
answer must be because they, too, realize that their previous designed 
products just don't work.
    The passing of the amendments to the Energy Policy Act in 1992 that 
mandated these new low-flush toilets have spawned the growth of a new 
industry product, namely, the vacuum-assisted flush systems. These are 
add-on products that go inside the toilet water tank and use water 
pressure to push the waste through the toilet. They have added an 
average of $200 to the cost of a toilet. You may not know this, but 
these vacuum flush systems have been installed in most new commercial 
buildings, such as hotels, and maybe even right here in the U.S. 
Capitol. Since you don't have to deal with this problem where you work, 
you may not understand the gravity of this situation throughout 
America.
    I know that many members of Congress have received calls and 
letters from their constituents regarding this problem. I, also, have 
been the recipient of thousands of notes, many of them written on 
toilet paper, which ask the `Government to get out of my toilet.'
    I also got to read some of the horrible tales of woe from real 
Americans. Many of them paid for plumbing professionals to come to 
their home and fix their toilet problem only to be told that they 
should keep a yardstick next to the toilet to break up the waste so 
that it would go down easier.
    It has gotten to the point that many Americans are crossing the 
border to Canada and Mexico to purchase these now illegal toilets and 
bringing them back over the border for installation in their homes. 
Believe it or not, but the current law has created a Black Market in 
toilet smuggling.
    This is not the way to handle this situation. Who was complaining 
about the 3.5 toilets? Not the homeowners. They were very satisfied 
with a system that has worked well for years. What measures of 
conservation are served when the homeowners have to flush several 
times? Nothing is saved. More resources are wasted.
    I am here today to ask that the American homeowners be given a 
choice. Let the consumer decide on what size toilet that they would 
like to have in their own home. Let the consumers decide what they want 
and the free market will deliver the products that are preferred. If 
consumers that want the 1.6-gallon toilets for their own home, let them 
have them, but please don't force these toilets in everyone's bathroom.
    It is not a safety issue. It is not a cosmetic issue. It is a real 
pain in the bathroom that needs a second look. All we are saying is 
give people a choice.
    I know that you all know the old adage `if it ain't broke . . . 
don't fix it.' Well, in my opinion, and the opinion of thousands of 
people across America that call in to my radio program, the old 3.5 
gallon flush toilets were not broken and the fix, that was passed in 
1992 by the U.S. Congress that mandates 1.6 gallon flush toilets, is 
just not working.
    Thank you.

    Mr. Barton. Thank you, Mr. Haege. We are very impressed 
with your background, by the way.
    Mr. Haege. Thank you.
    Mr. Barton. That was impressive. I was not trying to 
belittle that. You obviously are an expert in that.
    I would now like to hear from Mr. Kosmensky. Again, your 
statement is in the record and we recognize you to summarize it 
in 5 minutes.

                  STATEMENT OF GERALD KOSMENSKY

    Mr. Kosmensky. Thank you, Mr. Chairman and members of the 
subcommittee, for the opportunity to testify before you today. 
My name is Gerald Kosmensky. I am a home builder from 
Southgate, Michigan, and I have been building houses for 40 
years. I am the past President of the Building Industry 
Association of Southeastern Michigan and past President of the 
Michigan Home Builders Association. I am the Mayor of the city 
of Orchard Lake, Michigan, and a constituent of Representative 
Joe Knollenberg. I am pleased to be here to testify in support 
of H.R. 623, legislation repealing federally mandated 1.6 
gallon flush toilets. I applaud Representative Knollenberg for 
introducing this important legislation.
    I am also a Senior Life Director of the National 
Association of Home Builders and a member of the NAHB's 
Executive Committee. However, I am not here today testifying on 
behalf of NAHB. NAHB has recently taken a neutral stance on 
this legislation in the hope that the significant problems with 
the manufacturing of 1.6 gallon toilets can be worked out with 
the manufacturing community without further Federal Government 
intervention.
    Fortunately, introduction of this bill has spurred 
productive discussions between the building industry and 
plumbing fixture manufacturers as to what must be done 
mechanically to low flow toilets so that they function 
properly.
    The core problem addressed by H.R. 623 is that many low 
flow, 1.6 gallon toilets, just do not work. That means I have 
to place a product in a new home that is not going to function 
properly. This is very disturbing to a small businessman who 
has to rely on good referrals in order to drum up continued 
business. The bottom line is that my reputation as a builder is 
negatively affected when I am installing plumbing fixtures that 
do not work properly.
    I hear time and time again from my colleagues all over the 
country that new home buyers are dissatisfied with their 
toilets. In some cases, builder friends of mine have indicated 
that at least half of their call backs are due to toilets not 
working properly. Every time a builder has to make this kind of 
call back, it takes time away from other projects.
    Oftentimes when I tell a new homeowner that the reason 
their toilet doesn't work has nothing to do with the plumbing 
installment, but because of a Federal mandate on low flow 
toilets, they think I am joking, that I am making an excuse for 
the bad plumbing in a new home. I have made it a policy to tell 
my customers up front about the low flow law.
    Coming from a State that borders Canada, where there is no 
1.6 gallon requirement and 3.5 gallon toilets are the norm, 
many customers opt to buy their toilets on the black market. 
They can buy all the 3.5 gallon toilets they want with a short 
trip to Windsor, Ontario. This may sound ridiculous, but it is 
a fact and an issue which we address every time we build a new 
home.
    There are many horror stories that I could share with you. 
I have heard of homeowners putting instructions on their 
bathroom doors for guests instructing them how to help make the 
toilet flush with plungers and extra cups of water. I submit to 
you this is absurd.
    NAHB's research center in Maryland recently put a survey on 
their Internet site for consumers and homebuilders to comment 
on the performance of low flow toilets. The responses have been 
overwhelmingly negative with both consumers and builders citing 
dissatisfaction with 1.6 gallon toilets.
    This is a common sense issue. If your toilets are not doing 
the job and homeowners are flushing twice or three times or 
pouring extra water in the bowl, we are not saving water or 
energy. If you stay in the shower for 5 or 10 minutes longer 
than you normally do because the water pressure is not getting 
the soap out of your hair, we are not saving water.
    It is disturbing to me as a citizen of the United States 
that the Federal Government is regulating the water used in my 
toilet. I ask myself, what is next? I hear that there is a 
movement to require all washing machines to be front loaded, 
which uses less water and energy, that is true, but a front 
load machine also holds a smaller load, so that means you will 
have to do 4 loads instead of 2. I ask again, how are we saving 
water and energy in these instances?
    I like to tell my customers that this mandate is 
government's version of planned obsolescence.
    Once again, as a builder from Michigan who has to live with 
the fact that these fixtures do not work every day, I want to 
give my wholeheartedly support to H.R. 623 and Representative 
Knollenberg's efforts in this regard.
    I want to thank the committee for allowing me to be here 
today.
    [The prepared statement of Gerald Kosmensky follows:]
  Prepared Statement of Gerald ``Jerry'' Kosmensky, President, Gerald 
                            Building Company
    Thank you Mr. Chairman and members of the Subcommittee for the 
opportunity to testify before you today. My name is Jerry Kosmensky, I 
am a home builder from Southgate, Michigan and I have been building 
homes for 40 years. I am Past-President of the Building Industry 
Association of Southeastern Michigan and Past-President of the Michigan 
Home Builders Association. I am Mayor of the City of Orchard Lake, 
Michigan and a constituent of Representative Joe Knollenberg. I am 
pleased to be here to testify in support of H.R. 623; legislation 
repealing federally mandated 1.6-gallon flush toilets. I applaud 
Representative Knollenberg for introducing this important legislation.
    I am also a Senior Life Director of the National Association of 
Home Builders (NAHB) and a member of NAHB's Executive Committee. 
However, I am not here today testifying on behalf of NAHB. NAHB has 
recently taken a neutral stance on this legislation in the hope that 
the significant problems with the manufacturing of 1.6-gallon toilets 
can be worked out with the manufacturing community without further 
federal government intervention. Fortunately, introduction of this bill 
has spurred productive discussions between the building industry and 
plumbing fixture manufacturers as to what must be done mechanically to 
low flow toilets so that they function properly.
    The core problem addressed by H.R. 623 is that many low flow, 1.6-
gallon toilets do not work. That means I have to place a product in a 
new home that is not going to function properly. This is very 
disturbing to a small businessman who has to rely on good referrals in 
order to drum up continued business. The bottom line is that my 
reputation as a builder is negatively effected when I am installing 
plumbing fixtures that do not work.
    I hear time and time again from my colleagues all over the country 
that new homebuyers are dissatisfied with their toilets. In some cases, 
builder friends of mine have indicated that at least half of their 
callbacks are due to toilets not working properly. Every time a builder 
has a callback it takes time away from other projects.
    Often times when I tell a new homeowner that the reason their 
toilet doesn't work has nothing to do with the plumbing installment, 
but because of a federal mandate on low flow toilets, they think I am 
joking--that I am making an excuse for the bad plumbing in the new 
home. I have made it a policy to tell my customers up front about the 
low flow law. Coming from a state that boarders Canada, where there is 
no 1.6-gallon requirement and 3.5 gallon toilets are the norm, many 
customers opt to buy their toilets on the black market. They can buy 
all the 3.5-gallon toilets they want with a short trip to Windsor, 
Ontario. This may sound ridiculous, but it is a fact and an issue with 
which we address every time we build a new home.
    There are many horror stories that I could share with you. I've 
heard of new home owners putting instructions on their bathroom doors 
for guests instructing them how to ``help the toilet flush'' with 
plungers and extra cups of water. This is absurd.
    NAHB's Research Center, in Maryland, recently put a survey on their 
Internet sight for consumers and homebuilders to comment on the 
performance of low flow toilets. The responses have been overwhelmingly 
negative with both consumers and builders citing dissatisfaction with 
1.6-gallon toilets.
    This is a common sense issue. If your toilets are not doing the job 
and homeowners are flushing twice or three times or pouring extra water 
in the bowl, we are not saving water or energy. If you stay in the 
shower for 5 or 10 minutes longer than you normally do because the 
water pressure is not getting soap out of your hair, we are not saving 
water.
    It is disturbing to me, as a citizen of the United States, that the 
federal government is regulating the water used in my toilet. I ask 
myself what is next. I hear that there is a movement to require all 
washing machines to be front loaded which uses less water and energy, 
but a front load machine also holds a smaller load, so that means you 
will just have to do four loads instead of two. I ask again, how are we 
saving water and energy in these instances.
    I like to tell customers that this mandate is the government's 
version of ``planned obsolescence.''
    Once again, as a builder from Michigan who has to live with the 
fact that these fixtures do not work everyday, I want to give my 
wholehearted support to H.R. 623 and Representative Knollenberg's 
efforts in this regard. Thank you for the committee's time.

    Mr. Barton. Thank you, Mr. Kosmensky. We would now like to 
hear from Mr. Taylor, who is representing the Cato Institute.

                   STATEMENT OF JEROME TAYLOR

    Mr. Taylor. Thank you, Mr. Chairman. I would like to thank 
the members of the subcommittee for the opportunity to testify 
today on H.R. 623. My name is Jerry Taylor. I am Director of 
Natural Resource Studies at the Cato Institute. My comments 
this afternoon will attempt to put the discussion in context by 
addressing the underlying realities of water markets.
    In brief, while there is a legitimate concern about water 
availability, overconsumption is an artificial phenomenon, a 
product of misguided public policy. Appliance standards are 
incapable of remedying the underlying causes of water scarcity 
and, moreover, introduce further distortions and inefficiencies 
in water markets. In my judgment, passage of H.R. 623 would 
move policy in the right direction.
    First, let us consider the anatomy of present water 
markets. How much water is delivered to consumers and what 
price to sell it are determined by political entities, not 
market agents. Water prices have thus been kept artificially 
low. Overconsumption and occasional shortages have been the 
inevitable result. The government has reacted not by raising 
water prices, but by mandating conservation, primarily on the 
less politically influential. The plumbing fixture mandates of 
the 1992 EPAct are a primary example of the kind of technical 
engineering fixes employed to manage water supply and demand.
    This story should sound familiar to this subcommittee. In 
fact, water policy today is a virtual carbon copy of energy 
policy in the 1970's. Then, as now, government rationalized 
regulation on the ground that a resource was too important and 
too scarce to be left to the marketplace. Then, as now, 
government restrained prices and controlled resource allocation 
to protect and subsidize various consumers. Then, as now, 
government responded to overconsumption not by freeing prices 
from government control, but by mandating conservation.
    America should have learned a very few important things 
about economics from the energy experience of 1970's. First, 
when regulations keep pricing below market clearing levels, 
shortages inevitably follow. Shortages are an artifact of 
public policy, not geology.
    Second, government agents cannot direct resource 
production, price or allocation decisions as efficiently as can 
market actors. When the tangled web of energy regulations were 
relaxed and eliminated in the 1980's, scarcity vanished.
    Third, mandatory conservation signals are a poor substitute 
for accurate market signals. The only way to avoid shortages is 
to rely on free market pricing and allocation.
    Finally, government directed conservation investments are 
unlikely to improve upon those that would be made if consumers 
are faced with the correct market signals.
    Now, would removing the mandated purchase of low flow 
toilets and shower heads make matters worse in light of what I 
just outlined? I don't think so. Total water consumption from 
1970 through 1990 declined in this country, despite growth in 
population and national GDP, and per capita use was lower in 
1990 than at any time since 1965.
    Absolute water consumption was about--is about in 1990 
where it was in 1975. Those positive trends, I should point 
out, have nothing to do with government conservation mandates. 
In fact, they predate the standards we are discussing today. 
But those trends continue because, one, effluent charges were 
imposed on industry which provided an incentive to industry to 
reduce water consumption. Two, stricter water quality 
regulations provided an incentive to recycle industrial 
discharges; and, three, reductions in agricultural demand 
reduced irrigation needs.
    Since 80 to 90 percent of all water consumption is by 
agricultural businesses in the 19 western-most States, low flow 
toilets or shower heads, no matter how efficient, do not have 
any appreciable impact on national water consumption. 
Conservationists, however, are right to fret over the 
overconsumption of water in the United States. Existing 
government policies are, frankly, absurd.
    In parts of the West, for example, highly subsidized water 
is being used in arid and desert regions to irrigate price 
supported crops currently in surplus and groundwater is being 
so polluted and wildlife so endangered that this irrigation has 
required massive federally funded cleanup measures.
    Water markets, like energy markets before them, need a dose 
of market discipline. Accurate pricing will surely even induce 
Americans to conserve. Some consumers may willingly install the 
very low flow shower heads and toilets targeted by H.R. 623. 
Others may decide that they value long, vigorous showers more 
than they value green lawns or a new pool. Governments, 
however, should not attempt to micromanage those decisions. 
Moreover, government should not hammer residential consumers 
for consumption habits that pale in comparison with the truly 
prodigious volumes of water being wasted as a direct 
consequence of government policy.
    Americans should learn from the mistakes of the 1970's and 
free water provision consumption from regulatory control.
    Thank you very much for your time, and I look forward to 
your questions.
    [The prepared statement of Jerome Taylor follows:]
Prepared Statement of Jerry Taylor, Director, Natural Resource Studies, 
                             CATO Institute
    I'd like to thank the members of the subcommittee on energy and 
power for the opportunity to testify today on HR 623, ``The Plumbing 
Standards Improvement Act of 1999.'' My comments this afternoon will 
attempt to put the discussion in context by addressing the underlying 
realities of water markets. The plumbing standards at issue are but a 
small thread within the larger tapestry of national water policy, and 
an understanding of that policy is necessary to judge the merits of HR 
623. In brief, while there is a legitimate concern about water 
availability, over-consumption is an artificial phenomenon--a product 
of misguided public policy. Appliance standards--such as those targeted 
for elimination by HR 623--are incapable of remedying the underlying 
causes of water scarcity and, moreover, introduce further distortions 
and inefficiencies in water markets. In fact, there are striking 
parallels between water and energy markets (and between water and 
energy policy) that serve to illuminate the underlying issues at stake 
in the debate over HR 623. In my judgement, passage of ``The Plumbing 
Standards Improvement Act'' would move policy in the right direction.
The Anatomy of Present Water Markets
    Water is delivered to consumers either by public entities or 
private companies regulated by public utility commissions. The 
questions of how much water to deliver to consumers--and what price to 
sell it--are likewise determined by political entities, not by market 
agents. Unfortunately--perhaps inevitably--governmental agents have 
directed water to politically powerful interests (primarily western 
agriculture) and under-supplied water to less politically powerful 
interests (urban consumers). Moreover, water prices have been kept 
artificially low.<SUP>1</SUP> Scarcity and shortage has been the 
inevitable result.<SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ Although present water charges are on average about half what 
they would be in a free market, the disparity between regulated and 
market price varies by consumer. Municipalities charge about $1 per 
1,000 gallons while industry and agriculture pay only 10 cents per 
1,000 gallons. Contrast those prices with bottled water, which sells at 
about $4,000 per 1,000 gallons. Peter Rogers, America's Water: Federal 
Roles and Responsibilities (Cambridge: MIT Press, 1993), pg. 1, 186.
    \2\ Terry Anderson and Pamela Snyder, Water Markets: Priming the 
Invisible Pump (Washington: Cato Institute, 1997), p. 7.
---------------------------------------------------------------------------
    Government has reacted--not by raising its price--but by mandating 
conservation, primarily on the less politically influential (the 
agricultural industry, which consumes 80-90 percent of all water 
withdrawn for human use, <SUP>3</SUP> has been generally immune from 
such strict conservation mandates). The plumbing fixture mandates of 
the 1992 Energy Policy Act are a primary example of the kind of 
technical, engineering fixes employed to manage water supply and 
demand.<SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ Ibid., p. 18.
    \4\ Rogers, pp. 101-103.
---------------------------------------------------------------------------
    The above story should sound familiar. In fact, water policy today 
is a virtual carbon copy of energy policy in the 1970s. The water 
industry, like the energy industry, is one of the nation's largest--and 
most heavily regulated--businesses, delivering a life-sustaining 
resource crucial to the economy.<SUP>5</SUP> Then, as now, government 
rationalized centralized control over the resource on the grounds that 
it was too important to leave to the marketplace, too scarce to be 
allocated by the cold logic of the invisible hand, and too riddled with 
market failures to be efficiently traded without government 
oversight.<SUP>6</SUP> Then, as now, government restrained prices and 
controlled resource allocation to protect and/or subsidize various 
consumers. Acute scarcity was the natural result.<SUP>7</SUP> Then, as 
now, government responded not by freeing prices but by mandating 
conservation.
---------------------------------------------------------------------------
    \5\ The water industry is by far the most capital-intensive 
industry in America and, in terms of annual capital expenditures, ranks 
only behind electricity and petrochemicals. The federal government 
alone employs over 90,000 people in ten cabinet departments, two major 
independent agencies, and 34 smaller agencies to oversee 25 separate 
water programs governed by more than 200 sets of federal rules, 
regulations and laws. State and local governments employ and additional 
50,000 regulators and consultants. Rogers, pg. 4, 15-16, 239-241.
    \6\ Ibid., 49-53
    \7\ Robert L. Bradley, Jr., Oil, Gas, and Government: The U.S. 
Experience (Lanham, MD: Rowman & Littlefield, 1996), pg. 465-532, 629-
710, and 1605-1694.
---------------------------------------------------------------------------
What the Energy Experience Can Teach Us About Water Policy
    America should have learned a few very important things about 
economics from the energy experience of the 1970s. First, when 
government regulations keep prices below market-clearing levels, 
shortages inevitably follow. Shortages are an artifact of public 
policy, not geology.<SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ M.A. Adelman, The Genie Out of the Bottle: World Oil Since 1970 
(Cambridge: MIT Press, 1996, pp. 11-39). Stuart Burness and James Quirk 
have likewise noted that ``Often, what appears to be a shortage of 
water is actually the manifestation of restrictions on water rights 
transfer.'' ``Water Laws, Water Transfers, and Economic Efficiency: The 
Colorado River,'' Journal of Law and Economics 23, April 1980, p. 133.
---------------------------------------------------------------------------
    Second, government agents cannot direct resource production, price, 
or allocation decisions as efficiently as can market 
actors.<SUP>9</SUP> When the tangled web of energy regulations were 
relaxed or eliminated in the 1980s, scarcity vanished. Subsequent 
supply disruptions did not usher in the scarcities or inconveniences of 
the 1970s even though the disruption of 1990 was as larger or larger 
than those of the 1973 and 1979.<SUP>10</SUP>
---------------------------------------------------------------------------
    \9\ ``Price controls and allocations produced the gasoline waiting 
lines which were `made in the USA,' not by the Arabs. They were made 
much worse by set-asides: first for farmers, then justice required them 
for truckers, etc. The result was more hoarding and less supply.'' M.A. 
Adelman, ``The World Oil Market: Fact and Fiction,'' Policy Analysis, 
Cato Institute, forthcoming. For an extensive treatment, see Bradley 
1996, pp. 1815-1910.
    \10\ Robert L. Bradley, ``What Now For U.S. Energy Policy? A Free 
Market Perspective,'' Policy Analysis no. 145, Cato Institute, January 
29, 1991, p. 2.
---------------------------------------------------------------------------
    Third--and most relevant to HR 623--mandatory conservation measures 
are a poor substitute for accurate price signals. It was rising 
prices--not mandatory conservation--which ultimately led to increases 
in energy efficiency in the 1970s and 1980s.<SUP>11</SUP> The only way 
to avoid shortages is to rely on free-market pricing and 
allocation.<SUP>12</SUP> Consumers circumvent mandatory conservation 
technologies by increasing consumption at the margin (the well-known 
``rebound effect'' <SUP>13</SUP>) or procuring through indirect 
channels the resource being denied them. Their behavior seems to be in 
agreement with M.A. Adelman's argument that ``energy conservation for 
its own sake regardless of price is the talk of the madman in Dr. 
Strangelove, obsessed with his `precious bodily fluids.' '' 
<SUP>14</SUP>
---------------------------------------------------------------------------
    \11\ ``Energy Security White Paper: U.S. Decisions and Global 
Trends,'' American Petroleum Institute, Washington, 1988, pp. 83-85.
    \12\ Robert Hall and Robert Pindyck, ``What to Do When Energy 
Prices Rise Again,'' The Public Interest 65, Fall 1981, pp. 59-70 and 
Richard Gordon, An Economic Analysis of World Energy Problems 
(Cambridge, MA: MIT Press), 1981.
    \13\ Economists are well aware of the fact that improving technical 
energy efficiency reduces the cost of, and thereby tends to increase 
the consumption of, goods and services that use energy. The degree to 
which energy efficiency gains will lead to increases in energy 
consumption depends upon the elasticity of demand for each of the 
effected energy service. Unfortunately, ``the rebound effect seems 
important for services with a significant conservation potential but 
negligible for services with a minor conservation potential in terms of 
kWhs'' (Franz Wirl, The Economics of Conservation Programs (Boston: 
Kluwer Academic Publishers, 1997, pg. 31, 139). The rebound effect 
applies to firms as well. For empirical documentation of the rebound 
effect, see David Greene and L.A. Greening, ``Energy Use, Technical 
Efficiency, and the Rebound Effect: A Review of the Literature,'' 
Report to the Office of Policy Analysis and International Affairs, U.S. 
Department of Energy, December 1997. For a review of the literature 
regarding the rebound effect and automobile transportation, see David 
Greene, James Kahn, and Robert Gibson, ``Fuel Economy Rebound Effect 
for U.S. Household Vehicles,'' Energy Journal 20:3, 1999, pp. 6-10.
    \14\ Adelman 1993, p. 495.
---------------------------------------------------------------------------
    Finally, government directed conservation investments are unlikely 
to improve upon those that would be made if consumers were faced with 
correct market signals.<SUP>15</SUP> Looking back at the mandatory 
energy conservation standards of the 1970s, MIT analysts observe that:
---------------------------------------------------------------------------
    \15\ As Nobel Laureate F.A. Hayek has noted, ``An economic actor on 
average knows better the environment in which he is acting and the 
probable consequences of his actions than does an outsider, no matter 
how clever the outsider may be.'' F.A. Hayek, ``The Use of Knowledge in 
Society,'' American Economic Review 35, 1945, pp. 519-530. For a review 
of public versus private decision-making in the energy economy, see 
generally Wirl, pp. 119-142.
---------------------------------------------------------------------------
        An error common to the programs was the concept that it was 
        wrong to consume, rather than that we should consume wisely in 
        view of the higher price of energy. For example, a goal was 
        that we should consume less, even where less meant also less 
        comfort, less productivity, and fewer goods and services--
        regardless of the cost effectiveness. The mistake was in 
        presuming that conserving less energy was the goal, and that 
        the goal had an intrinsic value. The blunder lives on today in 
        the mandates of virtually all state energy agencies (emphasis 
        in the original).<SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ Thomas Lee, Ben Ball, Jr., and Richard Tabors, Energy 
Aftermath: How We Can Learn From the Blunders of the Past to Create a 
Hopeful Energy Future (Boston: Harvard Business School Press, 1990), p. 
61.
---------------------------------------------------------------------------
    In fact, the energy experience indicates that conservation mandates 
and subsidized efficiency will not even achieve the goal of reducing 
net consumption.<SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ Wirl, pp. 185-206.
---------------------------------------------------------------------------
HR 623: A First Step
    Given the weak theoretical case for the plumbing standards 
established in the 1992 Energy Policy and Conservation Act (EPACT), 
consumer complaints about mandatory low-flow toilets and showers should 
be heeded by this Congress. HR 623 is indeed worthy of support.
    Yet the underlying problem that motivated passage of those 
standards should not be dismissed lightly. Conservationists are right 
to fret over the excessive consumption of water in the United States. 
Yet there is no reason for panic. Total water consumption has declined 
over the past 20 years despite growth in population and national GDP, 
and per capita use today is lower than at any time since 1965. Absolute 
water consumption is about where it was in 1975.<SUP>18</SUP> Steep 
projections of future needs are flawed in that they confuse need with 
demand.<SUP>19</SUP> Harvard's Peter Rogers thus ``sees no water crises 
at present in either water quantity or water quality.'' <SUP>20</SUP> 
As far as the future, Rogers notes;
---------------------------------------------------------------------------
    \18\ Rogers, pp. 34-35. The main reason water consumption has 
dropped over the past 20 years is that (1) effluent charges were 
imposed on industry (providing an incentive to reduce water discharges 
and thus water consumption itself), (2) stricter water quality 
regulations provided an incentive to recycle discharges, and (3) 
reductions in agricultural demand reduced irrigation needs. Rogers, pg. 
126, 147.
    \19\ ``Demand'' is a function of economics, the quantity of water 
that consumers are willing to purchase at various prices. ``Need'' is a 
projection of future trends based upon present price signals. Ibid., 
pp. 125-131.
    \20\ Ibid., p. 199,
---------------------------------------------------------------------------
        The United States could have a water crisis or just a modest 
        increase in demand. Which forecast should be used?--If the 
        regulators leave water sellers free to make water prices more 
        nearly represent the marginal cost of supply, and if realistic 
        pricing policies are pursued in cases where the supply has to 
        be controlled by government, then the forecast crisis will 
        never take place.<SUP>21</SUP>
---------------------------------------------------------------------------
    \21\ Ibid., p. 131.
---------------------------------------------------------------------------
Conservationists have identified a worrisome malady, yet their 
diagnosis of the problem and their prescription for recovery are 
incorrect.
    Water markets--like the energy markets before them--need a dose of 
market discipline. Water supply, allocation, and pricing decisions 
should be left to market actors with limited interference from 
government. The old rationales for government control over the water 
industry are not persuasive either theoretically or 
empirically.<SUP>22</SUP> Consumers have proven quite responsive to 
changes in water prices and water markets have been shown to work quite 
well when released from regulatory constraints.<SUP>23</SUP> This is 
particularly true in acute drought conditions, when government price 
controls are most counterproductive.<SUP>24</SUP> While state and local 
governments are primarily responsible for the municipal provision of 
water, the federal government should assist by eliminating to the 
greatest degree possible its own interventions in the water economy. 
Greater reliance on market pricing could be introduced to federal water 
project entitlements.<SUP>25</SUP> Allowing water transactions between 
consumer groups would also greatly facilitate the development of water 
markets.<SUP>26</SUP> The Commerce Clause could even be invoked to 
facilitate a break-up of state regulation.<SUP>27</SUP>
---------------------------------------------------------------------------
    \22\ Anderson and Snyder, pp. 49-53.
    \23\ Harvard's Peter Rogers concludes that ``First, the market 
seems to work quite well in allocating scarce water, specifically in 
the West. In fact, it works better than most economists themselves 
would have predicted only 10 years ago. Second, water consumption is 
clearly price responsive. The problem is finding some reasonable 
second-or third-best pricing schemes--In sum, while economic analysis 
and economic thinking by no means solve all the problems in the field, 
water managers and consumers must apply them if a coherent water policy 
is to emerge in the United States.'' Rogers, p. 150. See further 
Anderson and Snyder, pp. 8-12.
    \24\ Concludes oil economist M.A. Adelman, ``The almost 
unquestioned major premise among governments that in an emergency there 
has got to be a `fair allocation at reasonable prices,' is possibly the 
greatest single aggravating force in making disruptions worse then they 
need be.'' M.A. Adelman, The Economics of Oil Supply (Cambridge: MIT 
Press, 1993), p. 516. The success of the Drought Water Bank in 
California in ameliorating the worst effects of the 1987-1993 drought 
are clear testaments to the dramatic gains can that can be achieved by 
simply allowing market transactions in water. Rogers, pp. 8-10.
    \25\ Rogers (p. 187) argues that ``federal water project 
development has proceeded unevenly, inefficiently, and inequitably. It 
has been driven largely by the dictates of distributive politics. The 
result has been water often not available where it is most needed or 
desired and wasted or abused where it is available.'' Reallocation of 
water rights by the Bureau of Reclamation, the Army Corps of Engineers, 
the Tennessee Valley Authority, and the Soil Conservation Service would 
prove a major step in the right direction.
    \26\ Ibid., p. 154.
    \27\ For a comprehensive federal agenda for reform, see Anderson 
and Snyder. For a discussion of how the Commerce Clause might be used 
to constrain state and local regulation of the industry, see Paul 
Ballonoff, Energy: Ending the Never Ending Crisis (Washington: Cato 
Institute, 1997), pp. 73-102.
---------------------------------------------------------------------------
    Accurate price signals will surely induce Americans to conserve. 
Some consumers may willingly install the very low-flow shower heads and 
toilets targeted by HR 623. Others may decide that they value long, 
vigorous showers more than they value green lawns. More importantly, 
accurate price signals will reach the greatest sources of water waste 
and over-consumption--the agricultural industry--and even modest 
reductions in use would overwhelm the potential gains from residential 
conservation.<SUP>28</SUP> America should learn from the mistakes of 
the 1970s and free water provision and consumption from regulatory 
control.
---------------------------------------------------------------------------
    \28\ Rogers (pp. 31-32), notes that irrigated agriculture, located 
primarily in the 19 western states, consumes four times as much water 
as all other consumers combined. Anderson and Snyder (pp. 8-12) 
conclude that the water inefficiency is far greater in that sector than 
any other.

    Mr. Barton. Thank you, Mr. Taylor. The Chair would now 
recognize himself for the first 5 minutes of questions.
    I am going to ask the first question to Mr. Kosmensky and 
to Mr. Haege, since you seem to be the technical experts in 
this group. What would the traditional toilet cost, the 3.5 
gallon, if it were still available in the United States? I 
think, Mr. Kosmensky, you said these newer low flow toilets 
cost about $200 more. If they were to still be widely 
available, what would the older more traditional capacity 
toilets cost today?
    Mr. Kosmensky. I don't know what the toilets cost 
individually. I don't believe I made that statement. But I 
don't see why----
    Mr. Barton. You need to put the microphone close to you, 
sir.
    Mr. Kosmensky. I am not familiar with the costs of the 
toilet per se.
    Mr. Barton. Who said that the newer ones cost $200 more?
    Mr. Haege. I did, Mr. Chairman. The newer toilets that we 
are talking about, 1.6 gallon toilets, you can buy one on the 
market today for $79.95. You can buy a 3.5 gallon toilet, if 
they were still available on the market, for the same price. 
The difference is when we come to the vacuum flush. All toilets 
we are talking about in the 1.6----
    Mr. Barton. Stop just a second. On the market today you can 
get a water gravity flow 1.6 gallon low flow toilet for about 
80 bucks.
    Mr. Haege. That is correct.
    Mr. Barton. If they were available, you could buy the 3.5 
gallon for about 80 bucks.
    Mr. Haege. That is right.
    Mr. Barton. But does anybody, in the next panel, will the 
experts representing the manufacturers say that the water flow, 
the gravity flow 1.6 gallon toilet works?
    Mr. Haege. I don't know. We will ask them.
    Mr. Barton. Do you think it works?
    Mr. Haege. Well, my public tells me that it----
    Mr. Barton. Not the fancy vacuum assisted.
    Mr. Haege. We are talking about the gravity feed toilet, 
1.6 gallon, what my people, my constituents across the country 
tell me is no, no matter what price you pay.
    Mr. Barton. Because there is just not enough force 
generated by that weight of water?
    Mr. Haege. In talking with the plumbers and talking with 
the manufacturers across this country, and as widely as I 
travel to these sites, it is a case of too soon, too quick, too 
much regulation. It is like the car industry. We don't have a 
choice now with this regulation, gentlemen. If we had a choice, 
we would buy what we feel confident with, and maybe in the 
fourth bathroom or the fifth bathroom we would put a 1.6.
    Mr. Barton. To get it to work, you can get a low flow 
toilet to work, but you have to jazz it up with high 
technology?
    Mr. Haege. That is right, Mr. Chairman. You have to buy 
what we call a vacuum flush toilet, which is a fixture that the 
toilet manufacturers make and they buy a component from two 
manufacturers in this country, and that is added onto it. It 
looks like a little tank. And that shoots 1.5 gallons per 
minute, or per flush. But it develops 70 pounds per square inch 
of pressure. So if the 100 ball test is used as a standard of 
watching how something flushes through a DWV, which is a drain 
waste vent, you will see all the balls go down the drain waste 
vent at the normal slope rate.
    Mr. Barton. The assisted low flow flush costs $280.
    Mr. Haege. Correct, sir.
    Mr. Barton. Congressman Rush and myself and others, we have 
low income constituents. They probably can't afford that extra 
$200 just to get a toilet that flushes, or it is much more 
difficult.
    Mr. Haege. Not only the constituents, but also the 
builders. When they put in multiple families, they put in hotel 
rooms, they can't afford it either.
    Mr. Barton. Okay. I think that is the main question that I 
have got right now. I just wanted to see the effectiveness.
    One more engineering question. What if we took the low flow 
1.6 gallon and put it on the top of the roof and then had a 
pipe that went down into the first floor so that when you pull 
the lever or push the button, you let gravity kind of help you 
get a little momentum up before it hit the toilet bowl?
    Mr. Haege. I don't feel I am qualified to answer that 
question, but I don't want to go to that house.
    Mr. Barton. But it would have more power once it hit the 
bottom.
    Mr. Haege. The power, yes. It has to do with evacuation of 
the drop. That is what they keep working on with these new 
engineering changes. They have less parameter of engineering 
specs on the 1.6 gravity flush toilet so they have to clean up 
their act there where the water drop is.
    Mr. Barton. Okay. My time has expired. The gentleman from 
Illinois, Mr. Rush, is recognized for 5 minutes.
    Mr. Rush. Thank you, Mr. Chairman. Right now the bill that 
is before us, H.R. 623, the purpose of it is to repeal the 
previous bill and repeal the standards. If in fact we do, if 
the Congress repealed this particular bill, the current bill, 
rather, the current law, that would introduce either States or 
other localities introducing the opportunities for them to 
either go with 3.5 standard, 1.6 standard, or whatever standard 
they would deem necessary, am I correct? I will ask Mr.--Mayor 
Kosmensky.
    Mr. Kosmensky. They could do whatever they want. They could 
have it like it was before, that there was no restriction at 
all. You sold what the marketplace dictated. The marketplace 
dictated what you manufactured.
    Mr. Rush. In absence of a Federal standard, then wouldn't 
that place additional costs on--if each municipality or region 
had their own standard, wouldn't that place additional costs on 
manufacturers that would have to be met by the consumers? To be 
passed on to the consumers?
    Mr. Kosmensky. I don't think we would have that. Is that a 
question to me?
    Mr. Rush. Yes.
    Mr. Kosmensky. You wouldn't have that. You wouldn't have 
every State having all different kinds of restrictions on 
toilets. You think that they would, like before, just use the 
3.5, and that was it. Everybody used 3.5.
    Mr. Lieberman. I just wanted to make the point that this is 
a very, very unpopular idea, unpopular with people at the 
Federal level, at the State level and local level. I am 
confident that if H.R. 623 is passed, it will largely die out 
at the State and local level as well. I point out there were 
some States and localities that had these laws on the books, 
but from my research I haven't found a single instance that the 
people who lived there actually supported them. These were 
pushed by the same special interests who later argued that we 
have created this patchwork, we need a Federal standard, and 
came to Washington. But, quite frankly, I don't see any support 
for a 1.6 standard at any level of government, and maybe I am 
wrong, maybe one or two States, maybe a dozen or so localities 
will do so, but that hardly seems a reason to burden all the 
rest of America.
    Mr. Rush. So you are saying, if I am correct, and if I am 
interpreting what you are saying correctly, you are saying if 
in fact we repeal the current law and pass H.R. 623, then there 
would be a standard based on the desires or the demand of the 
consumers?
    Mr. Lieberman. There may be no standard at all, other than 
the marketplace.
    Mr. Rush. That is what I am talking about.
    Mr. Lieberman. It is hard to imagine the citizens of any 
State putting up with a low flush toilet standard that uniquely 
burdens them at this point. These laws were easy to pass before 
the toilets hit the market, but at this point this is very 
unpopular. I have seen virtually little evidence of any popular 
support. I would like to quickly respond about those surveys 
that are about Tampa, I think, San Diego, Austin, Texas, and so 
forth.
    I have taken a look at those and there are some very 
serious problems with them. First off, it looks as though they 
gave away the toilets and then asked the people how do you like 
your free toilet. Unfortunately, the other 99 percent of us 
have to pay good money for these toilets, and as far as I am 
aware, they didn't do a survey of us, or if they did, it wasn't 
included.
    There are some other problems with those surveys as well. 
They targeted low income housing, which is nice, but many of 
those apartments probably had plumbing problems to begin with, 
and they may have done general improvements, they may have 
replaced 20 or 30-year-old high flush toilets that were in a 
bad state of repair. So it is very difficult I think to be 
confident in those toilet giveaway programs.
    Mr. Rush. Do you think there would be any additional costs 
that would be passed on to both the manufacturers and also 
consumers if in fact we repealed this current law?
    Mr. Lieberman. I would have to say that they are less than 
the costs that consumers are suffering now with the 1.6 
mandate.
    Mr. Taylor. If I can, Mr. Congressman, I would like to 
point out that consumers ought to have, in my opinion, the 
right to decide how much they spend for services. It may well 
be that these low flush toilets, assume for the sake of 
argument they save consumers money. Well, we could save 
consumers money by banning car washes too and saying it is an 
aesthetic preference. You don't need to wash your car. It will 
save you money, it will save society resources. Isn't this 
Congress pro consumer? We would hesitate to do that because we 
have a respect for consumers purchasing their own preferences 
and making their own decisions, and it may well be they would 
be willing to pay more for a toilet that works.
    Mr. Rush. Mr. Chairman, I just have one comment. I just 
renovated a 100-year-old house a couple of years ago, and I 
remember my contractor telling me that when they installed the 
new toilets in my house, that in fact I was complaining about 
it, and he said well, you guys are the ones that made this law. 
So I couldn't say anything, but just to suffer the consequences 
so to speak.
    Mr. Burr [presiding]. Would the gentleman like to sell me 
the old toilets?
    Mr. Rush. I have already done that.
    Mr. Burr. The Chair recognizes the gentleman from Florida.
    Mr. Bilirakis. The question is, Mr. Rush, are you satisfied 
with your toilets?
    Mr. Rush. Absolutely not. Absolutely not.
    Mr. Bilirakis. Are not satisfied.
    Mr. Lieberman, with all due respect, sir, the Tampa 
representative will be testifying after this panel is finished 
up. I hope they will address your particular point as to how 
their surveys were taken, and that sort of thing. You may be 
correct, and then again you may not be. I don't know. But let 
me ask you, can I infer from your testimony that you do not 
support any other national efficiency standards for energy or 
water such as those energy standards now in place for 
refrigerators and air conditioners?
    Mr. Lieberman. Well, I thought the first refrigerator 
standard was reasonably good. I don't----
    Mr. Bilirakis. In other words, forgive me, it was okay if 
it is a national standard, as long as you thought it was pretty 
good, reasonably good.
    Mr. Lieberman. I am not sure----
    Mr. Bilirakis. National uniform standard.
    Mr. Lieberman. The standards really didn't make all that 
much difference. If you look at the levels of efficiency in 
refrigerators, they were trending downward anyway. The first 
standard, what I was trying to say, was actually fairly lax and 
didn't make much of a difference. Now we are on a third 
standard and things are starting to get tight. No, I think 
consumers can decide for themselves in the marketplace and 
manufacturers responding to those demands can provide them with 
the products they want in the absence, in most cases, of 
Federal standards.
    Mr. Bilirakis. Even in things such as refrigerators.
    Mr. Lieberman. Even in things such as refrigerators. We had 
no refrigerator standards until 1990 and we did okay.
    Mr. Bilirakis. I was going to ask you to comment.
    Mr. Taylor. I will jump right in there. There is a long 
footnote in my written remarks that I would point your 
attention to. The economics literature has studied the effects 
of these appliance efficiency standards now and there is 
voluminous literature that we can refer to when attempting to 
judge their effectiveness. And energy economists, as opposed to 
policy activists, are virtually unanimous in the belief that 
these appliance standards have made no difference regarding 
gross energy demand. The main reason is something economists 
call the rebound effect.
    If you reduce the marginal cost of a service, say the 
marginal cost of keeping your house cool on a hot summer day, 
consumers are going to consume more of that good. So by and 
large, what a great efficiency standard for an air conditioner 
is going to do is make it cheaper for me to keep my house at 68 
degrees or allow me to run the air conditioner to keep my dog 
comfortable at a lot lower price than it might otherwise have 
before.
    Consumers respond to pricing incentives and economists have 
found empirically, not when you are looking at engineering 
calculations, which is the way most energy activists look at 
these things. They calculate, well, you have this widget in 
your house and you are running it at the same amount, so it 
should have saved you X amount of money. When you are looking 
at empirical behavior, when you are looking at actual 
consumption practices, consumers tend to consume back, as it 
were, all of the energy we thought we saved with the efficiency 
mandate. So that in a nutshell is a good economic reason why 
most specialists in this field are very dubious about 
government efficiency mandates as a practical matter.
    Mr. Bilirakis. Let me ask the mayor, Mr. Kosmensky. Sir, 
you have testified in support of the legislation, you are a 
constituent of Joe's and I guess you better support it. But you 
mention though in your testimony, as I heard it, I thought I 
heard it, that the Home Builders has recently taken a neutral 
stance on the bill while issues are worked out with the 
plumbing manufacturers. You said something about--I think you 
said something about well, in lieu of further legislation, or 
words to that effect, I don't mean to put words in your mouth. 
So I guess my question is should this nonlegislative approach 
be allowed to run its course before we consider legislating in 
this area once again? You know, did we make a mistake 
legislating in the first place in 1992? You know, I don't know. 
But it has been done and all of this manufacturing and what not 
has already taken place.
    Well, so maybe you can ask the question, should this 
nonlegislative approach be allowed to run its course, and then 
maybe in the time left over, in what way could you contemplate 
that it could be worked out among the builders and the plumbing 
manufacturers, et cetera? What would you sort of contemplate or 
see as, I guess I will use the word, compromise or working it 
out?
    Mr. Kosmensky. I think there are things that could be done. 
In Europe they have--the toilet tanks have buttons on them 
where you can push it and get a half flush and push it and get 
a full flush.
    Mr. Bilirakis. Don't we have something like that available?
    Mr. Kosmensky. I have not seen any here, not to say there 
isn't something like that. Perhaps there is. Up to our neutral 
stance, which was just like 3 weeks ago, I am talking about the 
National Home Builders now, the manufacturers really can't have 
much interest in talking to us. But I understand in the last 
couple or 3 weeks they are coming to us and talking with the 
folks from our research foundation about just exactly what you 
mentioned, couldn't there be some kind of a compromise.
    I think that Congressman Knollenberg's bill here is really 
starting to put the pressure on these folks to resolve this 
thing, because I think they realize that we do have problems 
out there. I mean, we are not just sitting here to talk about 
the weather, we are here because we have a problem out there. I 
think they are beginning to realize that. I would hope that 
they will come to the table with some kind of compromises that 
will resolve the problem. I applaud, again, Congressman 
Knollenberg for doing that. If that brings us all to the table 
to resolve the situation short of new legislation, if that is 
what the committee wants, I applaud that.
    Mr. Bilirakis. You have high hopes that something like that 
will take place?
    Mr. Kosmensky. Yes, I really do.
    Mr. Barton. Mr. Burr of North Carolina for 5 minutes.
    Mr. Burr. Thank you, Mr. Chairman. Mr. Haege, do you or 
Click and Clack have a larger listenership? Do you know who 
Click and Clack are?
    Mr. Haege. On NPR radio. They talk about cars. I don't talk 
about cars. Last year the home improvement industry was $176.1 
billion. I don't know what the car industry was, but I think 
there are more people that care about their toilets than they 
do if their car runs or not.
    Mr. Barton. I am not so sure about that.
    Mr. Haege. I think you have a great mass transit system in 
this area and a lot of major areas, and they count on that to 
get back and forth to work.
    Mr. Barton. You ask my constituents what they think about 
their pickup versus their toilet, and they are going to tell 
you real quick they love their pickup a lot more than they do 
their toilet.
    Mr. Burr. Both of you have large listenership, as is 
evidenced. Let me just make a comment. We are not here today to 
point out that what was done prior to us was bad legislation. 
It may have miscalculated what technology could do. We pulled a 
number out of the sky and said this is where we would like to 
be on water as it relates to toilets, as it relates to showers, 
and the ultimate judgment was by consumers, did the product 
work.
    I came out of the appliance business before I got here. 
There was a big difference with the energy standards on 
refrigerators and air conditioners and other appliances. Those 
worked. Air conditioners still cooled, refrigerators still kept 
food at a comfortable temperature, and clearly consumers have 
spoken differently as it relates to toilets and some to shower 
heads.
    Let me just ask, is there any data that proves that any 
water savings that has taken place is the direct result of low 
flow toilets?
    Mr. Kosmensky. No. Mr. Chairman, we have to keep in mind 
that we only build 1 million houses a year, and if we put in 
something like the 1.6 in all our houses and then a survey is 
taken throughout the country, it will have a minuscule effect 
on that survey. Ninety-five percent of the houses out there do 
not have the 1.6. I think in all due respect to the gentleman 
from Florida, I don't know where they come up with those 
numbers on the surveys, because we just don't put that many of 
these in there, of the 1.6 toilets. But those that we do put 
in, I find that we have problems with.
    Mr. Taylor. Mr. Burr, as I mentioned, from 1970 to 1990, a 
date prior to passage of the standards, total water consumption 
declined in this country, despite growth in population and 
national GDP, per capita use declined in this country, and 
absolute water withdrawals for human purposes declined in this 
country. All prior to passage of these mandates.
    In fact, those trends continued since passage of those 
mandates. When you are looking at macroeconomic data, it 
certainly is correct for all parties to point out water 
consumption is going down. But to use figures like that, as I 
heard in earlier comments at the beginning of these hearings, 
as an argument for the success of these standards, is, frankly, 
poppycock. It is an after the fact assertion.
    The trend had been going on for a long, long time, prior to 
the passage of these mandates. In fact, where these figures 
came to my attention, a book by NYT press, a Harvard professor 
on this subject, there was no discussion at all of the 
conservation mandates having anything to do with those 
declines. Those declines had to do with other things in the 
economy, as I pointed out in my oral testimony.
    As far as the specific studies that are in discussion 
today, I haven't seen them, so I can't comment on them. My 
experience in the energy arena, however, has been that 
estimates regarding reduced energy use are derived through 
engineering estimates. They are not derived through actual 
monitoring of actual consumer behavior with controllable test 
groups and the sorts of things that you would look for in other 
sorts of data if you were serious about studying the matter.
    I can't judge these particular studies, but my hunch is, 
given what I know in the energy arena when it comes to 
efficiency in appliances, that I would be quite skeptical 
regarding such claims, particularly given the points that Mr. 
Kosmensky just made regarding the amount of water or the amount 
of these devices being installed. Again as an overall matter, 
with agriculture in the West eating up 80 to 90 percent of 
water consumption, it is hard to imagine how a few new home 
buildings is going to affect overall trends in water 
consumption.
    Mr. Burr. We probably know somewhere, if somebody wanted to 
find out the information, if they haven't already, how many 
toilets are installed in this country, wouldn't we?
    Mr. Haege. There is documentation to that. About 4.3 
million is a good estimate per year of toilets.
    Mr. Barton. Per year.
    Mr. Burr. But in total in the country. Do we have any----
    Mr. Taylor. We do, but it wouldn't help too much. The 
reason why is you could make an engineering estimate and say we 
have so many low flow toilets that went in last year, and that 
makes a total of X number of low flow toilets, and we will 
calculate that 1.6 gallons minus 3.5 gallons equals X number of 
gallons in savings and I will put a number to it. But what that 
doesn't do is it doesn't account for whether I had to flush it 
twice or three times or how many toilets I bought or anything 
else that might affect my water consumption behavior.
    The problem we always run into in these sorts of estimates 
and other parts of the economy when looking at appliances is we 
do not measure actual consumer behavior. By and large we are 
making estimates based on installations of that nature----
    Mr. Barton. We know what the housing stock is and you know 
what the number of toilets per population is, so you got about 
280 million Americans. I would estimate just off the top of my 
head probably existing toilets, if you include public buildings 
and everything, would be around 200 million. I am going to miss 
it a little bit, but I am not order of magnitude out of the 
ball park. You are adding 4.3 million a year.
    Mr. Haege. Those are kitchen and industry bath numbers of 
1999.
    Mr. Barton. Yes. So the general point is because of the 
addition of these low flow toilets, it is not having in and of 
itself a noticeable impact on water consumption, and just 
elementary analysis would indicate that has to be true because 
of the existing stock that is already there, even if they are 
totally used exactly as represented.
    Mr. Burr. My last question, to the mayor for a second, as a 
home builder, do your customers come to you after you have 
turned over the keys and question the performance of the 
toilets?
    Mr. Kosmensky. They did, but I warn them. I warn them 
before now.
    Mr. Barton. What if a home builder, you warned them and 
they say I am going to go to Canada and buy this. Are you 
legally allowed to install, if they provide it for you?
    Mr. Kosmensky. Yes.
    Mr. Barton. You are allowed to do that.
    Mr. Kosmensky. Yes.
    Mr. Barton. The gentleman's time has expired. I am going to 
miss the rule vote. I am just going to continue the next panel. 
You all can go vote and come back in time to hear some of the 
statements and the question period.
    There may be written questions for you gentlemen, and we 
will get them to you. We appreciate your attendance, especially 
those that had to travel from out of State to come. But we are 
going to excuse you at this point in time and go to our next 
panel.
    Let's hear from our second panel, or third panel actually. 
We have Mr. David Tippin, Director of the Tampa Water 
Department. Mr. Bilirakis, would you like to introduce him a 
little more forcefully before you leave?
    Mr. Bilirakis. He is going to testify now?
    Mr. Barton. They are going to testify.
    Mr. Burr. They may need your vote on the rule.
    Mr. Bilirakis. I do have to make this vote. It is a rule.
    Mr. Barton. The gentleman from Florida.
    Mr. Bilirakis. I would like to hear Mr. Tippin's testimony, 
Mr. Chairman. I am just not sure how to handle this.
    Mr. Barton. Okay. The problem, I have got a working group 
at 4:30.
    Mr. Bilirakis. Can we skip Mr. Tippin?
    Mr. Barton. I tell you what. Apparently this is a close 
vote. I wouldn't assume a rule vote would be that close, but we 
are going to recess, and I will go do my constitutional duty 
and vote, and then I will come back. It will be about 15 
minutes. If you all stay in the general area so when we get 
back, Mr. Bilirakis especially wants to come back. We are in 
recess subject to the call of the Chair, which should be within 
the next 15 to 20.
    [Brief recess.]
    Mr. Barton. The subcommittee will come back to order. There 
are always two sides to every story, and last but not least, we 
are now going to hear the other side of the issue. On this 
panel, as I pointed out, we have Mr. David Tippin, Director of 
the Tampa Water Department. He represents the American Water 
Works Association. We have Mr. Edward Osann, who is the 
President of Potomac Resources here in Washington, DC. We have 
Mr. George Whalen, who represents the National Association of 
Plumbing, Heating and Cooling Contractors. We have Mr. David 
Goike, who represents the Plumbing Manufacturers Institute, and 
we have Mr. Anthony Willardson, who is the Associate Director 
for the Western States Water Council.
    Gentlemen, we appreciate your patience. Your statements are 
in the record in their entirety. We are going to give you each 
5 minutes to summarize and I know Mr. Bilirakis will have some 
questions and I will have questions.
    Mr. Bilirakis, do you wish to more formally introduce Mr. 
Tippin.
    Mr. Bilirakis. Thank you, Mr. Chairman. I did want to voice 
my disappointment that this panel comes up and you and I are 
the only ones here. We have heard from the other side of the 
story when ordinarily it is mixed and you are going to have two 
and two just to keep something like this from taking place. So 
I am very disappointed in that regard.
    I will say Mr. Tippin has a pretty tough job in our area, 
he is Director of the Tampa Water Department. We have big 
infrastructure water problems in Florida and tremendous water 
problems, as you might imagine, with that high water table. Mr. 
Tippin is I know a free enterpriser, a market oriented 
individual, a person who would ordinarily I think and maybe he 
does agree--I think he does agree with much of the testimony 
that you have heard today in terms of letting the market 
function and what not. I also know that he will share with us 
why what we did back in 1992 is so very important to States 
like Florida and so many others. I am very happy that he would 
take the time to come up here, probably to get out of the heat 
down there.
    Mr. Barton. Like it is not hot here in Washington.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Mr. Barton. Mr. Tippin, we welcome you. You are recognized 
for 5 minutes.

     STATEMENTS OF DAVID L. TIPPIN, DIRECTOR, TAMPA WATER 
  DEPARTMENT; EDWARD R. OSANN, PRESIDENT, POTOMAC RESOURCES, 
   INC.; GEORGE V. WHALEN, NATIONAL ASSOCIATION OF PLUMBING, 
 HEATING, COOLING CONTRACTORS; DAVID GOIKE, MASCO CORPORATION, 
  REPRESENTING PLUMBING MANUFACTURERS INSTITUTE; AND ANTHONY 
  WILLARDSON, ASSOCIATE DIRECTOR, WESTERN STATES WATER COUNCIL

    Mr. Tippin. Good afternoon, Mr. Chairman, and Congressman 
Bilirakis, and thank you for inviting me here. I am David L 
Tippin, Director of the Tampa Water Department. I was there as 
a temporary job 25 years ago and have been there ever since. I 
am a registered professional engineer. I want to testify on 
behalf of the city of Tampa, the American Water Works 
Association and the Association of Metropolitan Water Agencies, 
whose combined membership provides drinking water to 
approximately 90 percent of the American people.
    The city of Tampa and American Water Works and AMWA support 
the current plumbing products efficiency standards in the 1992 
Energy Policy and Conservation Act. It has worked as intended. 
The new low flush toilets work and are of high consumer 
acceptance. I think some of the video that you saw earlier, 
that data is very old. I think it is more than 2 years old on 
some of the information and staff that were shown there earlier 
today.
    A new AWWA research study shows that the double flushing in 
new low flush toilets is the same or better than the nonlow 
flush toilets. In my own home I have a low flush toilet and I 
have a 3.5 gallon toilet, so I feel that I am an expert on 
toilet flushing in Florida.
    In mine there is no difference, only that the 1.6 saves a 
lot more water than the 3.5 flush toilet.
    Mr. Barton. You said there is difference?
    Mr. Tippin. Both of them work equally well. The May 1998 
Consumer Reports shows that the new low flush toilets work. I 
think most of you have seen this, and I won't go into that.
    To date in Tampa as an incentive we have given over 15,000 
toilet rebates in 11,000 households. It is not a free toilet, 
we give a hundred dollar rebate and the money comes from add-on 
taxes and also our rates, and that is how we fund the rebates 
as an incentive. We think that we have saved about 150 million 
gallons of water per year from the rebate programs, not 
counting the additional low flow toilets in our new homes.
    The Tampa area is an exploding area as far as new home 
building is concerned. There are good toilets and bad toilets. 
Just like you get good American cars and Yugos, it varies. And 
the new toilets work. You can go to home supply centers, they 
are inexpensive. I know of ones in Tampa that I go to every 
Saturday morning, they work.
    The customer satisfaction surveys show high approval 
ratings on the new low flush toilets, and in Tampa our studies 
show that 90 percent of our customers that have these toilets 
were satisfied or very satisfied. And in other cities, I think 
in Austin, Texas, for one, it rose to 95 percent. In water 
savings, which benefit the customer, the economy and the 
environment, are enormous. You have to look at the total water 
cycle here, not only the water supply. You have to look at 
waste treatment. The cost of waste treatment is very high now, 
I know that it is in Florida, and I would presume so in the 
other States in the country, too. So water conservation should 
be looked at as the total water picture.
    The efficient plumbing fixtures installed in 1998 in the 
United States will save about 16 billion gallons of water in 
1999, enough to fill 1.2 million olympic sized swimming pools. 
That is 16 billion gallons.
    And I would like to offer into the record letters of 
support from the mayor and the commissioners of the city of 
Portland, Oregon. Also from the largest public water supply, 
the Metropolitan District of Southern California, and also the 
city of Los Angeles, as part of the record. So I will hand----
    Mr. Barton. I am sorry, I was listening to staff. Is there 
a unanimous consent request?
    Mr. Bilirakis. He wanted letters in support of the 
standards.
    Mr. Barton. Let the majority and minority staffs look at 
them. If there is no objection, they will be entered, but we 
want to give especially the minority an opportunity to look at 
the letters. That is just kind of a standard practice.
    [The information referred to follows:]

                           City of Portland, Oregon
                                      Bureau of Water Works
                                                      July 23, 1999
The Honorable Joe Barton, Chairman
Subcommittee on Energy and Power
Committee on Commerce
U.S. House of Representatives
Washington D.C. 20515

The Honorable Ralph M. Hall, Ranking Member
Subcommittee on Energy and Power
Committee on Commerce
U.S. House of Representatives
Washington D.C. 20515
    Dear Mr. Chairman and Ranking Member: The City of Portland has 
reviewed HR 623 and commends Rep. Knollenberg for monitoring the 
implementation of the Energy Policy and Conservation Act, and we thank 
you for holding a hearing on this matter and receiving public comment. 
The City of Portland was involved in supporting the amendments to the 
Act in 1992 which required water efficient plumbing fixtures and we 
have been monitoring the implementation as well. We believe the federal 
requirements and the nationwide consistency they bring are far superior 
to the prior situation which left it to the states to decide on their 
own standards. We have monitored the manufactured goods which are being 
produced as a result of the federal law and believe them to be reliable 
and effective in saving water.
    The City of Portland provides high quality drinking water to almost 
one-third of the State of Oregon. We are in a high growth area and must 
plan for additional water supply. We are also the first urban area to 
have fish listed on the Endangered Species List on rivers inside the 
City of Portland. Conservation is one of the important tools we can use 
to meet water supply and environmental protection. There are 
significant water savings being realized through the federal plumbing 
standards; the fixtures work well, and we believe it is important for 
the current federal standards to remain in place. We are pleased there 
is a public hearing on this bill so that Congress can have current 
information on the effectiveness of the plumbing fixtures. However, we 
do believe the fixtures on the market work well, and there is customer 
acceptance and support for water efficient fixtures. We know these 
fixtures are saving water, and they are saving customers money on their 
water bill. As elected officials of the City of Portland responsible 
for both water supply and for issuing building permits and conducting 
plumbing inspections we believe there is no compelling need for HR 623.
            Sincerely,
                                                   Vera Katz, Mayor
                                            Erik Sten, Commissioner
                                      Jim Francesconi, Commissioner
                                        Charlie Hales, Commissioner
                                         Dan Saltzman, Commissioner
                                 ______
                                 
                           Los Angeles City Council
                    Office of the Chief Legislative Analyst
                                                      July 26, 1999
The Honorable Joe Barton
Chairman, Energy and Power Subcommittee
2125 Rayburn House Office Building
Washington, D.C. 20515
    Dear Chairman Barton: The City of Los Angeles is strongly opposed 
to H.R. 623, the Plumbing Standards Improvement Act of 1999.
    Sponsored by Representative Joe Knollenberg, H.R. 623 would repeal 
language in the Energy and Policy and Conservation Act of 1992 that 
requires newly manufactured toilets and shower heads to meet specific 
water efficiency standards.
    Water conservation efforts have been--and continue to be--a vital 
tool on preserving limited water resources in California. 
Unfortunately, H.R. 623 would seriously undermine such efforts.
    The current national efficiency standards, combined with water 
conservation campaigns at the local level, have played a key role in 
encouraging the greater use of water efficient devices in homes and 
businesses alike. In recent years, the City's Department of Water and 
Power (DWP) has been actively involved in conservation activities aimed 
at reducing both in door and out door water use. DWP's ultra-low flush 
toilet and low-flow shower head retrofit programs save an estimated 
35,000 acre-feet of water annually. This is enough water to meet the 
needs of 70,000 families each year.
    Preserving the current national efficiency standards for newly-
manufactured toilets and showerheads makes good economic and 
environmental sense. If you have any questions, please feel free to 
contact me or John Ryan at (202) 347 0915
            Sincerely,
                                                    James F. Seeley
                                 ______
                                 
 Metropolitan Water District of Southern California
                              Office of the General Manager
                                                      July 22, 1999
The Honorable Joe Barton
Chairman
United States House of Representatives
2125 Rayburn House Office Building
Washington, D.C. 20515
    Dear Chairman: H.R. 623, a Bill to Amend the Energy Policy and 
Conservation Act to Eliminate Certain Regulation of Plumbing Supplies 
(Rep. Knollenberg, R)
    The Metropolitan Water District of Southern California 
(Metropolitan) wishes to join the Association of California Water 
Agencies in expressing opposition to H.R. 623, the proposed repeal of 
water-efficient plumbing fixture standards established by the U.S. 
Energy Policy Act of 1992.
    As the major wholesale supplier of water to cities and counties 
within the arid, drought-prone Southern California region, Metropolitan 
is a recognized pioneer and an aggressive proponent of water 
conservation programs and policies. Since 1988, Metropolitan, in 
partnership with its 27 member agencies, has invested more than $200 
million to co-fund projects designed to increase water use efficiency 
in the residential, commercial, industrial, institutional and public 
sectors.
    By adopting uniform efficiency standards, the Energy Policy Act of 
1992 (EPAct) provided manufacturers with a national market and 
encouraged competition. Large volume purchases of ultra low-flush 
toilets (ULFTs) by Metropolitan and others, during the early 1990's, 
helped provide the economic incentives manufacturers needed to incur 
the substantial engineering and re-tooling investments required to meet 
the challenge of producing an acceptable 1.6 gallon per flush toilet. 
Metropolitan believes the withdrawal of national standards would 
substantially undermine this highly desirable and beneficial trend.
    Metropolitan appreciates your continued interest in the water 
issues that affect California. If you have any questions, please feel 
free to call me at (213) 217-6211, or Brad Hiltscher in our Washington 
Office at (202) 296-3551.
            Sincerely,
                                         Ronald E. Gastelum
                                                    General Manager

    Mr. Tippin. That is fine. Representative Knollenberg is to 
be commended on introducing legislation which focuses attention 
on the problems with the early generation.
    Mr. Barton. I think I heard your bell expire. So could you 
summarize.
    Mr. Tippin. In summary, the objectives of H.R. 623 have 
been met through the marketplace, and there is no need for 
legislation and we respectfully request that the members of the 
subcommittee not support the passage of house resolution 623.
    [The prepared statement of David L. Tippin follows:]
     Prepared Statement of David L. Tippin, Director, Tampa Water 
  Department, Representing The American Water Works Association, and 
               Association of Metropolitan Water Agencies
                              introduction
    Good afternoon Mr. Chairman. I am David L. Tippin, Director of the 
Tampa Water Department in Tampa, Florida, a position I have held for 25 
years. I am here today on behalf of the City of Tampa, the American 
Water Works Association (AWWA), and the Association of Metropolitan 
Water Agencies (AMWA).
    We appreciate the opportunity to present our views on H.R 623, The 
Plumbing Standards Improvement Act of 1999.
    Tampa, Florida's third largest city, provides water to 450,000 
people in a 211 square mile service area. This area of Florida is 
densely populated with a staggering annual growth.
    AWWA is the world's largest and oldest scientific and educational 
association representing drinking water supply professionals. The 
association's 56,000 members are comprised of administrators, utility 
operators, professional engineers, contractors, manufacturers, 
scientists, professors and health professionals. The association's 
membership includes over 4,200 utilities which provides over 80 percent 
of the nation's drinking water. Since our founding in 1881, AWWA and 
its members have been dedicated to providing safe drinking water.
    AMWA is an association of the nation's largest public water supply 
agencies. Its 136 members provide water to over 120 million people and 
the purposes of the association are to work for the advancement and 
protection of drinking water supplied by large public agencies.
    In today's statement I would like to emphasize the importance of 
the current plumbing products efficiency standards in the 1992 Energy 
Policy and Conservation Act (PL 102-486) both to the Nation and in 
Florida in particular.
                 plumbing products efficiency standards
    The City of Tampa, AWWA, and AMWA respectfully request that the 
members of the Subcommittee not support the passage of H.R. 623, which 
will repeal a requirement in the 1992 Energy Policy and Conservation 
Act (PL 102-486) that restricts all new toilets to 1.6 gallons per 
flush and showerheads to 2.5 gallons per minute among other water 
conservation standards. A number of things have changed since the 
proposal in H.R. 623 was first introduced in the 105th Congress in H.R. 
859.

--The toilets work. The once controversial water-saving toilets are no 
        longer an issue with consumers. The plumbing products industry 
        has met consumers' needs by engineering a new generation of 
        water-efficient toilets that work as well as, or better than, 
        the older pre-water-saving models according to a 1998 Consumers 
        Union study and numerous consumer satisfaction surveys.
--Water and economic savings are enormous. Efficient plumbing fixtures 
        installed in new homes last year will save 16 billion gallons 
        of water in 1999--enough to fill 1.2 million olympic-sized 
        swimming pools. The cost avoidance for additional 
        infrastructure and the benefit for growth and development 
        without adversely affecting natural resources is an enormous 
        economic and environmental benefit of these savings.
    Rep. Knollenberg is to be commended for introducing legislation 
which focused public attention on the problems with an early generation 
of water efficient toilets which were of concern to consumers. The 
public debate on this issue has highlighted the improvements in water 
efficient toilets made by the plumbing products industry and the water 
and economic benefits of the current standards. There no longer is a 
need for this bill to help improve water efficient plumbing products 
for consumers. The objective of H.R. 623 has been met through the 
rigors of the marketplace which may drive even further improvements in 
the performance of plumbing products.
    However, the regulatory stability provided by current Federal law 
is important to the U.S. plumbing industry. It allows them to bring 
improved products to a national market, rather than spend time and 
money on designing products for differing flush volumes, flow rates, 
test procedures, certification requirements, and labeling rules, all of 
which could vary by state and local jurisdictions if Federal standards 
were repealed. Economies of scale--an important factor in keeping costs 
to consumers low--could be lost if the national market were to become 
fragmented. Prior to enactment of the 1992 Energy Policy and 
Conservation Act, 17 states as well as numerous localities had adopted 
their own plumbing products standards. This led to not only 
manufacturing and distribution problems, but also created enforcement 
problems within the states.
    This issue was debated in 1992 and a bipartisan agreement among 
Members of Congress and the stakeholders to adopt national standards 
was incorporated into law. While a different legislative approach which 
would provide for another mechanism to establish national standards 
might have been adopted in 1992, it was not. It would be highly 
counter-productive, after all this time, to repeal these standards on 
which the manufacturing of plumbing products in the United States is 
based. In many cases, the new and efficient plumbing products are a 
cornerstone for the local water conservation programs of public water 
utilities which avoid the cost to consumers of new reservoirs and both 
drinking water and waste-water treatment facilities.
                        water savings nationally
    Water suppliers in the Unites States already process nearly 34 
billion gallons of water each day. If the population--and therefore 
demand--continues to grow, saving water can help avoid building 
expensive new water supply and treatment facilities that would put an 
additional stress on the environment and increase water rates for 
consumers. According to the 1998 Residential Water Use Summary 
commissioned by AWWA, average water use in the typical single-family 
home is 74 gallons per capita per day. By installing water-efficient 
fixtures, however, consumers can cut their water use by 30 percent to 
51.9 gallons per capita per day. This can save households up to $100 
each year.
    The water savings from coast to coast are enormous. Since 1993, 
Tampa has provided 15,000 toilet rebates. On a larger scale, the City 
of Los Angeles and local water agencies have provided rebates or given 
away more than 2.25 million low-flush toilets since 1992. Despite a 
population increase of nearly one million since 1970--a jump of 32 
percent--Los Angeles in 1999 used virtually the same amount of water as 
it did 29 years ago. Retrofitting toilets in Los Angeles saves nine 
billion gallons of water a year. Due to conservation measures, Southern 
California's need for imported water has been reduced by 710,000 acre-
feet annually, or about 23 percent. At the other end of the country, in 
New York City, more than 1.3 million inefficient toilets were replaced 
with low-flush toilets between 1993 and 1997. Although the city's 
population continues to grow, per capita water use in New York City 
dropped from 195 gallons to 164 gallons per day from 1991 to 1997. The 
New York Department of Environmental Protection estimates city-wide 
savings from low-flow toilets to be 70 to 80 million gallons per day. 
In apartment buildings using low-flow toilets, there was a 29 percent 
reduction in water use. In Denver, as part of the resource planning 
process, the Denver Board of Water Commissioners identified a need for 
an additional 100,000 acre-feet of water annually to meet total demand 
by 2045. Denver Water is committed to obtain 29,000 of the 100,000 
additional acre-feet through water conservation. Denver Water is 
counting on achieving some of these saving through the requirements in 
the 1992 Energy Policy and Conservation Act.
    Double flushing is no longer a problem and the low-flush toilets 
are producing the water savings intended in the 1992 Energy Policy and 
Conservation Act. In a soon to be released study, Residential End Uses 
of Water, the AWWA Research Foundation has found that, even in 
instances of double flushing, the slightly higher flushes per day did 
not offset the volume of water used by the larger volume flush toilets. 
Further, the study stated that, on average, double flushing of low-
flush toilets does not appear to happen any more often than double 
flushing of non-low-flush toilets. Any additional flushing was not 
often enough to even begin to offset the water savings available from 
the low-flush toilets. The great majority of low-flush toilet owners 
surveyed are now satisfied with the performance of the toilets. As 
examples, in a low-flush toilet program in Tampa, 91 percent of the 
customers were either satisfied or very satisfied with the new low-
flush toilets, and in a similar program in Austin, Texas, 95 percent of 
the customers were either satisfied or very satisfied with the new low-
flush toilets. The May 1998 issue of Consumer Reports reported that the 
newer low-flush toilets tested worked well.
    America's public water supply systems continue to use more and more 
water. Total withdrawals have nearly tripled since 1950. The cost of 
water and wastewater treatment has gone up significantly in recent 
years. Americans now spend about $50 billion each year on residential 
water and sewer bills. Water conservation can help reduce residential 
water bills not only through reduced water use but through avoidance of 
capital expenditures as well. The Environmental Protection Agency needs 
survey for both drinking water and wastewater estimates that at least 
$280 billion will be needed to protect public health and accommodate 
growth over the next 20 years. A significant portion of this need is 
for facilities and equipment where the volume of water and wastewater 
flow affects the required size and cost. Water conservation programs 
can postpone or reduce the cost of such capital spending.
                        water savings in florida
    The Tampa area receives about 55 inches of rainfall per year. 
However, about 49 of those inches are lost to run-off and evaporation, 
resulting in a true effective rainfall of only about six inches. Most 
of the rain occurs in July, August and September. Conversely, Tampa 
water supplies are quite stressed during our annual drought cycle--
making conservation critical. The plumbing products standards of the 
1992 Energy Policy and Conservation Act are an essential component of 
water conservation and repealing these standards will only exacerbate 
existing problems. In addition, repealing the current Federal plumbing 
products standards is detrimental to the long-term health of the 
Floridian economy. Florida is one of the fastest growing states in the 
country. Each new resident and business places increasing demand on a 
relatively static supply of potable water. Water conservation is one 
way that we can meet the needs of new residents and businesses while 
stretching the limited supplies of water available. Without national 
standards, Florida would be forced to adopt its own state standards 
which could put Florida in an economic competitive disadvantage with 
other areas and cost Florida consumers more for water efficient 
plumbing products.
    Tampa has found that indoor water use, by using water savings 
fixtures, can be reduced by 15 percent or about 14,000 gallons per year 
per household.
                                summary
    In conclusion, I want highlight the main points of the testimony:

--The City of Tampa, AWWA, and AMWA support the current plumbing 
        products efficiency standards in the 1992 Energy Policy and 
        Conservation Act. It has worked as intended.
--The new low-flush toilets work and have high consumer acceptance.
--The water savings which benefit the consumer, the economy and 
        environment are enormous.
--The objectives of H.R. 623 have been met through the market place and 
        there is no need for legislation.
--We respectfully request that the members of the Subcommittee not 
        support the passage of H.R. 623.
    This concludes our statement on H.R. 623, The Plumbing Standards 
Improvement Act of 1999. I would be pleased to answer any questions or 
provide additional material for the committee.

    Mr. Barton. Thank you, Mr. Tippin. Mr. Osann, we recognize 
you for 5 minutes.

                  STATEMENT OF EDWARD R. OSANN

    Mr. Osann. My name is Edward Osann. I am of Potomac 
Resources, and this testimony is presented on behalf of 10 
national and State environmental organizations, as well as the 
National Association of Service and Conservation Corps, and the 
California Urban Water Conservation Council. I am sure that it 
will come as no surprise to you, Mr. Chairman, we could not 
disagree with Mr. Knollenberg more on this legislation. We 
are----
    Mr. Barton. You need to move the microphone over. You could 
not disagree more?
    Mr. Osann. We could not disagree more. As this hearing 
takes place, there are severe drought conditions which are 
extending across a dozen or 14 eastern and southeastern States 
and portions of Texas, as I am sure you are aware, remain dry 
and have not recovered from last year, particularly in the Rio 
Grande Valley. These water use restrictions that result from 
these conditions highlight the value and continuing importance 
of saving water. But as severe as some of these problems are 
locally, the Federal interests, the national interest in water 
conservation in general and plumbing product efficiency in 
particular is really much broader than that. It stems from the 
fundamental reality that it takes money to provide safe 
drinking water, and it takes money to clean up waste water.
    The financial needs that have been projected by the States 
and reported by EPA are so enormous over the coming decades, 
some $280 billion will be needed to comply with current law and 
accommodate growth over the next 20 years, that these costs 
threaten to frustrate or delay achieving important public 
health objectives and environmental quality goals. Many of the 
organizations that I am representing here today work to enact 
or to strengthen the Safe Drinking Water Act, to enact or 
strengthen the Clean Water Act. If the cost of compliance with 
these statutes were to appear to be unmanageable, it might 
threaten the achievement of the goals, goals which we believe 
are broadly supported by the American people.
    Efficient plumbing products help communities and consumers 
to manage their water and sewer costs, and this is good for the 
environment. The value of this is apparent in many places that 
we don't usually think of being as arid or being short on 
water. Congressman Dingell alluded to the concerns regarding 
waste water in the State of Michigan and my testimony indicates 
across--gives examples of infrastructure needs through the 
water rich parts of the country, areas that we don't usually 
think of as being subject to water shortages, but the dollar 
requirements are significant and these products because they 
save significant amounts of water are very useful tools for 
managing these costs.
    By significantly reducing indoor water use, efficient 
plumbing products can help hold down the cost of water supply 
and waste water treatment infrastructure in all 50 States in a 
highly cost effective manner, and we think the Federal interest 
is clearly demonstrated here by the establishment of Federal 
environmental goals and the Safe Drinking Water Act and the 
Clean Water Act and the Federal financial interest that is 
evidenced by multi-billion dollar appropriations for State 
revolving funds and rural water and sewer programs to finance 
both drinking water and waste water treatment improvements. We 
think that there is a strong Federal interest in maintaining 
efficiency standards for plumbing products that can save 
consumers money and facilitate improvements of these important 
public health and environmental objectives.
    In many communities there are special efforts that are 
underway to use efficient plumbing products to accomplish local 
and regional environmental goals. In some cases it is 
maintaining riparian habitat and restoring fisheries, and in 
others it is improving the quality of waste water discharges.
    My written testimony provides a list of examples where 
conservation programs are addressing water needs and 
environmental objectives and conservation programs that are 
using water efficient products.
    Thank you, Mr. Chairman.
    Mr. Barton. If you have another sentence or two----
    Mr. Osann. I would simply point out that many States have 
found water efficient plumbing to be critically important for 
their future infrastructure planning and with that achievement 
of environmental goals that the American public values highly.
    Attached to my testimony is a narrative description from 
the Texas Water Development Board that describes the role of 
water efficient plumbing products in Texas and the significant 
reliance on these products over the coming decades that the 
State perceives, and I simply call that to your attention, Mr. 
Chairman.
    [The prepared statement of Edward R. Osann follows:]
 Prepared Statement of Edward R. Osann, President, Potomac Resources, 
                                  Inc.
    My name is Edward R. Osann, and I am President of Potomac 
Resources, Inc., a consulting business specializing in energy and 
natural resources policy. Over the past two years, I have served as a 
legislative representative on the issue before the subcommittee today 
on behalf of plumbing manufacturers, environmental organizations, and 
water and wastewater utilities.
    My testimony today is endorsed and presented on behalf of the 
following organizations, whose principal interests involve the 
conservation and wise use of natural resources, the protection of 
environmental quality, and public education regarding such issues: the 
American Council for an Energy-Efficient Economy, Clean Water Action, 
Environmental and Energy Study Institute, Environmental Defense Fund, 
Friends of the Earth, National Wildlife federation, Natural Resources 
Defense Council, Sierra Club, Texas Committee on Natural Resources, and 
the Union of Concerned Scientists.
    This testimony is also presented on behalf of the:

--National Association of Service & Conservation Corps, a membership 
        association for 100 conservation corps in 34 states who provide 
        employment and training for young adults. Several of these 
        corps work with utilities and municipalities on water 
        conservation projects; and the
--California Urban Water Conservation Council, an organization 
        established in 1991 to advance the analysis and implementation 
        of urban water conservation measures in California, and whose 
        decision making is shared evenly between the its water agency 
        members and its non-profit public interest group members.
Water conservation is important to the nation.
    Mr. Chairman, as this hearing convenes, a band of states extending 
from Massachusetts to North Carolina is experiencing severe drought 
conditions, and portions of Texas have seen little relief from last 
year's severe heat and dry weather. The water use restrictions that 
result from these conditions serve to highlight the continuing 
importance of making efficient use of our water resources.
    But as severe as some of these local water supply problems have 
become, the national interest--indeed, the federal interest--in water 
conservation in general, and plumbing product efficiency in particular, 
is much broader than that. It stems from the fundamental reality that 
in all 50 states, it takes money to provide safe drinking water, and it 
takes money to clean up wastewater. The financial needs are so 
enormous--according to EPA and the States, some $280 billion will be 
needed to comply with current law and accommodate growth over the next 
20 years--that these cost threaten to frustrate or delay the 
achievement of important public health objectives and environmental 
quality goals.
    Admittedly, water conservation is seldom a ``top of the mind'' 
concern in water-rich portions of our country. But consider this: 
States throughout the Northeast and Midwest have multi-billion-dollar 
infrastructure needs. In many cases, these are for facilities and 
improvements whose costs are related, at least in part, to the volume 
or flow of water or wastewater that must be accommodated. This is where 
water conservation can translate into real dollar savings.
    To illustrate, these needs over the next two decades have been 
projected by the States themselves and EPA for portions of the country 
that we don't usually consider to be ``arid'':

Iowa............................  drinking water      $1.2 billion
                                   transmission.
Michigan........................  drinking water      1.4 billion
                                   transmission.
Ohio............................  drinking water      1.4 billion
                                   transmission.
Pennsylvania....................  drinking water      1.3 billion
                                   treatment.
Illinois........................  drinking water      1.5 billion
                                   treatment.
New Jersey......................  wastewater          2.0 billion
                                   secondary
                                   treatment.
North Carolina..................  wastewater          1.1 billion
                                   advanced
                                   treatment.
Michigan........................  combined sewer      3.7 billion
                                   overflow.
Ohio............................  combined sewer      4.2 billion
                                   overflow.
Illinois........................  combined sewer      9.4 billion
                                   overflow.


    In fact, four out of the top six states ranked by their total flow-
related drinking water and wastewater infrastructure needs are Great 
Lakes States--New York, Illinois, Ohio, and Pennsylvania--joined by 
California and Texas. (See attachment on Texas infrastructure needs.)
    By significantly reducing indoor water use, efficient plumbing 
products can help hold down the costs of water supply and wastewater 
treatment infrastructure in all 50 States, in a highly cost-effective 
manner. In light of--

<bullet> the federal interest in meeting safe drinking water needs and 
        achieving water quality goals, as reflected in the Safe 
        Drinking Water Act and the Clean Water Act; and
<bullet> the federal financial interest evidenced by multi-billion 
        dollar appropriations for State Revolving Funds and rural water 
        and sewer programs to finance both drinking water and 
        wastewater treatment improvements,
there is a strong federal interest in maintaining efficiency standards 
for plumbing products that can save consumers money and facilitate the 
achievement of these important public health and environmental 
objectives throughout the nation.
Water conservation is helping to protect the environment today.
    Increasingly, water conservation plays an important role in meeting 
the environmental goals of many states and communities, in addition to 
lowering costs and improving the reliability of water and wastewater 
systems. Water conservation programs, including those featuring 
efficient plumbing products, can be structured to achieve any of the 
following--

<bullet> Maintaining riparian habitat and restoring fisheries;
<bullet> Protecting groundwater supplies from excessive depletion and 
        contamination;
<bullet> Improving the quality of wastewater discharges;
<bullet> Restoring the natural values and functions of wetlands and 
        estuaries;
<bullet> Reducing energy consumption and related air pollution.
    There are many examples of conservation programs addressing these 
problems. Here is a brief sample of such activities.
    In Washington . . . Puget Sound and its tributary streams have 
already benefitted from conservation-assisted improvements in water 
quality. These programs are soon to be expanded to address the special 
needs for stream habitat restoration necessary for salmon restoration 
under the Endangered Species Act.
    In Texas . . . Ambitious water conservation programs are helping to 
address the special needs of endangered species that are threatened by 
excessive groundwater use in the San Antonio and Austin areas. The 
Edwards Aquifer Authority was created to help stabilize and restore 
groundwater resources, and improved plumbing efficiency has been a 
significant element in the restoration program. Statewide, the 1997 
Texas Water Plan projects that water conservation will produce \2/3\ of 
all new supplies needed in the state by 2050, and that improved 
plumbing efficiency will constitute \1/3\ of all conservation savings. 
(See attachments from the Texas Water Development Board.)
    In California . . . Several federal agencies are currently working 
with the State of California on the CALFED Bay-Delta Program, designed 
to restore ecological health and improve water management in 
California's San Francisco Bay/Sacramento-San Joaquin Delta Estuary. 
The CALFED Bay-Delta Program has proceeded with a recognition that 
efficient use of water is vital to the continued health of California's 
economy, the reliability of water supplies for urban and agricultural 
users, and the restoration of ecological health. Programs to ensure the 
use of efficient plumbing fixtures in new construction, and encourage 
the replacement of older inefficient fixtures, are among the most 
important and most successful urban water conservation programs. 
California relies on existing state and federal plumbing standards, as 
well as local incentive programs, to replace older fixtures, as 
essential elements of statewide efforts to guarantee a reliable future 
water supply and a healthy Bay-Delta ecosystem. The estimated potential 
urban water conservation savings of the program through 2020 are 
significant, between 1,800,000 and 2,125,000 acre-feet. A significant 
portion of these savings comes from installing 1.6-gpf toilets and 
efficient showerheads.
    In New York City . . . In order to improve the quality of 
wastewater discharges at chronically overloaded sewage treatment 
plants, New York City embarked on one of the largest water conservation 
programs in the nation. An ambitious program to install water meters at 
each unmetered residential account was begun in 1988, resulting in the 
installation of over 500,000 water meters. In 1994, the City launched 
its Toilet Rebate Program, through which 1.3 million inefficient 
toilets were replaced with 1.6-gpf units of the building owners'' own 
selection. Since the beginning of the rebate program, both water 
consumption and wastewater inflows have dropped dramatically, even 
while the city's population has grown. Current dry-weather flows to the 
city's sewage treatment plants now average 1,266 million gallons per 
day (mgd), which contrasts with flows of 1,530 mgd in 1994, a reduction 
of 17% in five years. Currently all 14 of the city's treatment plants 
are operating within their design capacity, and the additional 
retention time made possible by reduced inflows has resulted in higher 
quality effluent.
    In the District of Columbia . . . The Washington Metropolitan Area 
is served by the Blue Plains regional wastewater treatment plant, which 
recently underwent a costly expansion of capacity. Nevertheless, 
Washington, DC, is using more than its share of capacity of the plant, 
which was built to serve neighboring suburban jurisdictions as well. In 
order to meet its contractual obligations to its suburban partners and 
maintain the plant's performance, Washington will undertake a water 
conservation program designed to shave 20 mgd from the inflows to Blue 
Plains. A variety of measures are under evaluation, with efficient 
plumbing fixtures likely to be a major component of the program. These 
measures will play an additional important role as the city develops 
plans to reduce long-neglected combined sewer discharges into the 
Anacostia River.
    In Florida . . . Perhaps the largest wetlands restoration program 
ever undertaken, the Everglades Restoration Plan will involve major 
reductions in wastewater discharges to the ocean, and a redirection of 
conserved water to the Everglades and Florida Bay estuary on a massive 
scale. Because the water distribution system in South Florida must 
serve both the human demands for water and the environmental needs of 
the Everglades, the Everglades Restoration Plan recently submitted to 
Congress addresses both these needs. According to the plan's 
projections, the population in South Florida is expected to double in 
the next fifty years, or an increase of roughly 6 million people. The 
plan therefore relies on a water conservation program for South Florida 
that would reduce consumption by 17% over the life of the plan, 
dropping water consumption from 1,449 mgd down to 1,193 mgd. These 
reductions are roughly equal to the increase in the amount of water 
that the Restudy Plan will provide for Everglades National Park (about 
270,000 acre-feet per year). In dry years, that is more than half of 
the water flowing into the Park. These reductions depend on full use of 
1.6-gpf toilets in the project area.
Enactment of H.R. 623 would be costly, unnecessary, and 
        counterproductive to the protection of the environment.
    For the reasons outlined above, the nation can ill afford the 
additional cost that would inevitably result from enactment of H.R. 
623. With some 35 million 1.6-gpf toilets now installed all across the 
United States, this new water-saving technology has become an important 
factor in the achievement of long-sought environmental goals. American 
communities and consumers are saving money, and good product 
performance is being recognized in the competitive marketplace. 
Consumer Reports has referred to the bill as ``unwarranted,''' and we 
fully agree.
    We view H.R. 623 as an impulsive attack on an environmentally 
beneficial statute that is working well and costing little. Any 
advancement of this bill could only be seen as a return to the 
ideologically driven assaults on environmental laws that were loudly 
undertaken in Congress in the mid-90's, but soundly rejected by the 
American people. We urge you NOT to approve H.R. 623.

    Mr. Barton. We would now like to hear from Mr. Whalen, who 
is representing the plumbing, heating and cooling contractors 
for 5 minutes.

                  STATEMENT OF GEORGE V. WHALEN

    Mr. Whalen. Good afternoon, Mr. Chairman and members of the 
committee. I am George Whalen, and I am here today on behalf of 
the Plumbing Heating Cooling Contractors National Association, 
and I thank you for the opportunity to present my testimony.
    I am here today to speak in opposition to H.R. 623. For 37 
years I have served as the President and Executive Director of 
the Plumbing Foundation of the city of New York, a trade 
association representing contractors, unions and wholesalers 
and sanitary engineers.
    The city of New York rebate and retrofit program. While at 
the foundation I had the opportunity to work with the New York 
City Department of Environmental Protection to develop and 
implement the largest and most successful toilet rebate and 
retrofit program in the Nation. This program has been a 
resounding success with residents, building owners and 
managers, the plumbing industry, the city's water purveyors, 
local, State and Federal officials.
    New York City has long been recognized as having one of the 
most successful water supply systems, both in terms of quality 
and quantity. That supply, however, was not infinite, and 
beginning in 1991, the city recognized the need to protect its 
water resources. High usage and summertime drought conditions 
had forced the city's reservoirs to dip dangerously low and had 
placed unreasonable demands on both the city's clean water 
needs and its capacity to treat waste water. It is important to 
remember that each gallon of water consumed equals at least a 
gallon of water that needs to be treated by one of the city's 
14 sewage plants, 4 of which at the time were operating at or 
above capacity. At that time the estimate for upgrading the 
city's waste water treatment capacity to meet current and 
future needs was expected to cost more than $10 billion in 
State and Federal money.
    The city was not alone in experiencing increased water 
usage, and wondering how it would meet the rising costs of 
waste water treatment, and finding clean potable water wasn't 
the biggest problem.
    I personally have worked on projects for California, 
Florida, Maryland and Massachusetts as well as Cities of 
Philadelphia, Atlanta, Duluth, Minnesota and Portland, Oregon, 
all of which were facing stresses on their ability to meet 
their waste water treatment needs. In fact, some areas of the 
country, including New York City, were threatening building 
moratoriums in order to reduce waste water treatment demands. 
Tapping into new water sources was unjustifiably expensive and 
would not address the city's long term environmental needs. The 
city needed a solution that would address both challenges, 
reducing the city's demands for clean water and reducing the 
amount of water needing treatment. Prior to the 1990's, the 
majority of the New York City's toilets used 3 to 5 gallons of 
water per flush. And in fact prior to 1980, you could use a 
toilet in the United States with 4\1/2\ to 7 gallons of water. 
There were 4 million toilets in the city of New York, and the 
frequency at which they were flushed, very quickly you realize 
the amount of water being consumed is no longer insignificant.
    The toilet rebate and retrofit program eventually adopted 
by the city was an innovative and effective plan that would 
address the city's clean water and waste water treatment needs. 
The terms of the program were simple. The city offered a rebate 
up to $240 on the installed cost for the replacement of an 
outdated water guzzling toilet with a modern, low-consumption 
toilet. Additional replacements in the same household were 
eligible for $150 rebate per unit. Commercial replacements 
qualified for $150 per unit. A couple of caveats, and these 
were the things that ensured the program's success. At least 70 
percent of the toilets in each building had to be replaced 
before the owner was eligible for the rebate. Only models 
tested and approved by the State of New York could be 
installed. And most importantly, the installation must be 
completed by a licensed plumbing contractor who could not get 
paid if the unit did not work.
    This public-private partnership succeeded because of the 
credibility of the program among the city's building owners and 
the licensed plumbing contractors working in the city's 2.3 
million households. It could not have worked without their 
support.
    I would like to share some impressive facts. We did 1.3 
million plus toilets in the first 25 months on the program at 
an average of 12,500 a week. The city of New York had reduced 
the flow of water through its sewage treatment plants by 80 
million gallons a day, 280 million gallons a year. New York 
City replaced 1.3 million toilets at a cost of $290 million, 
but saved the city $3 billion in water and waste water 
treatment expansion costs. The average household in New York 
City was saving $70 annually on its water and sewer bills, 
which are combined. Water consumption was reduced by 29 
percent.
    I would say in conclusion, gentlemen, we were going to go 
on and do the rest of the 4 million toilets, and as Mr. 
Giuliani came in, everybody started saying we don't have to 
save 240 million gallons of water. So they stopped it at 1.3 
because there wasn't a need for it. We have held back the other 
2.7--or the other 1.7 or 2.7 as a reserve. But this was all 
attributable directly, I have with me and I would leave for 
your staff to look at an outside evaluation of the New York 
City toilet program, which is voluminous to say the least, and 
it shows almost all of the toilets that were installed and the 
consumer's response to that and I think more importantly when I 
say to you very frankly the plumbing installer in New York City 
did not get paid from the administration if the consumer said 
hey, that thing doesn't work. So in fact we did it in Federal 
office buildings, Marriott hotels, houses, a cross-section of 
the city. This thing works. They saved 80 million gallons a 
day.
    Mr. Bilirakis. I ask unanimous consent that document be 
made part of the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8509.001
    
    [GRAPHIC] [TIFF OMITTED] T8509.002
    
    [GRAPHIC] [TIFF OMITTED] T8509.003
    
    [GRAPHIC] [TIFF OMITTED] T8509.004
    
    [GRAPHIC] [TIFF OMITTED] T8509.005
    
    [GRAPHIC] [TIFF OMITTED] T8509.006
    
    [GRAPHIC] [TIFF OMITTED] T8509.007
    
    [GRAPHIC] [TIFF OMITTED] T8509.008
    
    [GRAPHIC] [TIFF OMITTED] T8509.009
    
    [GRAPHIC] [TIFF OMITTED] T8509.010
    
    [GRAPHIC] [TIFF OMITTED] T8509.011
    
    [GRAPHIC] [TIFF OMITTED] T8509.012
    
    [GRAPHIC] [TIFF OMITTED] T8509.013
    
    [GRAPHIC] [TIFF OMITTED] T8509.014
    
    [GRAPHIC] [TIFF OMITTED] T8509.015
    
    [GRAPHIC] [TIFF OMITTED] T8509.016
    
    [GRAPHIC] [TIFF OMITTED] T8509.017
    
    [GRAPHIC] [TIFF OMITTED] T8509.018
    
    [GRAPHIC] [TIFF OMITTED] T8509.019
    
    [GRAPHIC] [TIFF OMITTED] T8509.020
    
    [GRAPHIC] [TIFF OMITTED] T8509.021
    
    [GRAPHIC] [TIFF OMITTED] T8509.022
    
    [GRAPHIC] [TIFF OMITTED] T8509.023
    
    [GRAPHIC] [TIFF OMITTED] T8509.024
    
    [GRAPHIC] [TIFF OMITTED] T8509.025
    
    [GRAPHIC] [TIFF OMITTED] T8509.026
    
    [GRAPHIC] [TIFF OMITTED] T8509.027
    
    [GRAPHIC] [TIFF OMITTED] T8509.028
    
    [GRAPHIC] [TIFF OMITTED] T8509.029
    
    [GRAPHIC] [TIFF OMITTED] T8509.030
    
    [GRAPHIC] [TIFF OMITTED] T8509.031
    
    [GRAPHIC] [TIFF OMITTED] T8509.032
    
    [GRAPHIC] [TIFF OMITTED] T8509.033
    
    [GRAPHIC] [TIFF OMITTED] T8509.034
    
    [GRAPHIC] [TIFF OMITTED] T8509.035
    
    [GRAPHIC] [TIFF OMITTED] T8509.036
    
    [GRAPHIC] [TIFF OMITTED] T8509.037
    
    [GRAPHIC] [TIFF OMITTED] T8509.038
    
    [GRAPHIC] [TIFF OMITTED] T8509.039
    
    [GRAPHIC] [TIFF OMITTED] T8509.040
    
    [GRAPHIC] [TIFF OMITTED] T8509.041
    
    [GRAPHIC] [TIFF OMITTED] T8509.042
    
    [GRAPHIC] [TIFF OMITTED] T8509.043
    
    [GRAPHIC] [TIFF OMITTED] T8509.044
    
    [GRAPHIC] [TIFF OMITTED] T8509.045
    
    [GRAPHIC] [TIFF OMITTED] T8509.046
    
    [GRAPHIC] [TIFF OMITTED] T8509.047
    
    [GRAPHIC] [TIFF OMITTED] T8509.048
    
    [GRAPHIC] [TIFF OMITTED] T8509.049
    
    [GRAPHIC] [TIFF OMITTED] T8509.050
    
    [GRAPHIC] [TIFF OMITTED] T8509.051
    
    [GRAPHIC] [TIFF OMITTED] T8509.052
    
    [GRAPHIC] [TIFF OMITTED] T8509.053
    
    [GRAPHIC] [TIFF OMITTED] T8509.054
    
    [GRAPHIC] [TIFF OMITTED] T8509.055
    
    [GRAPHIC] [TIFF OMITTED] T8509.056
    
    [GRAPHIC] [TIFF OMITTED] T8509.057
    
    [GRAPHIC] [TIFF OMITTED] T8509.058
    
    [GRAPHIC] [TIFF OMITTED] T8509.059
    
    [GRAPHIC] [TIFF OMITTED] T8509.060
    
    [GRAPHIC] [TIFF OMITTED] T8509.061
    
    [GRAPHIC] [TIFF OMITTED] T8509.062
    
    [GRAPHIC] [TIFF OMITTED] T8509.063
    
    [GRAPHIC] [TIFF OMITTED] T8509.064
    
    [GRAPHIC] [TIFF OMITTED] T8509.065
    
    [GRAPHIC] [TIFF OMITTED] T8509.066
    
    [GRAPHIC] [TIFF OMITTED] T8509.067
    
    [GRAPHIC] [TIFF OMITTED] T8509.068
    
    [GRAPHIC] [TIFF OMITTED] T8509.069
    
    [GRAPHIC] [TIFF OMITTED] T8509.070
    
    [GRAPHIC] [TIFF OMITTED] T8509.071
    
    [GRAPHIC] [TIFF OMITTED] T8509.072
    
    [GRAPHIC] [TIFF OMITTED] T8509.073
    
    [GRAPHIC] [TIFF OMITTED] T8509.074
    
    [GRAPHIC] [TIFF OMITTED] T8509.075
    
    [GRAPHIC] [TIFF OMITTED] T8509.076
    
    [GRAPHIC] [TIFF OMITTED] T8509.077
    
    [GRAPHIC] [TIFF OMITTED] T8509.078
    
    [GRAPHIC] [TIFF OMITTED] T8509.079

    
    Mr. Barton. Again subject to the minority approval at staff 
level without objection.
    The program that you just alluded to, that was not mandated 
by this Federal law. The State and city of New York were doing 
that before we passed this legislation, is that not correct?
    Mr. Whalen. We passed low flow water legislation in New 
York City in 1992 which was effective in 1993. The first area 
that did this was in 1990 in Massachusetts, was the first State 
to do it, but in fact to answer your question, yes. It was 
mandated by the city, but it was voluntary for the homeowner to 
then replace them. The caveat on that was if you did an 
alteration in your home or you built a new home, you had to use 
a 1.6 gallon toilet.
    [The prepared statement of George V. Whalen follows:]
 Prepared Statement of George Whalen on Behalf of the Plumbing-Heating-
               Cooling Contractors--National Association
    Good afternoon Mister Chairman, members of the Committee. My name 
is George Whalen and I am here today on behalf of the Plumbing-Heating-
Cooling Contractors--National Association. Thank you for the 
opportunity to present my testimony.
    I am here today to speak in opposition to H.R. 623. For 37 years, I 
served as the President and Executive Director of the Plumbing 
Foundation of the City of New York, a trade association representing 
contractors, unions, and wholesalers.
City of New York--Rebate and Retrofit Program
    While with the Foundation, I had the opportunity to work with the 
New York City Department of Environmental Protection to develop and 
implement the largest and most successful toilet rebate and retrofit 
program in the nation. This program has been a resounding success with 
residents, building owners and managers, the plumbing industry, the 
city's water purveyors, and local, state and federal officials.
    NYC has long been recognized as having one of the world's most 
successful water supply systems, both in terms of quantity and quality. 
That supply, however, was not infinite and beginning in 1991, the City 
of New York recognized the need protect its water resources. High usage 
and summertime drought conditions had forced the city's reservoirs to 
dip dangerously low and had placed unreasonable demands on both the 
city's clean water needs and its capacity to treat wastewater. It is 
important to remember that each gallon of water consumed in New York 
City equals at least a gallon that needs to be treated by one of the 
city's 14 sewerage plants, four of which at the time were operating at 
or above capacity. At the time, the estimate for upgrading the city's 
wastewater treatment capacity to meet current and future needs was 
expected to cost more than $10 billion in federal, state and city 
money.
    The City of New York was not alone in experiencing increased water 
usage and wondering how it would meet the rising cost of wastewater 
treatment. And finding clean, potable water wasn't the biggest problem. 
I have worked on projects for California, Florida, Maryland and 
Massachusetts, as well as the cities of Philadelphia, Atlanta, Duluth, 
Minnesota and Portland, Oregon, all of which were facing stresses on 
their abilities to meet their wastewater treatment needs. In fact, some 
areas of the country, including New York City, were threatening 
building moratoriums in order to reduce wastewater treatment demands.
    Tapping into new water sources was unjustifiably expensive, and 
would not address the city's long-term environmental needs. The city 
needed a solution that would address both challenges--reducing the 
city's demand for clean water and reduce the amount of water needing 
treatment.
    Prior to the early 1990's, the majority of New York City's toilets 
used 3.5-5 gallons of water per flush. Not a significant amount of 
water in itself.
    But, consider the total toilet population of the city and the 
frequency with which they were flushed and very quickly you realize the 
amount of water being consumed is no longer insignificant. The toilet 
rebate and retrofit program eventually adopted by the city was an 
innovative and effective plan that would address the city's clean water 
and wastewater treatment needs.
    The terms of the program were simple. The city offered a rebate of 
up to $240.07 on the installed cost for the replacement of an outdated, 
water-guzzling toilet with a modern, low consumption toilet. Additional 
replacements in the same household were eligible for a $150.07 rebate. 
Commercial replacements qualified for $150.07 per unit. A couple of 
caveats ensured the program's success:

<bullet> at least 70% of the toilets in each building had to be 
        replaced before the owner is eligible for the rebate
<bullet> only models tested and approved by the State could be 
        installed, and
<bullet> the installation must be completed by a licensed plumbing 
        contractor
    This public-private partnership succeeded because of the 
credibility of the program among the city's building owners and the 
licensed plumbing contractors working in the city's 2.3 million 
households. It could not have worked without their support.
    I'd like to share some impressive facts about New York City's 
toilet rebate and retrofit program with you:

<bullet> 1,300,000 toilets were replaced in the first 25 months of the 
        program, an average of 12,500 toilets a week
<bullet> The City of New York has reduced the flow of water through its 
        sewerage treatment plans by 80 million gallons a day or 2.8 
        billion gallons a year.
<bullet> The City of New York replaced 1.3 million toilets at a cost of 
        $290 million but saved the City $ 3 billion in water and 
        wastewater treatment expansion costs.
<bullet> The average household in NYC is saving $70 annually on its 
        water and sewer bills, which are combined in the City of New 
        York.
<bullet> Water consumption was reduced by 29%.
    The continued use of low consumption toilets is a wise and prudent 
move that will ensure future generations have access to clean, potable 
water.
H.R. 623 is Poor Public Policy
    H.R. 623 counters every energy and natural resources conservation 
and efficiency message Congress has ever sent!
    H.R. 623 is bad for the environment. Water is our most precious 
natural resource. It is expensive and in limited supply. Water is 
everyone's problem--not just those who happen to live in certain areas 
of the country. Water-conserving plumbing products can save millions of 
gallons of water every day; Water that could be better used in other 
capacities.
    H.R. 623 is bad for the business community. If enacted, H.R. 623 
could limit growth in your congressional district! Limiting growth 
could restrict the economy--that's not good.
    Our country's wastewater treatment facilities are already severely 
overburdened. Many areas of the country are considering (or have 
considered) building moratoriums and other growth-limiting restrictions 
because they cannot meet current or expected wastewater treatment 
needs. Less water used in our plumbing systems means less water that 
has to be treated! And wastewater plants that don't have to be 
expanded!
    H.R. 623 is bad for America's consumers. The flushing of toilets 
accounts for nearly 40% of all water consumed in the average house. 
Every day we flush more than 5 billion gallons of water down the drain.
    Experts say that's about 1.5 billion (yes, billion) gallons of 
water more than necessary. Switching to water-efficient plumbing 
fixtures could save the average household as much as $50 to $100 a year 
on water and wastewater treatment bills. Water down the drain is money 
down the drain.
    Consumers will also feel the negative effects of this legislation 
when their wastewater treatment facilities fail to meet their 
community's needs and they are forced to pay millions, and sometimes 
billions, of tax dollars to build new treatment facilities. Their sewer 
charges could double within 3 years.
Negative Effect on the Plumbing Industry
    The plumbing industry supports the national efficiency standards 
contained in current law. The flow rates and flush volumes enacted in 
the 1992 Act were developed through the voluntary standard-setting 
process. The same standards had also been adopted by many states prior 
to the enactment of the Act.
    A single federal, low consumption requirement is both necessary and 
practical. A single standard allows products to move freely across 
state lines, without the industry having to produce, stock, deliver and 
install different products based on a variety of state or local 
consumption requirements. This in turn helps to control consumer prices 
for plumbing products.
    Should Congress repeal the current federal standards by passing 
H.R. 623, the efficiencies and economies of the present regulatory 
framework will be lost. Our industry will be forced to comply with 
possibly 50 different state standards, 50 different test procedures, 50 
different certification requirements, and a different building code for 
every town, county and state in which they work.
    Water-efficient technology is vastly improved from where it was 
several years ago. The fact is that there are excellent 1.6 gallon per 
flush (gpf) toilets on the market today. Toilet hardware, not the units 
themselves, is sometimes to blame for poor performance. Toilets must be 
properly installed. Licensed plumbing contractors who properly install 
the 1.6 gpf fixtures rarely get complaints. Plumbing contractors will 
install products that work because warrantee callbacks are costly.
    If you believe improvements can be made in the efficiency or 
performance of the 1.6 gpf toilets mandated in the 1992 Energy Policy 
Act, we urge you to work with our organization and the plumbing 
industry to bring your concerns before American National Standards 
Institute's (ANSI) approved voluntary consensus standardization process 
with jurisdiction over this matter. ANSI is a private, non-profit 
membership organization that coordinates the U.S. voluntary consensus 
standard system.
    The plumbing industry supports the voluntary consensus standard 
process that develops and governs standards ranging from aerospace 
engineering to zirconium production and from crayons to nuclear safety 
to plumbing. The plumbing industry also supports water efficient 
plumbing standards that reduce water consumption and assure states and 
communities a reliable supply of efficient and affordable plumbing 
fixtures.
    Let's keep the government out of our bathrooms and put the experts 
back in charge!

    Mr. Barton. Mr. Goike, we welcome you to the committee. 
Your statement is in the record.

                    STATEMENT OF DAVID GOIKE

    Mr. Goike. Thank you. I would like to enter into the 
hearing a letter addressed to you with two copies from the 
President of TOTO, U.S.A.
    Mr. Barton. Without objection.
    [The information referred to follows:]

                                                       TOTO
                                                      July 22, 1999
The Honorable Joe Barton
Chairman
Subcommittee on Energy and Power
Committee on Commerce
U.S. House of Representatives
Washington, DC 20515
    Dear Mr. Chairman: Please accept this statement of TOTO USA for the 
record of the hearing of the Subcommittee on Energy and Power on H.R. 
623, the bill to repeal the current uniform national water efficiency 
standards for plumbing products. TOTO USA is strongly in support of 
current law, and is opposed to the enactment of H.R. 623.
    TOTO USA is a manufacturer of vitreous china plumbing products, 
including water closets and urinals subject to the national standards 
enacted in 1992. TOTO USA is a subsidiary of TOTO Ltd. of Japan, the 
largest manufacturer of plumbing products in the world. We serve the US 
market from two manufacturing plants in Atlanta and Morrow, Georgia. 
Our Morrow plant opened in 1996, and with its advanced pressure casting 
technology, it is the most modern and productive vitreous china 
manufacturing plant in North America.
    TOTO is known throughout the world for its engineering expertise, 
and we have applied our engineering resources to meet the challenge of 
producing fully functional, gravity-operated toilets that consistently 
perform well at 1.6 gallons-per-flush. By giving careful attention to 
both design innovation in the research phase and quality control in the 
manufacturing process, TOTO is able to produce high quality toilets in 
large volumes and at moderate prices.
    TOTO products have been well received by American consumers. In its 
1995 survey of ultra-low-flush toilet users in Los Angeles, the 
Wirthlin Group reported that more purchasers were satisfied with TOTO 
USA's CST 703 than with any other brand identified in the survey. In 
surveys of participants in New York City's landmark toilet rebate 
program of 1994-96, the CST 703 was again found to have produced the 
highest level of customer satisfaction measured for any toilet in the 
program. More recently, TOTO's two-piece and one-piece models have both 
been rated as ``Best Buys'' by Consumer Digest Magazine.
    H.R. 623 appears to be based on the mistaken notion that it is not 
possible to produce reasonably priced toilets that consistently please 
consumers while operating on only 1.6 gallons-per-flush. We most 
respectfully disagree. Our business in the United States is built 
around doing just that. And we have invested in the plant, equipment, 
and people necessary to produce top quality plumbing products with the 
conviction that competition in the American marketplace will reward 
those who can meet this challenge.
    We are pleased that our products are contributing to the 
conservation of America's natural resources and to the reduction of 
capital costs for water and wastewater infrastructure in American 
communities. This is a role that our company and our employees would 
like to continue. We urge you not to turn back the clock on water 
saving-technology. We urge that H.R. 623 not be enacted.
            Sincerely,
                                              Toshio Kitano
                                                President, TOTO USA
cc: The Hon. Mac Collins, M.C.
   The Hon. John Lewis, M.C.

    Mr. Goike. Good afternoon, Mr. Chairman and members of the 
committee. My name is David Goike and I am here on behalf of 
the Plumbing Manufacturers Institute, a national trade 
association of companies that produce the Nation's finished 
plumbing, fitting and fixtures, along with a variety of other 
plumbing products. Thank you also for the opportunity to 
testify.
    I am here to present PMI's strong opposition to H.R. 623 
legislation. PMI works with model code agencies, States and 
local jurisdictions to promote uniformity in plumbing codes. 
PMI also teams up with national and Federal groups such as the 
American National Standards Institute and the Department of 
Housing and Urban Development to formulate and update plumbing 
standards for materials, performance and installation 
requirements.
    In these roles, PMI and its members are in a unique 
position to measure the effect of EPAct. We believe that this 
law has been successful in conserving water while establishing 
national standards for plumbing fixtures which have resulted in 
significant savings for consumers and municipalities. We are at 
a loss to see why Congress would consider reversing these 
successes at this time. The provision in EPAct mandating low-
flow fixtures passed the House, as previously stated, by a 
bipartisan vote of 328 do 79. These provisions have begun to 
realize their enormous potential to help the environment while 
costing the taxpayers, consumers and the government virtually 
nothing. It is rare that a Federal law accomplishes so much and 
costs so little.
    PMI's active promotion of water conservation in plumbing 
systems dates to the early 1970's, when our members began 
working on product standards for low flow faucets and 
showerheads. In the 1980's, our members worked on products 
standards for low flow water closets. The plumbing industry has 
answered a vital public policy need by developing products 
requiring the use of less water.
    I have a study which has been passed out, Saving Water, 
Saving Dollars. I am not going to read the testimony because it 
has been given. There is a 15 percent savings of interior 
residential water use with just 1.6 gallon toilets alone, and 
it further documents savings of as much as 30 percent of 
interior residential water use if all plumbing products of 
EPAct are applied. Such huge savings on the water supply side 
translate as well to substantial savings in the cost of waste 
water infrastructure systems as well.
    Those advocating the repeal of the plumbing provisions in 
EPAct have sought to diminish and politicize a significant and 
somewhat historic consumer and environmental victory. Repeal 
advocates charge that 1.6 gallon flush toilets don't work and 
claim a broad consumer rebellion against these legislative 
standards.
    Gentlemen, we are here to tell you that simply is not true. 
The report I cited earlier, Saving Water, Saving Dollars, 
concludes that plumbing products, including 1.6 gallon toilets, 
work well and save water. And again I am not going to bother 
because the testimony that I had prepared talks about the 
cities we have already covered, San Diego, Austin, Tampa, where 
over 90 percent of the consumers were very satisfied with 1.6 
gallon toilets. There were several other cities in this report 
where the user satisfaction is extremely high.
    Two other facts which I think I would like to point out is 
that the 25 million 1.6 gallon flush toilets installed as of 
1998 were saving on average 29 gallons of water per day in 
single family homes and 48 gallons per day in apartment units. 
Another fact, the water cost savings from 1.6 gallon flush 
toilets alone amount to $50 per year to consumers with an 
average water and sewer bill, even more in high-cost areas, as 
Mr. Whalen just testified, over $70 in New York City.
    The report further demonstrates that consumer choices would 
not change for the most part if plumbing product provisions of 
EPAct were repealed. State and local regulations exist because 
of a need to conserve water, not simply to satisfy the 
requirements of EPAct. When EPAct was signed into law, 48 
percent of the U.S. Population lived in States already 
requiring the installation of 1.6 gallon flush toilets. 
Preexisting State laws would remain leaving about 17 States 
with low flow requirements in place, in addition to numerous 
municipalities which also required 1.6 gallon toilets.
    What would change is the cost to the consumer. The 
economies of scale that allow costs to remain constant would be 
lost and consumers would end up paying more for their plumbing 
products.
    In closing, permit me to remind the subcommittee that the 
plumbing product provisions of EPAct were inspired by a unique 
coalition of interests, including groups representing business, 
conservation, labor, consumers, environmentalists, water 
utilities and waste water treatment providers. We are here to 
preserve water for our children and grandchildren in the years 
ahead and to make plumbing fixtures less costly for consumers 
and to avoid unnecessary governmental regulatory costs. We see 
no reason to repeal and reverse this highly successful 
initiative.
    Thank you for your efforts.
    [The prepared statement of David Goike follows:]
Prepared Statement of David Goike, Masco Corporation, on Behalf of the 
                    Plumbing Manufacturers Institute
    Good afternoon, Mr. Chairman and Committee Members. I appreciate 
the opportunity to testify before you and the Energy and Power 
Subcommittee today on this most important issue.
                              introduction
    The Plumbing Manufacturers Institute (PMI) is the national trade 
association of plumbing products manufacturers. Its member companies 
produce the nation's finished plumbing fittings and plumbing fixtures 
along with a variety of other plumbing products.
    PMI works with model code agencies, states and local jurisdictions 
to promote uniformity in plumbing codes. PMI also teams up with 
national and federal groups such as the American National Standards 
Institute and the Department of Housing and Urban Development to 
formulate and update plumbing standards for materials, performance and 
installation requirements.
               water conservation--always a high priority
    PMI's active promotion of water conservation in plumbing systems 
began in the early 1970s. The Institute and its members worked on 
product standards for low-flow faucets and showerheads. This effort 
culminated in 1979 when the American National Standard covering low 
water-consumption products was approved. Subsequently, PMI has been 
instrumental in seeking adoption of this standard and standards 
requiring low-flush volume toilets and urinals by states and local 
governments. Thus, it was no accident that PMI was an architect of the 
plumbing product provisions of EPAct '92.
                           answering the need
    The plumbing industry has answered a vital public policy need by 
developing products requiring the use of less water. Over the past 25 
years, the federal government recognized the need for a comprehensive, 
nationwide water use and conservation policy. While a variety of 
regulations from such diverse federal agencies and departments as 
Housing and Urban Development, Agriculture, Energy and EPA have 
addressed some of the issues relating to long-term national potable 
water needs, a truly comprehensive policy does not yet exist.
        the need for public water policy and water conservation
    The need for water conservation in private and public use should 
not be obscured by looking at a map of the United States showing the 
Great Lakes and other magnificent water resources, nor can average 
rainfall be used as an indicator of the areas where water conservation 
is required. The need to save potable water--the water that is suited 
for human consumption--exists in virtually every area of the U.S.
    Potable water is expensive water, increasingly expensive. 
Typically, potable water comes from a source where a substantial 
capital expenditure is required to gather and hold the water (i.e., 
ground water or surface water from man-made reservoirs). The raw water 
must be transported to a treatment plant, processed through treatment 
techniques, transported to the ultimate user and then must be 
transported to a wastewater treatment plant, treated, and finally 
transported again.
    This process costs a great deal of money. Water, for a variety of 
reasons, has typically been underpriced. Utilities have been reluctant, 
historically, to charge enough for water to fully recover capital 
costs. In other words, there has been little set aside for 
infrastructure maintenance and expansion.
    As the population expands and building developments increase, 
tremendous pressure is created on water and wastewater systems 
throughout the U.S. This occurs in areas that have enormous supplies of 
raw water as well as in arid lands. In addition to demand-related 
costs, utilities must also meet constantly expanding regulations 
concerning health-based concerns such as lead in drinking water.
    U.S. EPA estimates, delivered to Congress in 1997, peg needed water 
and wastewater capital investments at $280 billion in the next 20 
years. Some of these funds will come from local users and the local tax 
base. A much larger portion of these funds will have to come from the 
federal government. This is money collected from every taxpayer in the 
U.S.
    Congress should seize every opportunity to maximize taxpayers' 
investments. The report entitled, Saving Water, Saving Dollars, quotes 
studies documenting a 15 percent savings of interior, residential water 
use by the use of 1.6 gallons per flush (gpf) water closets alone. It 
further documents savings of as much as 30 percent of interior, 
residential water use, if all plumbing product provisions of EPAct '92 
are applied along with the use of new, more efficient clothes washers.
    Such savings on the water supply side translate to substantial 
savings on the wastewater infrastructure of systems as well. Water 
conservation in plumbing systems makes sense for many reasons, not the 
least of which is because it allows taxpayer dollars to be used more 
efficiently by government and utilities.
                         a quadruple win . . .
    The plumbing product provisions of EPAct '92 exist because a unique 
coalition of interests worked in unison for the public good. Industry, 
labor, contractors, environmentalists and consumer groups, water 
suppliers and government all came together and agreed on how to achieve 
more efficient use of our water resources.
    This is an example of legislature where there are few government 
programs where everyone wins. Now that the reality of water 
conservation has been documented by Saving Water, Saving Dollars, we 
can point out that the plumbing product provisions of EPAct '92 created 
a quadruple win . . .
    . . . First, huge amounts of a precious, expensive resource are not 
being wasted and misused. The ramifications for all of us in the 21st 
century are enormous and positive. Showcase a victory for the 
environment and our future!
    . . . Products meeting the federal requirements now cost little or 
no more than the same products did prior to 1993, when the requirements 
were enacted. So, the consumer benefits. The consumer benefits again 
because water and sewer bills are less in many instances because of the 
decreased usage. Chalk up a consumer victory!
    . . . these plumbing products provisions have cost the federal 
government virtually nothing. Local and state governments have adopted 
the regulations into their plumbing codes, and plumbing inspectors are 
already enforcing them. The federal government spends virtually nothing 
administering the water conservation standards because standards 
development was left to the private sector that already had the 
capabilities to do the job. Chalk up a victory for government and the 
taxpayer!
    . . . allowing manufacturers to concentrate on more important 
issues such as product improvement and foreign markets. Tally a victory 
for industry!
    Summary: The plumbing product provisions of EPAct '92 have begun to 
realize their enormous potential to help the environment while costing 
taxpayers, our government and consumers virtually nothing. Lets face 
it--such a report card is rarely issued on government programs!
              reality will continue to make epact '92 work
    Prior to 1992, a number of states and local governments had 
identified the benefits of lower water use plumbing products as part of 
a strategy to save water and avoid capital costs for water and 
wastewater facilities. Many of these entities created their own, but 
differing, efficiency regulations in the absence of uniform federal 
requirements. Product manufacturers, distributors and installers had 
major problems meeting this patchwork of regulation. Literally, an 
installer of a 1.6 gallons per flush water closet could walk across the 
street to a different town and have to install one flushing on 1.5 
gallons per flush.
    The manufacturing, distribution, logistics and enforcement costs of 
this system were unnecessarily high. The consumer was paying more for 
products than would have been necessary under a unifying national 
standard.
                   why has epact '92 worked so well?
    Congress prudently created a target for product manufacturers and 
regulators but did not tell them how to meet the goal. The ``how to'' 
was left to the private sector and to existing institutions, such as 
the American National Standards Institute, that already knew how to do 
the job. The inherent competitiveness of the plumbing industry has been 
a major force in creating a ``win-win'' scenario under this law. Since 
1992, products covered by the Act have increased in functionality, and 
they cost virtually no more than their predecessors did.
    Plumbing product manufacturers today must meet the demands of the 
marketplace, and they are doing so, just as they have always done.
                              other issues
    1) It has been asserted by detractors of EPAct '92 that the 
plumbing product provisions of the Act should be repealed so that 
consumers may have a ``choice'' as to how much water toilets use. The 
argument is illusory. First, one must recognize, as a practical matter, 
consumers in recent times have never had a choice as to how much water 
toilets used to flush. In the last 25 years, water closet flushing 
volume has evolved steadily downward for a variety of reasons from 
seven gallons per flush to the current 1.6 gallons per flush.
    Consumers today can specify the same choices with respect to 
toilets as they did 25 years ago (i.e., color, shape and size of the 
bowl), with the exceptions of short periods of time when higher 
flushing generations of toilets were phased out of the market and the 
next lower flushing generation was phased in.
    2) Repealing the federal law will have minimal impact on the broad 
use and acceptance of water conservation plumbing products, but costs 
may very well increase needlessly. The requirements of EPAct '92 are 
now firmly embedded in state and local law, and codes. They are being 
widely enforced. Most areas of the U.S., either before 1992 or after 
EPAct '92 was passed, have changed their own statutes and regulations 
to require water conservation plumbing products.
    The model plumbing codes, upon which most state and local codes are 
based, have also changed requirements for water conservation products. 
It is our opinion, based on our knowledge of the market and the code 
development process, that few--if any--states and local jurisdictions 
would repeal regulations mandating the use of water conservation 
plumbing products.
    What is bound to happen, however, is that states and local 
jurisdictions would move back to the pre-1992 situation in which they 
make ``slight'' changes in their regulations.
    We cannot predict precisely how these localized regulations would 
change manufacturing, but we can report what happened prior to 
implementation of the federal requirements: in order to maintain 
efficiency and productivity, producers made all or most of their 
toilets, showerheads and faucets to the most stringent requirements in 
the national marketplace. This is, if state X required 1.3 gallons per 
flush toilets, all toilets were made to that standard by the 
manufacturer, generally speaking, it is more efficient to produce and 
distribute fewer models of a product.
    It is ironic that repeal of the plumbing product provisions of 
EPAct '92 would quite likely have exactly the opposite effect that H.R. 
623 contemplates.
    3) Consumers are generally satisfied with the current generation of 
water conservation products. The documentation of consumer acceptance 
and satisfaction contained in Saving Water, Saving Dollars should ease 
any congressional concerns. We have reviewed consumer complaint data 
form several major toilet manufacturers. The conclusion is that 
manufacturers receive no more complaints about 1.6 gallons per flush 
toilets than they did about 3.5 gallons per flush toilets. As a matter 
of fact, some have received fewer complaints on the 1.6 models.
    4) The alleged ``black market'' for older toilets is imaginary in 
its impact. We asked toilet manufacturers to compare several years' 
data of projected sales of toilets against actual sales for outlets 
near the Canadian border (Canada has no such 1.6 gallons per flush 
requirement). It was assumed that sales in these areas would suffer, if 
a black market for 3.5 gallons per flush toilets existed. Every 
reporting company indicated sales of 1.6 gallons per flush toilets 
along the Canadian border were at or above forecasts.
    5) Contrary to the battle cry of H.R. 623 sponsors, the government 
has been in your bathroom since the 1400s--ever since officials 
determined emptying chamber pots out the window into the street caused 
disease. Plumbing installation is highly regulated at the state and 
local levels today, as it has been since the Middle Ages. The federal 
government also plays an increasing role in the regulation of plumbing 
products.
    If the plumbing product provisions of EPAct '92 were repealed, the 
federal government would still be in your bathroom through laws, 
regulations or policies of the Consumer Product Safety Commission, the 
EPA, the Department of Housing and Urban Development, and the 
Department of Justice (ADAAG). These citations do not include the 
important role of federal purchasing specifications in shaping product 
standards.
                         how congress can help
    We believe there is a proper and very useful role for the Congress 
concerning the broad issues of water conservation and plumbing 
products.
    The first part of that role is for Congress to foster and nurture a 
comprehensive review of water supplies and water use--to create a 
national water policy. Experts have been documenting the need to 
preserve water supplies for decades. Each Presidential administration 
since Jimmy Carter's has made headlines over initiation of a 
comprehensive national policy, with conservation as an important part 
of the policy. We are now moving into the twenty-first century and 
still do not have a comprehensive water policy for this nation.
    With respect to plumbing products, we wish to emphasize that the 
use of our industry products is only part of the necessary development 
of a comprehensive national water policy.
    1) Section 337 of EPAct '92 mandates the Secretary of the 
Department of Energy to carry out consumer education. If this 
obligation has been met at all, it has only been a minimal effort. The 
plumbing industry needs help from consumer and environmental groups, 
other interested parties and government in letting consumers' needs, 
but they operate differently. Congress could help cause government 
agencies to become part of the solution to consumer education issues.
    2) We believe that, over the long term, flow rates and flush 
volumes of plumbing products will continue to be driven downward 
because of the need to save water and energy. The products manufactured 
by our industry are the products the consumers see in their bathrooms 
and kitchens. Underlying these products is a complicated system of 
water delivery and waste disposal that, along with those products the 
consumer actually uses, form the plumbing system. All portions of the 
overall system must function in harmony or serious problems effecting 
health and safety develop.
    Within the federal government (at the National Institute for 
Standards and Technology) the expertise already exists to begin dealing 
with the longer-term plumbing system design issues inherent in the need 
to save water. Coupling NIST with the American Society of Plumbing 
Engineers, representing the private plumbing system design professional 
and other groups, would position Congress in a strong leadership role 
solving twenty-first century water problems.
    While we believe H.R. 623 should not be passed, we also recognize 
that those supporting it have, by their efforts, helped focus attention 
on the need for a comprehensive national water policy. We invite the 
sponsors and supporters of H.R. 623 to work with the same coalition 
that created the plumbing product provisions in EPAct '92 to talk about 
water and the twenty-first century.
                                summary
    The plumbing product provisions of EPAct '92 were created by a 
truly unique group of interests including business, labor, consumers, 
environmentalists, the water industry and government.
    What they created has . . .
      . . . saved precious water
      . . . saved the consumer money
      . . . cost the government virtually nothing to administer
      . . . help the environment!!
    Why would such an initiative be repealed?

    Mr. Barton. Thank you, sir. We would like to hear from Mr. 
Willardson. You are asked to summarize your statement.

                 STATEMENT OF ANTHONY WILLARDSON

    Mr. Willardson. Thank you, Mr. Chairman and members of the 
subcommittee. We appreciate the opportunity to testify on 
behalf of the council. The council is an organization of 16 
States and the members are appointed by the Governors of those 
States. The council is opposed to the repeal of uniform 
national plumbing efficiency standards. I might add that is an 
unusual position for us to take to support Federal regulation, 
but in this case our States have had, many of them, the same 
standards before enactment of the Federal requirements.
    The States of Arizona, California, Nevada, Oregon, Texas, 
Utah and Washington all had plumbing efficiency standards prior 
to the Federal requirements. The Federal requirements have been 
incorporated in their plumbing codes. Other States now depend 
on those standards. The State of New Mexico is one who again 
opposes repeal of those standards. Repeal would send--to us it 
is a question of conservation. It is an issue of conservation. 
The repeal of those standards would send the wrong message, 
that urban water conservation is not as important as it was.
    We have seen significant water savings in different areas 
of the country. While it may not be perceptible nationwide, it 
is perceptible in the Los Angeles Basin and in the San Diego 
area, in Las Vegas, where they are reaching the limit of their 
water supply and are still building. The issue may come down if 
we can't reduce our water use, a building moratorium. The State 
of Arizona has closed many of their groundwater basins to 
further development. They have required a showing of a 100-year 
water supply before you can subdivide.
    There are many water supply issues in the West, and we 
believe that one of the other major issues for those States 
that had standards is enforcement of those standards. The 
member from Arizona remarked they wondered what they were going 
to do now that they were giving the standards from a State 
water agency. Were they going to home base, the local hardware 
stores to see what they were selling? The enactment of the 
Federal standards eliminated that tremendous regulatory problem 
for the States, and enactment of H.R. 623 and repeal of those 
standards would again place that burden on the States.
    Also there is the issue of Federal funding, increasing the 
demands for Federal funding for infrastructure financing for 
water and waste water. We have heard that before. It would 
create a disproportionate burden on western States where we are 
limiting our water use and create a greater demand in other 
States that are not limiting their water use for those funds, 
for State revolving funds and others.
    We have chosen to exercise the constraints. The State of 
California supports the Federal standards even though their 
standards were more stringent at the time that the Energy 
Policy Act was enacted in 1992.
    There are other things that States can do and are doing to 
save water. This is an important issue to us and as I say, it 
is not one that was taken lightly. The discussion in our 
meetings among our States, and it was a unanimous adopted 
position, was enlightening. But it came down to the issue of 
supporting conservation and the regulatory burden that would be 
placed on the States if this act were repealed. Nevada was 
interesting. They wanted to know what the support was for 
repeal of the bill, if there was a National Association of 
Water Wasters.
    Arizona has talked about their plumbing standards and how 
that is a base requirement for all of the cities in Arizona 
now, including the city of Phoenix. In Oregon, the State's 
administrative rules with respect to water allocation and 
conservation are all tied to their water efficiency standards 
and the plumbing codes. There are many--there would be 
tremendous repercussions if the national standards were 
repealed, and for that reason the issues of conserving water 
and for simplifying and reducing the burden on States of 
regulating water use, we oppose H.R. 623 and the repeal of 
national standards.
    [The prepared statement of Anthony Willardson follows:]
   Prepared Statement of Anthony G. Willardson, Associate Director, 
                      Western States Water Council
    Mr. Chairman and members of the Subcommittee: On behalf of the 
Western States Water Council, I appreciate this opportunity to testify 
on H.R. 623. The Council consists of representatives appointed by the 
governors of sixteen western states.
    The Council is opposed to the repeal of the uniform national 
plumbing efficiency standards in the Energy Policy Act of 1992, as 
envisioned in H.R. 623. A resolution adopted by the Council to this 
effect is attached. The Council has always advocated and promoted the 
wise use of western water resources in general, and specifically 
appropriate water conservation measures. Making efficient and 
beneficial use of scarce water resources has been, and continues to be, 
a fundamental objective of western states' water policies.
    Water agencies that have carried out retrofit programs to install 
higher efficiency fixtures have demonstrated substantial water savings 
from these programs. Between 1990 and 1992 the States of Arizona, 
California, Nevada, Oregon, Texas, Utah, and Washington adopted 
statewide standards for new plumbing products, including a standard of 
1.6 gallons per flush (gpf) for toilets. Following action by these 
States and others, the Energy Policy Act of 1992 was enacted in October 
1992 containing uniform national water efficiency standards for 
plumbing products, including a standard of 1.6 gpf for toilets, with 
the active support of many water and wastewater utilities in the 
Western States. Other Western States subsequently incorporated 
comparable water efficiency standards into their plumbing codes.
    Still other states now rely on the established federal standards, 
which if repealed, would leave a regulatory gap that could lead to 
substantial confusion and difficulties in enforcing current state 
standards for installation of water efficient fixtures. Uniform 
national efficiency standards simplify and reduce the States' burden of 
enforcement regarding the sale and installation of ultra-low flush 
toilets (ULFTs) and other water-efficient plumbing products. Moreover, 
uniform national efficiency standards maintain a national market for 
plumbing products, allowing manufacturers to achieve full economies of 
scale and encouraging wider competition in all jurisdictions.
    Furthermore, repeal might be perceived as sending the wrong signal 
that urban water conservation is not as important now as a few years 
ago. Efficient plumbing products, including ultra-low flush toilets 
(ULFTs), became widely available in the early 1990's, and have 
undergone substantial product development and performance improvements 
since that time. The American Water Works Association Research 
Foundation (AWWARF) commissioned the most comprehensive end-use study 
of indoor water use ever undertaken in North America, recording indoor 
water usage in twelve cities, the majority located in the Western 
States. These AWWARF studies have documented per capita indoor water 
use reductions averaging over 30% in single-family homes equipped with 
water-efficient plumbing fixtures, fittings, and appliances currently 
on the market, compared to homes without such products.
    With urban growth in the West and the difficulty in developing new 
water supplies to meet the needs of an expanding population, continuing 
water use efficiency will always be an important water conservation and 
management tool. Enactment of this legislation would increase the 
burden of enforcement on Western States and communities seeking to 
maintain efficiency standards for plumbing products, and will reduce 
the reliability and predictability of water savings resulting from such 
standards. Such legislation may also disadvantage those Western States 
seeking to maintain water efficiency standards for plumbing products as 
a disproportionate share of federal financial assistance for water and 
wastewater infrastructure in future years could be diverted to States 
choosing to make less efficient use of water by relaxing or repealing 
water efficiency standards for plumbing products.
    In conclusion, the national standards highlight the importance of 
uniform requirements which contribute to the vital goal of conserving 
water and simplify and reduce the state burden of enforcement regarding 
the sale and installation of water efficient plumbing fixtures. The 
federal statute provides minimum standards, but if necessary and 
appropriate, states may still choose to exercise their authority to 
adopt more stringent requirements. We would appreciate your support in 
maintaining the existing national standards.
                                 ______
                                 
                               Western States Water Council
                                                     April 21, 1999

                                                   Position No. 224
The Honorable Tom Bliley, Chair
House Commerce Committee
U.S. House of Representatives
2409 Rayburn House Office Building
Washington, DC 20515-4607
    Dear Chairman Bliley: On behalf of the Western States Water 
Council, which represents the governors of sixteen states, I am writing 
to express our opposition to the repeal of the uniform national 
plumbing efficiency standards in the Energy Policy Act of 1992, as 
envisioned in H.R. 623. A resolution adopted by the Council to this 
effect is enclosed. The Council has always advocated and promoted the 
wise use of western water resources in general, and specifically 
appropriate water conservation measures. Making efficient and 
beneficial use of scarce water resources has been, and continues to be, 
a fundamental objective of western states' water policies. Water 
agencies that have carried out retrofit programs to install higher 
efficiency fixtures have demonstrated substantial water savings from 
these programs.
    While many western states have enacted their own plumbing 
efficiency standards and codes, others now rely on the established 
federal standards, which if repealed, would leave a regulatory gap that 
could lead to substantial confusion and difficulties in enforcing 
current state standards for installation of water efficient fixtures. 
Moreover, repeal might be perceived as sending the wrong signal that 
urban water conservation is not as important now as a few years ago. 
With urban growth in the West and the difficulty in developing new 
water supplies to meet the needs of an expanding population, continuing 
water use efficiency will always be an important water conservation and 
management tool.
    The national standards provide uniform requirements that simplify 
and reduce the state burden of enforcement regarding the sale and 
installation of water efficient plumbing fixtures. The federal statute 
provides a minimum standards, but if necessary and appropriate, states 
may still choose to exercise their authority to adopt more stringent 
requirements. We would appreciate your support in maintaining the 
existing national standards.
            Sincerely,
                          Francis ``Fritz'' Schwindt, Chair
                                       Western States Water Council
cc: Western Congressional Delegation
                                 ______
                                 
                                                   Position No. 224
         Position of the Western States Water Council Regarding
            Water Efficiency Standards for PLumbing Products
                   Yakima, Washington, April 9, 1999
    WHEREAS, making efficient and beneficial use of scarce water 
resources has been, and continues to be, a fundamental objective of the 
Western States; and
    WHEREAS, the importance of water use efficiency continues to grow 
as the finite water resources of the Western States support increasing 
levels of population and economic activity; and
    WHEREAS, new technology that makes more efficient use of water in 
its various applications offers significant economic and environmental 
benefits to the Western States; and
    WHEREAS, efficient plumbing products, including ultra-low flush 
toilets (ULFTs), became widely available in the early 1990's, and have 
undergone substantial product development and performance improvement 
since that time; and
    WHEREAS, the American Water Works Association Research Foundation 
(AWWARF) has commissioned the most comprehensive end-use study of 
indoor water use ever undertaken in North America, recording indoor 
water usage in twelve cities, the majority located in the Western 
States; and
    WHEREAS, the AWWARF studies have documented per capita indoor water 
use reductions averaging over 30% in single-family homes equipped with 
water-efficient plumbing fixtures, fittings, and appliances currently 
on the market, compared to homes without such products; and
    WHEREAS, the States comprising the Western States Water Council 
have identified drinking water and wastewater infrastructure needs 
totaling more the $60 billion over the next 20 years, as contained in 
Needs Surveys forwarded to Congress by the Environmental Protection 
Agency; and
    WHEREAS, many of these capital costs can be postponed or reduced by 
reductions in the volume of flows that must be accommodated; and
    WHEREAS, in recognition of the public and private benefits of 
efficient plumbing products, between 1990 and 1992 the States of 
Arizona, California, Nevada, Oregon, Texas, Utah, and Washington 
adopted statewide standards for new plumbing products, including a 
standard of 1.6 gallons per flush for toilets; and
    WHEREAS, following action by these States and others, the Energy 
Policy Act of 1992 was enacted in October 1992 containing uniform 
national water efficiency standards for plumbing products, including a 
standard of 1.6 gpf for toilets, with the active support of many water 
and wastewater utilities in the Western States; and
    WHEREAS, other Western States have subsequently incorporated 
comparable water efficiency standards into their plumbing codes; and
    WHEREAS, uniform national efficiency standards simplify and reduce 
the States' burden of enforcement regarding sale and installation of 
ULFTs and other water-efficient plumbing products; and
    WHEREAS, uniform national efficiency standards maintain a national 
market for plumbing products, allowing manufacturers to achieve full 
economies of scale and encouraging wider competition in all 
jurisdictions; and
    WHEREAS, legislation has been introduced in the 106th Congress to 
repeal uniform national efficiency standards for plumbing products; and
    WHEREAS, enactment of such legislation will not benefit the 
communities and consumers of the Western States; and
    WHEREAS, enactment of such legislation will increase the burden of 
enforcement on Western States and communities seeking to maintain 
efficiency standards for plumbing products, and will reduce the 
reliability and predictability of water savings resulting from such 
standards; and
    WHEREAS, enactment of such legislation may disadvantage Western 
States seeking to maintain water efficiency standards for plumbing 
products due to the diversion of a disproportionate share of federal 
financial assistance for water and wastewater infrastructure in future 
years to States choosing to make less efficient use of water by 
relaxing or repealing water efficiency standards for plumbing products.
    NOW THEREFORE BE IT RESOLVED, that the Western States Water Council 
supports the retention of uniform national water efficiency standards 
for plumbing products.

    Mr. Barton. Thank you. The Chair recognizes himself for 5 
minutes for questions. I want to first try to get a handle on 
how much water is being saved by these new Federal standards.
    Mr. Whalen, you seem to give the most fact based 
presentation. It sounds like the City and State of New York has 
put some real effort into trying to conserve water and has come 
up with a fairly innovative program. I am going to direct these 
questions to you because you used real facts in your 
presentation, but the whole panel is welcome to try to answer 
them.
    My first question is: Of the total water that is consumed 
in the United States, what percentage is consumed by the 
appliances that are covered under these Federal standards, that 
is toilet, showerheads, et cetera? Does anybody know that?
    Mr. Whalen. Are you referring to the total amount that is 
withdrawn from the ground and rivers?
    Mr. Osann. Municipal water is actually a small fraction of 
the total if you include agricultural water use and electric 
power production. Those are a couple of big ones.
    Mr. Barton. We need to come up with a standard universe of 
water, and we need to determine what percent that the act 
covers is consuming. I am an engineer, and the first thing you 
have to do is identify the problem and in order to identify the 
problem you have to identify the parameters. That is all that I 
am trying to do.
    Mr. Osann. If I might, Mr. Chairman, the products that are 
regulated under the standards are responsible, I believe, for 
70 to 80 percent of indoor water use.
    Mr. Barton. That is not answering my question. That is 
irrelevant. The question is how much water do we use each day 
in the United States and how much of the water we use is used 
by these appliances. Is that 10 percent of the total water or 5 
percent or 1 percent? 80 percent? It is obvious if you talk 
about indoor water, you know, that toilets, showers, sinks, I 
guess bathtubs, washing machines, it is a fairly small 
universe.
    Mr. Whalen. I think it would be incumbent upon us to submit 
back to you the answers to those questions. I know that 
information is available, and I think between us and the 
organizations we represent, we owe it to you give you an answer 
factually.
    Mr. Barton. Here is why I asked that, Mr. Whalen. Your 
group with great justification is saying this is helping 
conserve water. The group that wants to repeal these standards 
says not all that much water is being saved by these standards. 
It is true that water is being saved but it is because of all 
of these other factors, it is not because of this. The 
proponents of these standards are taking credit for something 
that they are not due credit.
    Obviously if everything is equal and you have a 3.5 gallon 
toilet and a 1.6 gallon toilet and you use them the same number 
of times under the same conditions, that you are saving almost 
2 gallons a use. But that kind of begs the question of the 
larger universe of total water that is being conserved.
    So my first question is let's determine what the use 
universe is.
    The second question is in the equipment inventory, what 
percent of the equipment in the inventory is this new 
equipment? Standards at the Federal level were passed in 1992 
but they didn't go into effect until 1994, and again there is 
a--the testimony of the previous panel says that we are adding 
about 4.3 million toilets a year to the inventory and my guess 
is that is about 1 percent of the total toilets or even less, 
but I don't know that. Do you know the answer to that.
    Mr. Goike. Mr. Chairman, the data that I have got and it is 
through 1996, which is the latest full year available, there 
are approximately 9 million shipments of toilets per year. Of 
those 9 million, approximately 7 million are 1.6 gallon 
toilets. So we are manufacturing and shipping approximately 7 
million 1.6 gallon toilets per year.
    Mr. Barton. So the toilets that are above this standard, 
where are they going?
    Mr. Goike. Those are commercial use.
    Mr. Barton. Which is not covered by the act.
    Mr. Whalen. In prisons, there are radical difference on 
toilets used there, for obvious reasons, and they do not meet 
that requirement. And there are other special uses. If you get 
involved in certain hospitals uses, there is a differentiation.
    Mr. Barton. The first panel said American manufacturers can 
manufacture the larger capacity equipment and export it. Is 
that true and is that being done?
    Mr. Goike. There is a type of toilet called a blow out that 
uses a larger trap. That is an example of a larger volume 
toilet. Those can be used in public use places and where there 
is a lot of transient--stadiums.
    Mr. Barton. Is the American plumbing manufacturing industry 
manufacturing individual toilets that are the larger 3.5 or 
above and then selling them to Mexico and Canada and then they 
are coming back?
    Mr. Goike. That is not my understanding, no.
    Mr. Barton. So those toilets are not coming back, being 
imported on an individual basis?
    Mr. Goike. No, there is a big market of toilets 
manufactured in other countries.
    Mr. Barton. My last question, although my time has expired, 
what is wrong with Congressman Knollenberg's assertion that 
let's just repeal it at the Federal level because this is a 
State and local issue.
    Again, Mr. Whalen, what you have done or your State and 
city has done is very commendable, but you didn't need a 
Federal statute to do that. What is wrong with just letting the 
State and local governments, the western States, all of these 
entities that want to do this, let them do it but don't mandate 
it from Washington?
    Mr. Whalen. There is an answer and I will try to be brief. 
I have always found that if things are not mandated and then 
followed up and enforced, the tendency for things to go crazy 
happens, and that happens in manufacturing. I believe that that 
program in New York City couldn't have happened if all of the 
manufacturers weren't making the product.
    I heard the gentleman to my left representing manufacturers 
tell you that the price of plumbing products was reduced 
considerably because instead of making 2 or 3 different types 
of models, now the manufacturer is making all one toilet and he 
is doing 9 million a year and therefore he can produce it at a 
cheaper rate. We found that to be true.
    Mr. Barton. He also said that the public could choose the 
lower flow toilet. And if that is the case, the people that 
wanted them, that small minority which I would include myself 
in, I would want a larger capacity toilet, that would at least 
be available. My time has expired.
    Mr. Goike. Could I add, to help answer that question, from 
a manufacturer standpoint, the problem we face with this type 
of repeal is that it would add considerable cost to 
manufacturing. If you can imagine a production line with 
showerheads or faucets and we have to start to manufacture 
product for all the different State laws that would now be in 
effect once the Federal law is repealed and the municipalities, 
the cost of manufacturing, distributing and logistically 
getting all of those products to all of these individual States 
and municipalities would drive up the cost.
    Mr. Barton. The reality is that there would not be that 
many different variations. We would have a national code. There 
would be some variation, I would admit that, but it wouldn't be 
tremendous.
    Mr. Burr. I don't think that there is anything in the 
legislation which mandates that a manufacturer supply all of 
those different products.
    Mr. Goike. But that would take away our competitive 
advantage.
    Mr. Burr. It would be the response of the customers that 
would require you to make that----
    Mr. Goike. We would be responding to the customers but we 
would be responding to customers with 50 different proposals.
    Mr. Barton. What Mr. Burr is saying is that you wouldn't 
have to. You could let Barton-Burr Enterprises spring into 
existence to manufacture and sell the two toilets per year that 
weren't 1.5 gallon flow.
    Mr. Burr. Additionally, I think that is the reason we are 
having this hearing. We are responding to the people that we 
represent who are not satisfied with the standardization of the 
product that is available. Just like you would respond.
    Mr. Barton. The gentleman from Florida is recognized for 5 
minutes.
    Mr. Bilirakis. Your question speaks to what we are doing 
here. I know that certainly Mr. Burr would recognize the 
economies of scale that one of you mentioned would not be 
present if a manufacturer had to be concerned with a number of 
different size, different standard type products.
    And so yes, the market--some members of the market, maybe a 
limited, maybe a larger amount, would maybe demand the larger 
size, but you wouldn't really know how many of those people 
there would be, so you would have to manufacture some sort of a 
percentage which of course would drive up the cost.
    Well, let me ask Mr. Tippin, have the water utilities that 
promoted efficient toilets and showerheads received a 
substantial number of complaints from their customers?
    Mr. Tippin. I can speak for Tampa.
    Mr. Bilirakis. Mr. Whalen has a thick booklet which speaks 
to that. Maybe you can speak to Tampa.
    Mr. Tippin. I had a conversation yesterday morning with our 
chief plumbing inspector, I asked him, what about the 
satisfaction. Has he had complaints. He says not in the last 2 
years. So with the changes in the design of the toilet 
fixtures----
    Mr. Bilirakis. Are you saying during the first couple years 
or so there were some problems?
    Mr. Tippin. Yes, I think there were design problems and I 
think those have since been corrected.
    Mr. Bilirakis. I will allow you all to respond, too, but 
Rebecca Hyder, who is a member of my staff and does this issue, 
handed me a note. ``my parents built a new house in 1995,'' 
this is in Florida, ``with low flow toilets and they have had 
no problems or complaints.'' would you say that----
    Mr. Tippin. I can echo that. My son just built a new house 
in north Tampa and moved in last summer with three low flow 
toilets in Hillsborough County, no problems.
    Mr. Bilirakis. Mr. Rush, we heard him say that he was 
remodeling a 100-year-old home and he had to put in the new low 
flow toilets. He said he is unhappy. Is that attributable to 
the fact that it is a 100-year-old home and you have that type 
of piping and that sort of thing? Comments?
    Mr. Tippin. In my opinion you are putting a new toilet in a 
100-year-old plumbing design which may be all wrong for that 
fixture.
    Mr. Whalen. A lot of the toilets that get used are 
specified for the kinds of use. The one-family home would 
necessarily have a different toilet.
    But just to comment, the reason that there was only, let's 
say, 20 different kinds of toilets used in the program that we 
did, we found that those 20 toilets worked and the plumbing guy 
said I am not putting anything else in because I won't get paid 
for it. That was the marketability of it.
    Mr. Willardson. I know that our chairman Francis Schwinn 
from North Dakota sits on the State Plumbing Board, Department 
of Natural Resources, and he has noted that their inspectors 
have had no complaints, that initially there were problems but 
improvements have been made, and he views this bill as a step 
backwards.
    From a State perspective, it is an issue of enforcement. 
The Federal standard is enforced on manufacturers. The State 
can't enforce that at the State level on manufacturers so they 
would have to look at the retail level or individuals. And if 
you talk about getting into people's bathrooms, they are not 
going to want the State regulators in their bathrooms looking 
at what they are using.
    Mr. Bilirakis. Thank you for that. Mr. Taylor, and I don't 
know, is Mr. Taylor still here? Mr. Taylor, the Director of 
Natural Resource Studies, Cato Institute, very eloquently, 
basically without trying to put words in his mouth, indicated 
that going back to the 1970's that water started to be 
conserved. And consequently, that these standards really 
haven't had very much to do with that. In fact, the lines in 
terms of conservation started back at that period of time and 
has just really continued on. Did you hear the same thing that 
I did in that regard? Comments? Mr. Whalen.
    Mr. Whalen. Well, I can only tell you, sir, I worked in New 
York City for almost 40 years and there was an ongoing problem 
with the increased consumption per person living and in 
business in that town that we could not get enough water to 
take care of the requirements, and it went up every year. And I 
used to sit on the conservation committee and we used to say we 
keep building reservoirs and it is not enough. They did not 
have an increase in people in New York City in many years. That 
town has stayed static. It has not changed in 20 years. What it 
was was consumption. I have sat on national and State boards 
and consumption has increased, not decreased, and it would 
generally decrease in the areas of residential and commercial 
use.
    Mr. Bilirakis. So you are attributing the savings to----
    Mr. Whalen. I know that we saved 29 percent in New York 
City on that program that we put in, and you should realize 
that the largest cost in New York City for water and sewer is 
the water treatment, not for the water.
    Mr. Bilirakis. You wanted to say something, Mr. Tippin?
    Mr. Tippin. Yes, from 1974 to 1989 water consumption in 
Tampa rose very sharply until we had supply problems. And water 
consumption since 1989, the demand has been essentially flat 
due to all conservation efforts, indoor/outdoor.
    Mr. Willardson. If I might add----
    Mr. Barton. You are operating under the same 5 minute rule 
I operated under.
    Mr. Bilirakis. Thank you. Mr. Willardson.
    Mr. Willardson. I am not sure that it is useful to look at 
it from a macro perspective because there have been reductions 
in irrigated agriculture, and as has been noted, that is 80 
percent of the water use in the country. We are talking about a 
5 to 10 percent for treated water supplies. It is the cost of 
not providing the raw water but treating that water and then 
disposing of the waste water that is an issue, and that is 
really what these national standards get to.
    Mr. Bilirakis. Mr. Chairman, my time is up and I am not 
going to go into it, but you started questioning regarding 
Federal preemption and why is it so important to manufacturers 
and others in lieu of the fact that New York City was doing it 
even prior to and many of the States were, 17 States I believe 
had it in effect. I think it is a very foundational question, 
as I said, when you first called upon me.
    I don't know where these people--and I also wanted to say, 
too, I really appreciate Mr. Burr returning because we had 
people on this side of the aisle who are supporters of the 
legislation heard strictly that one story and left after that 
one panel and did not hear anything from this particular panel. 
I just wanted to express my appreciation to Mr. Burr.
    Mr. Barton. The reason that we started at 2 was so that the 
gentleman from Florida could be here. Initially we were going 
to do this at 10 this morning. Mr. Bilirakis had a pending 
subcommittee that he was chairing.
    Mr. Bilirakis. No, I had the markup.
    Mr. Barton. So we rescheduled, and that is why we are still 
here at 5:30 in the evening.
    Mr. Whalen. You have a test station. This building that you 
are in was recently converted. And I would ask those who are in 
this building, do you have a lot of plumbing problems in this 
building?
    Mr. Burr. They are all vacuum flush. Totally. I haven't 
visited every toilet in this building, but every one that I 
have seen is.
    Mr. Barton. He is working his way through them.
    Mr. Whalen. I got involved in the Department of Energy's 
M&V protocol on this and subsequently the Federal contracting 
on it and the results in the Federal buildings and Army bases 
and Naval bases around this country have been unbelievable in 
energy savings. That is the air conditioning and the 
refrigeration, the whole thing. When you read the figures of 
these bases and these office buildings and court buildings that 
belong to the government, and so much of this work has been 
done, the executive order was just renewed I understand in 
March and most of the facilities now have been done and the 
savings is unbelievable.
    Mr. Barton. The public bathrooms on the men's side, 
obviously I have not been into the women's, but in the men's 
there is some sort of a central, there is not an actual 
physical bowl or receptacle in the public. It is some kind of a 
central powered situation. But in my personal bathroom in my 
member's private office, I have had--at least it looks like a 
low flow. It is shorter.
    Mr. Whalen. My understanding is that this whole building 
was done.
    Mr. Barton. It does have problems, so I don't use it except 
in extreme emergencies.
    Mr. Burr. Would the chairman like me to take over now.
    Mr. Barton. Yes, I recognize Mr. Burr for 5 minutes.
    Mr. Burr. Mr. Tippin, you have 2 or 3 that work. I have two 
and neither one of them work, and I hope for Mr. Goike's sake 
that he doesn't take that as a comment unsubstantiated. I hope 
you will give me the credit to be able to judge whether the 
toilet works or not. One is fairly recent. It is in North 
Carolina. The other one is slightly older and it is in 
Michigan, and so I know it doesn't have anything to do with the 
difference in States. Let me go back.
    You question this need as a manufacturer to have multi 
SKUs. I mean, would you lobby us to have a Federal standard on 
door knobs, because I know Masco is in the business of door 
knobs, but you wouldn't do that, would you? You would like to 
be able to offer something to everybody because there is a 
different thing out there that triggers that buying impulse in 
everybody and I think at the root of what Mr. Knollenberg has 
tried to do, he hasn't said--you know, reverse the Federal 
position on a 1.6 gallon low flush toilet being a good thing, a 
conservation issue. He just said maybe the Federal Government 
should not mandate it. Maybe it should not be that we have 
decided what the flow is for every toilet in America because 
clearly as Mr. Haege said, there are a number of folks that 
call his show, a high percentage, who are upset, who don't like 
the product and who, given the choice, would choose something 
else.
    I am not sure how many of those are going over to Windsor, 
Canada or Mexico. Do you have any manufacturing of toilets out 
of the United States or is it all in the United States?
    Mr. Goike. No, it is all in the United States.
    Mr. Burr. But I am sure there is some manufacturing out of 
the country and it does come back in the form of product that 
U.S. Companies have manufactured that comes back in under the 
radar screen of this Federal mandate that is out there.
    Mr. Whalen, you said the rebate for the first toilet in a 
house was $240?
    Mr. Whalen. Yes.
    Mr. Burr. How did you come up with that?
    Mr. Whalen. I sat with the city people and we worked over 
the prices of the manufacturers and the price of doing the work 
in a particular locale.
    Mr. Burr. You also said that the plumbers couldn't be paid 
for their work unless the toilets worked successfully. Are 
there any plumbers still due money?
    Mr. Whalen. No. You couldn't continue to be in the program 
if you were providing poor service.
    Mr. Burr. So every toilet that New York chose to put in the 
program never had a problem?
    Mr. Whalen. No, sir, I won't say we never had a problem but 
those few that had problems, that contractor went back and 
satisfied them.
    Mr. Burr. That sounds like an installation problem versus a 
manufacturing problem. And I think what we are here 
concentrating, and clearly we got off on plumbing, we are 
talking about the design of the toilet. Can 1.6 gallons of 
water in the current configuration drive the normal waste in a 
bowl through on a first flush?
    I think my frustration is I found the answer to be no. I 
have found it as well in hotels, and it is a pretty 
embarrassing thing to call for a plunger and have a guy come in 
and plunge your toilet in a hotel. My question is: Did all of 
the toilets successfully work that 1.6 gallons of water flushed 
it?
    Mr. Whalen. No. In fact, it very quickly became apparent 
that the X model or the Y model was not working and therefore 
those contractors no longer used that model.
    Mr. Barton. Would the gentleman yield.
    Mr. Burr. I would be happy to yield.
    Mr. Barton. Why did we agree on a 1.6 standard? How did 
that develop? Mr. Knollenberg alluded to that that equals 6 
liters. That would lead me to believe there is some equivalent 
6 liter standard in Europe.
    Mr. Whalen. Europe has used the lesser size water closet 
for a long time, and I believe they got involved in this 
discussion back in----
    Mr. Barton. Was there a physical pilot program and it was 
determined that 1.6 gallons was the minimum necessary to do the 
job? Did it just kind of evolve because of the European 
situation? Where did that particular number come from because 
it is not--it is not 1 gallon, it is not 2 gallons. It is just 
an odd number.
    Mr. Goike. That number was arrived at--prior to 1992 there 
were approximately 17 States, as I mentioned in my testimony, 
that already moved to that direction before the 1992 EPAct.
    Mr. Barton. But somebody at some point in time designed a 
toilet with that.
    Mr. Goike. The State of Massachusetts was the first one 
given credit to set the limit at 1.6 gallons per minute. There 
were other quantities.
    Mr. Barton. But if we had physical data that showed if we 
went to 2 gallons, nobody would complain, would the industry--
it is still less than 3.5. I am just trying to determine from a 
so-called scientific standpoint if there is a reason for 1.6 
gallons. It is smaller than 3.5, but it is not an instinctively 
obvious number. Did somebody at some point in time say we need 
to design a toilet to save water and then do all of these 
empirical tests and say 1.6 gallons works. Or did somebody in 
Europe just start making them or did it just happen?
    Mr. Goike. I have never heard of the European influence 
before. My knowledge on this was that it was set by 17 States 
prior to 1992. And then it was enacted into EPAct and that was 
the measure----
    Mr. Barton. Mr. Burr, I took some of your time.
    Mr. Burr. Mr. Whalen, in New York did you replace 
showerheads at the same time?
    Mr. Whalen. Yes. The 240 included the showerheads and those 
faucets that could handle the aerator and the showerhead and 
the toilet.
    Mr. Burr. Should we outlaw bathtubs?
    Mr. Whalen. I frankly think that the use of bathtubs--I 
mean, there are a lot of positive things. I can remember 
washing our children in the tub rather than having the six of 
them in the shower because we would have had a riot. Or the 
other thing, you get older folks that can't take a shower. 
There are a lot of uses for bathtubs.
    Mr. Burr. My kids are 13 and 14, and it is a little tough 
to get them in the same tub. Just for 1 minute believe some of 
the people who were here earlier that everybody in America that 
has got a new 1.6 gallon toilet has to flush it three times to 
alleviate the waste that is in it.
    Mr. Osann. That is hard to believe.
    Mr. Burr. If that were the case, wouldn't we have failed 
with the conservation side of our quest?
    Mr. Osann. Objectively probably not, but with regard to 
public acceptance, certainly. Because the average----
    Mr. Burr. My math says we would have used more water.
    Mr. Osann. The number of times that a toilet is flushed at 
least in a residential setting is 5 a day per capita. Solid 
waste evacuation is an average about one a day.
    Mr. Barton. That does follow common sense.
    Mr. Burr. Let me make this statement. Given the questions 
that are out there about the need for multiple flushes, the 
performance of the product and your belief that this standard 
should stay in effect, I really believe that it is incumbent 
upon all of us to find out are we saving. I think that is the 
obligation that we have to the American people. If there is 
something great being accomplished by this, then let's keep it. 
If there is not something great that is being accomplished, and 
we are putting an undue burden on the American people, on 
manufacturers. I know that you have switched, but you have got 
the old molds, you can switch back, don't we owe it to them to 
at least allow them the choice of buying what their preference 
is? It is only a question that I raise.
    Mr. Whalen. I was going to ask the question of Mr. Burr, do 
you have knowledge of who installed those water closets? Was it 
a handyman or plumber?
    Mr. Burr. Moi.
    Mr. Whalen. And you specified as to what you wanted? You 
were replacing----
    Mr. Barton. We have never had a panelist ask a Congressman 
questions.
    Mr. Whalen. I am sorry.
    Mr. Burr. I actually went to the store and chose my toilet.
    Mr. Whalen. I appreciate his candor.
    Mr. Burr. To be quite candid with you, if a week later or a 
month later or today I were to see somebody throw away an old 
toilet, I would grab it and replace that one in that new room 
in a second.
    Mr. Barton. Is the gentleman available for service calls to 
other members of the subcommittee?
    Mr. Burr. The gentleman would do everything in your 
apartment but clean it given the shape that it is in.
    Mr. Bilirakis. The gentleman asked a question and I know 
his time has expired, but he considers it key to determine 
whether or not there is such a savings as a result of the low 
flush. So I don't know--you asked that question, Richard.
    Mr. Burr. I thought he answered.
    Mr. Osann. Mr. Chairman, if I might respond to the question 
raised by Mr. Burr. I think that several of us have actually 
alluded to it in our testimony, the question of are we really 
saving, do they really save.
    Mr. Barton. That is one of my double foundation questions.
    Mr. Osann. The American Water Works Association's research 
foundation, which is the arm of the drinking water utility 
industry, has just completed but not yet published the most 
comprehensive survey of residential water use that has ever 
been undertaken in North America. It involved 12 cities, one 
was Tampa. It involved monitoring individual water use events 
at over 100 homes in 12 cities over 4 weeks. And in the 
previous panel there was a question about how can you really 
tell how much waste water an individual appliance is using.
    In this case there were data loggers that were installed at 
each location and software that would match--that would 
identify the signature, actually, of each water using product 
at that residence and match it up when it occurred over a 4-
week period. So each time toilet A was flushed, there was a 
data point in their survey. Each time a shower was used, there 
was a data point in the survey.
    This is the most comprehensive water use--residential water 
use survey ever undertaken. It will be publicly released in 
September.
    There are a lot of interesting things that come out of this 
survey, but two of the things that I think are most relevant to 
the subject of this hearing involve the use of water by 1.6 
gallon toilets. And the survey found that those residences 
that--there were a certain number of residences that were 
exclusively equipped with low consumption toilets, there were a 
number of residences that were mixed and a number of residences 
that did not have any 1.6 gallon toilets in them.
    When you compared those that had the 1.6 gallon units and 
relied on them, the ones that didn't, the amount of water that 
was used for flushing toilets was reduced by about 50 percent 
on a per capita basis. And that is real life conditions. Real 
homes, real people using the products as they would use them in 
their homes over a 4-week period. The other thing was that the 
number of flushes per capita, and this can be measured because 
this extensive data set is available, the number of data sets 
per capita between the residences, the residences that had the 
1.6 gallon and relied on them exclusively and those that didn't 
have them, were statistically indistinguishable.
    There was about 4.9 something for the--for one group and 
5.0 something for the other group. So to the extent that there 
is a double flushing issue out there, it has not been 
identified in the data that has been produced in the most 
comprehensive residential----
    Mr. Burr. But what about my house? That data is not----
    Mr. Barton. Let's give the group credit. They have tried to 
do a survey that attempts to reflect that.
    Mr. Osann. The plumbing industry was not involved in this 
survey. It was entirely funded by the drinking water industry.
    Mr. Bilirakis. I wonder if the results could be made 
available to the committee.
    Mr. Barton. When it becomes public.
    Mr. Bilirakis. In September he indicated.
    Mr. Barton. In the interest of full disclosure I need to 
admit that I have a high flow toilet and it has stopped up, and 
I have had to work like a tiger to unstop it. It is not only 
the low flow operators that don't work, sometimes the old flow 
don't work, either, especially if you have children and wives 
who put Pampers in the toilet bowl. They tend not to go through 
the system, regardless of how much flow you put into the 
system.
    Mr. Osann. I think that is exactly the point, Mr. Chairman. 
I think some people have encouraged people to think that every 
plumbing problem that is experienced now is the result of these 
new and tighter standards, and I am afraid there were plumbing 
problems before the 1.6 gallon toilets.
    Mr. Barton. We will stipulate that there were, from 
personal experience.
    Mr. Willardson. Can I add to those comments.
    Mr. Barton. Let's let Mr. Hall have his time. I do want a 
formal answer where this 1.6 gallon standard came from. 
Hopefully there is some research which showed that is necessary 
as opposed to just serendipity.
    Mr. Hall is recognized.
    Mr. Hall. Thank you, Mr. Chairman. I just have a unanimous 
request. At the request of Patrick O'Conner of the Washington 
Government Affairs Office of American Supply Association, I 
want to enter into the record the statement of Harold Williams, 
Jr., who is for the American Supply Association. It is a 
national trade association for wholesale distributors of 
plumbing fixtures, and it has one cover page and 5 pages of Mr. 
Williams' statement.
    Mr. Barton. I am glad that the gentleman had made that 
because the Chair had already agreed to do that, but I am very 
willing to accede to the request of the minority member. This 
group does represent the wholesale distributors. They were not 
able to testify in person, and we do want their testimony in 
the record at the appropriate point in the hearing. Without 
objection, so ordered.
    Mr. Hall. Thank you. I don't know what questions have been 
asked, so I yield back the balance of my time.
    Mr. Barton. Does Mr. Bilirakis have additional questions?
    Mr. Bilirakis. I know that this panel will be available to 
submit answers to any written questions we may offer, and also 
that September report, when it does come out, if you can give 
it to us quickly I think it would be very significant for us to 
have it.
    Mr. Barton. I want to thank you gentlemen for waiting. It 
is always the case that if these hearings go late afternoon 
there is not as much member participation as there are at the 
earlier parts of the hearing, but we did want a balanced 
hearing, and I am a cosponsor of Mr. Knollenberg's legislation 
and so I would like to see if there is not a consensus to move 
his bill or a bill similar to it. But I certainly understand 
the reluctance of the manufacturers and I am very supportive of 
what is being done at the State and local level that Mr. Whalen 
alluded to and Mr. Tippin from Tampa alluded to. It is obvious 
that we do need to conserve as much water as possible and this 
is certainly one approach to it.
    Without any more members here to ask questions, we do 
adjourn this hearing.
    [Whereupon, at 5:55 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    Prepared Statement of the American Society of Plumbing Engineers
Who is ASPE?
    The American Society of Plumbing Engineers (ASPE) is THE 
international organization for professionals skilled in the design, 
specification and inspection of plumbing systems. ASPE was founded in 
1964 as a non-profit organization and currently has over 7,000 members. 
Internationally, ASPE members are located throughout the United States, 
Canada, Asia, Mexico, South and Central America, the South Pacific, 
Australia, and Europe.
    ASPE is dedicated to the advancement of the science of plumbing 
engineering, to the professional growth and advancement of its members 
and to the protection of the health, welfare and safety of the public. 
The Society disseminates technical data and information, sponsors 
activities that facilitate interaction with fellow professionals, and, 
through research and education, expands the base of knowledge of the 
plumbing engineering industry. ASPE members are leaders in innovative 
plumbing design, effective materials and energy use, and the 
application of advanced techniques throughout the world.
    In addition, the ASPE Research Foundation, a separate non-profit 
organization founded by ASPE in 1976, is the only independent and 
impartial organization involved in plumbing engineering and design 
research.
Plumbing History
    Whether it was the ancient Romans or Grecians who created the first 
rudimentary plumbing systems, water supply and human waste disposal 
have posed plumbing related problems which civilizations have had to 
deal with for centuries. With population growth came and water borne 
disease such as typhoid and cholera. Water could no longer be carried 
in jugs and human wastes could no longer be dumped into street gullies 
or into streams. Embryonic plumbing systems were simply pipes designed 
to carry water to, and waste away from, population centers. However, 
indoor plumbing and drainage systems in the industrial centers of the 
world have only been viable for less than a century. There are still 
many highly populated, underdeveloped areas in the world which continue 
to suffer the dilemma, challenges, hardships and indignities associated 
with primitive plumbing and drainage systems.
What is Plumbing Engineering?
    Plumbing Engineering is the application of scientific principles to 
the design of efficient and ecological systems for the transport and 
distribution of fluids, solids, and gases. Plumbing Engineers are 
protectors of the public's health, since they design drainage, 
distribution, and other piping systems to transport potable water and 
to safely dispose of human and industrial wastes. Engineered plumbing 
systems serve residential dwellings and commercial, institutional, 
industrial and public use facilities such as, hospitals, laboratories, 
factories, schools, shopping centers, stadiums and the like.
    Plumbing Engineers are responsible for the design of more than 30 
separate and distinct systems that are necessary for institutional, 
industrial, educational, commercial, and residential buildings. Some of 
these systems include potable water, domestic hot water, recycled 
water, sanitary and industrial waste, storm drainage, laboratory water 
and waste, medical gases, compressed air, vacuum systems, venting 
systems, fire protection, swimming pools, decorative fountains, 
irrigation, water treatment, and sewage disposal.
    Plumbing Engineers design the various plumbing systems of a 
construction project, select suitable materials and equipment, write 
specifications, prepare cost estimates, aid in contractor selection, 
and provide additional field services to the owner/client during and 
after construction. A Plumbing Engineer typically has a degree in 
Civil, Sanitary, or Mechanical Engineering--or a two-year technical 
degree in these areas. A majority of Plumbing Engineers carry the 
designation of Professional Engineer and/or Certified In Plumbing 
Engineering.
Why Is ASPE Here?
    The members of the American Society of Plumbing Engineers are 
interested in, and protectors of, the public's health, welfare and 
safety. The Society supports insightful and judicious use of the 
world's natural resources. Properly researched and designed programs of 
water conservation and reuse, and the curtailment of wastewater, not 
only results in the conservation of water but also reductions in energy 
use, pipe sizes, wastewater treatment costs, and facility construction 
and operating costs. Proposed bill H.R. 623 (Plumbing Standards 
Improvement Act of 1999) compounds the impreciseness and deficiency of 
knowledge available when the Energy Policy Act of 1992 (EPACT) was 
initially passed.
    To act on H.R. 623, and pass it out of committee, without any solid 
data, without any specific research, without any detailed information, 
and relying mostly on anecdotal tales and complaints, would be a 
travesty and disservice to not only the environment, but to the health, 
welfare and safety of the public. Legislation of this magnitude 
requires adequate and complete data, in-depth research and the 
testimony of experts, not politicians. Testimony should be solicited 
from not only interested parties, but also vital constituencies and 
individuals with the appropriate knowledge and expertise.
    When EPACT was first passed, it was done so without the expert 
knowledge and input of the plumbing engineering community--and ASPE 
must take partial responsibility for this oversight. However, today, 
ASPE steps forward, and will no longer be silent on EPACT--vital 
legislation that has provided water conservation measures desperately 
needed to maintain a safe and continuing source of potable water for 
this generation and generations to come. To have come this far, only to 
now have proposed legislation designed to create havoc and begin the 
process of tearing apart the very fabric of water conservation and 
water usage is a debacle of unprecedented magnitude. A vital turning 
point in leading the world towards water and energy conservation was 
EPACT; a pivotal point in undoing that leadership is H.R. 623.
Water Conservation Is Being Achieved
    When legislation affecting engineering plumbing and drainage 
systems are altered, the effects of even a small change to a single 
portion of a system can be dramatic and create unintended, drastic and 
catastrophic results. EPACT was such a change. Since its inception, the 
plumbing industry has struggled to properly implement the water and 
energy conservation effects of the legislation on plumbing systems. In 
the six years since the industry has undertaken this massive effort, it 
is only now that the environmental and engineering efforts are taking 
effect and being observed and changes are being hypothesized.
    Intuitively it is obvious that changing from an average water 
closet 3.5 gal flush to 1.6 gal will save considerable amounts of 
water. However, to meet that requirement, the plumbing manufacturers 
have had to re-engineer and redesign their products. Simple? Consider 
that for new installations, the plumbing engineer can design the 
overall systems to properly function to integrate the new water 
conserving fixtures. However, for retrofit installation environments, 
the results of using water saving fixtures on systems not designed for 
them results in unexpected and typically, unintended results.
    For example, the anecdotal evidence is relatively strong--low-flow 
water closets do not consistently work well in retrofit environments 
(and sometimes not in new installations). The amount of human waste has 
not diminished because of the implementation of water conservation 
plumbing fixtures; only the amount of water available to remove the 
wastes out of the water closet bowl and move it through the drain line. 
Therefore, there are water closets that require multiple flushes for 
the removal of human bulk wastes and the related necessity of cleaning 
and sanitation, and in some cases increase clogging within the bowl or 
in the drain line. However, this does not diminish the overall water 
and energy conservation effects of EPACT.
    Some simple math will help demonstrate. If at any one time:

1. there are 200 million people in the United States on any given day;
2. approximately 45% of them are located in major urban areas
3. each individual uses a water closet an average of four times a day 
        for which 50% of that usage includes ridding the body of its 
        bulk wastes (in actuality bulk waste removal occurs about one-
        third of the time);
4. each water closet requires an average of 2 flushes to remove bulk 
        wastes and 1 flush to remove liquid wastes; and
5. it is assumed that a 3.5 gal per flush water closet will require an 
        average of only 1 flush to remove bulk wastes (which is not a 
        correct assumption);
then, on average, the amount of water that can be saved if everyone was 
using low-flow water closets, is approximately 400 million gallons of 
water per day. (This, of course, is for water closets only and does not 
include any non-urban areas.) Of course, not everyone is currently 
using low-flow water closets, but the future intent is there. Moreover, 
the passing of H.R. 623 doesn't just affect water closets. Shower 
heads, sink faucets, urinals and other plumbing fixtures will all be 
affected.
    Yes, in today's fast paced environment, double and triple flushing 
or a water closet is an annoying nuisance--but it saves water and 
energy (reduced wastewater treatment costs, reduced pumping costs, 
etc.). The entire plumbing industry continues to evaluate and adjust, 
successfully, to the requirements of EPACT.
    The plumbing industry was slow to react, and because of a lack of 
data and research, did not fully understand the effects of reduced 
water usage and flow in plumbing systems. Dr. Roy Hunter, 75 years ago, 
researched plumbing systems and developed what is now dubbed ``Hunters 
Curve.'' Hunter's curve furnishes data on the probability of use on a 
plumbing system and provides guidelines on the sizing of piping of the 
water and drainage requirements for a plumbing system. However, it is 
important to note that water conservation measures do not affect the 
probability of use of the plumbing system. Therefore, the data and 
information on how to better accommodate low consumption fixtures has 
been slowly developed by a disparate conglomeration of studies by 
manufacturers, engineers and model code and standard organizations. The 
collected materials have been used to slowly modify local government 
jurisdictional plumbing codes to provide for smaller pipe sizes, 
installation modifications and materials which better accommodates the 
use of low consumption fixtures and maintain the integrity and 
efficiency of a plumbing system.
    H.R. 623 will do nothing more than exacerbate an already complex 
engineering issue that the plumbing industry is still coming to grips 
with and understanding, and defeat the ongoing and successful water 
conservation efforts that have been achieved.
A Basis for Pandemonium
    The repeal of the plumbing standards portions of EPACT by H.R. 623 
actions has implications that will sorely test the patience of the 
public and may well result in significant increased costs for plumbing 
products. Without the provisions of EPACT, there will no longer be a 
national water conservation standard. Any governmental regulatory body 
would be able to mandate water usage parameters of plumbing fixtures. 
The result could well be disastrous.
    A common water usage standard for plumbing fixtures allows a 
plumbing system to be engineered and designed to function as intended. 
Without a common standard, a plumbing system could be compromised and 
result in a haphazard operation. Fixtures would have to be yet again 
redesigned, a process undertaken after EPACT implementation that has 
already resulted in manufactures having to spend millions of dollars.
    Plumbing systems would require immense amounts of new data 
collection and evaluation to ensure proper re-engineering and design. 
Most onerous of all would be if each local governmental jurisdiction 
were required to develop and pass new plumbing codes sufficient to 
provide for the various multitude of options that would be sure to 
result. States may be forced to enact specific water conservation 
legislation. Without a coherent national strategy in place the result 
could well be calamitous as each state attempts to satisfy its own need 
to conserve available resources. Will manufacturers be expected to 
retool factories and produce plumbing fixtures to meet separate local 
government requirements? Must plumbing engineers create separate design 
standards for each state?
H.R. 623--A Formula for Unrequited Chaos?
    H.R. 623 has the potential to set the entire plumbing industry back 
at least a decade. The provisions of EPACT are being implemented and 
the initial difficulties and problems associated with water and energy 
conservation are being corrected as they are identified.
    There exists no researched evidence that indicates that passing of 
H.R. 623 would accomplish any purpose. Rather, with the potential for 
confusion, the health and safety of the public may well be comprised. 
The entire plumbing industry--manufacturers, contractors and 
engineers--are creating and building the necessary information and 
knowledge to effectively and efficiently utilize low-consumption 
fixtures, albeit slowly, given the dearth of available research funds. 
The common goal is the support and success of water and energy 
conservation. The intent of the plumbing industry is to continue its 
mandate to protect the health welfare and safety of the public.
    Likewise, the federal government has a duty and an obligation to 
protect the public's health, welfare and safety, to maintain the 
environment, maximize the efficient use of all available resources and 
facilitate interstate commerce. This cannot be accomplished by 
repealing the water conservation measures contained in EPACT.
    The federal government has an obligation to help obtain, along with 
affiliated professionals, such as plumbing engineers, contractors, 
manufacturers and code officials, the necessary expertise, information 
and knowledge required for effective and efficient decisions. Any 
fixture, mandated in isolation to operational and research data and its 
effect and functionality on existing plumbing and drainage systems, may 
be not only be considered ineffectual government, but a compromise of 
its duty. Decisions such as contemplated by H.R. 623 cannot be made in 
a vacuum of knowledge.
ASPE Recommendations
1. ASPE does not believe the repeal of any portion of EPACT is 
        warranted at this time. However, we suggest maintaining, 
        subject to the recommendations below, the current standards as 
        set in EPACT. An incomplete oversight program for appropriate 
        performance standards for plumbing fixtures would open the way 
        for individual state mandated performance standards and result 
        in confusion for the consumer and the manufacturer.
2. Create an environment, and provide for the support of plumbing 
        engineering and research, for data collection and research 
        conducted within the environs of an independent accredited 
        laboratory under the aegises of plumbing engineers and related 
        unbiased professionals. ASPE recommends that a federal 
        appropriation be made to provide for the testing and collecting 
        of plumbing engineering and design data and instituting of 
        related necessary research.
3. Have standards established through the currently available processes 
        such as ASME/ANSI. However, include the requirement that all 
        future standards, and all changes, modifications or adjustments 
        of current standards that affect or impact federal legislation 
        and/or the public's health, welfare and safety, utilize actual 
        data and research, and not be limited to ``professional, or 
        non-professional, opinions.''
4. Rather than repeal of the DOE's jurisdiction, have regulations be 
        more complete and include the performance standards necessary 
        to ensure the proper operation of plumbing fixtures. That is, 
        the current regulation only requires that fixtures meet a flow 
        and capacity standard, the 1.6 gallon requirement. The current 
        ASME, A112.19.6 already includes sufficient other performance 
        standards, some of which should be incorporated as part of the 
        regulation.
Please, Do Not Pass H.R. 623
    As plumbing engineers and related professionals which make up the 
membership of ASPE, we take great pride in our chosen profession. We 
also take our responsibility to protect the public health and the 
environment quite seriously. Therefore, we implore you to not pass H.R. 
623.
                                 ______
                                 
 Prepared Statement of Harold Williams, Jr. on Behalf of The American 
                           Supply Association
    I am Harold Williams from Selkirk, New York. Selkirk is a suburb of 
Albany. My company, Security Supply, is a wholesaler of plumbing 
fixtures and related products with 11 branches, three of those within 
20 miles of the Canadian border.
    I am pleased to submit this statement on behalf of the American 
Supply Association for the July 27, 1999 hearing on H.R. 623, 
legislation to repeal the uniform national water conservation standard 
for plumbing products.
    The American Supply Association (ASA) is the national trade 
organization for wholesale distributors in the plumbing, heating, and 
cooling industry. The Association has over 800 member companies, with 
more than 3,000 locations. We represent more than 80% of the sales 
volume in the industry.
    Wholesalers sell toilets and other plumbing fixtures to 
installation contractors, bath retailers, homebuilders and property 
managers. As a part of the distribution channel that moves products 
from the manufacturer to the consumer, a very large percentage of 
toilets sold today is handled through a plumbing wholesaler.
                                h.r. 623
    Frankly, ASA members do not understand the purpose of this 
legislation.
    Repeal of the uniform national efficiency standards for new 
plumbing products is particularly troubling in light of the drought 
conditions that continue to affect sections of the country, including 
the Washington, D.C. area.
    Since 1992, plumbing manufacturers have redesigned all of their 
toilets to the 1.6 gallons per flush (gpf) requirement. The thought of 
scrapping all of their efforts and going back to the 3.5 gpf standard 
is not in anyone's best interest.
    H.R. 623 will cost our wholesalers millions of dollars with no 
corresponding benefit. However, these losses will pale in comparison to 
the billions in additional costs faced by municipal water and sewer 
districts, which have based their strategic plans for the future on the 
1.6 gpf standard.
    Passage of H.R. 623 will turn back the clock on water conservation 
and return us to a world where any state or locality can set its own 
plumbing products standards. With the potential for up to fifty 
different state standards, plus hundreds of varying local standards, 
there would be chaos within the entire plumbing industry.
                 a wholesaler's perspective on h.r. 623
Why A Uniform National Standard is Appropriate
    Generally, plumbing wholesalers are not big fans of federal 
regulations. Compliance with most regulations is costly and burdensome.
    However, the 1.6 standard makes sense. Wholesalers are united in 
support of the current standard. It allows products to move freely 
across state lines without the industry being required to manufacture, 
stock and deliver products based on varied state or local standards.
    Prior to the 1992 Energy Policy Act, wholesalers had to deal with 
17 different state regulations and a myriad of local standards. There 
was chaos in the marketplace. The wholesaler who sold product in more 
than one state had to carry duplicate and sometime triplicate 
inventories to meet differing state and local standards.
    Even for the wholesaler doing business in a single state there was 
confusion. For example, in Massachusetts, the plumbing code mandated 
the installation of 1.6 toilets. Who was affected by that law? The 
licensed contractor--our customer. But since the sale of 1.6 toilets 
was not mandated, the Sunday newspapers would carry ads for home 
centers offering 3.5 toilets for sale.
    Mr. Chairman and Members of the Subcommittee, I strongly urge you 
not to turn back the clock on water conservation and return us to a 
world where any state or locality can set its own plumbing products 
standard. H.R. 623 equals chaos.
Are There Consumer Complaints
    There have been a lot of claims and assertions that there is a huge 
consumer uproar over the 1.6 toilets. There is no question that some of 
the early models did not work as expected. But that is typical whenever 
a new product is introduced. However, the product being sold and 
installed today is working and saving water.
    Are there still consumer complaints? There always will be an 
unhappy consumer, but there is no public uproar.
    In an article from Consumer Reports magazine, May 1998, regarding 
low flush toilets, their testing showed that newer designed units work 
just fine.
    They tested units from nearly every major manufacturer and found 
many affordable units that, when installed, would save the average 
family from up to 500 gallons of water per week.
    I am in the business of selling plumbing products. If consumers are 
unhappy, my business does not profit. Even a young boy or girl selling 
lemonade on the street corner knows that a successful business depends 
on a satisfied customer.
    More than 30 million low flow toilets have been sold since 1992. 
And a plumbing wholesaler has sold almost every one of the 30 million. 
If these products really did not work and there was really a public 
uproar, plumbing wholesalers would be the first to hear about it. Make 
no doubt about it--when my customers are unhappy they make sure that I 
know. If my customers--installation contractors, builders, and property 
managers--were hearing complaints from their unhappy customers the 
first call would be to Security Supply.
    I would not be here today if my customers and their customers were 
unhappy. Further, I would not be in business today if I sold products 
that did not perform properly.
Is There A Black Market?
    I keep hearing about a ``black market'' in toilets. Frankly, the 
only black market I am aware of is the ``garage sale black market'' 
where you might be able to buy an old toilet at a neighborhood sale.
    But is there a black market in new toilets?
    No!!
    Again, I am in a business that sells plumbing products. My company, 
Security Supply, is located in upstate New York, with three branches 
about 20 miles from the Canadian border.
    If truckloads of ``black market'' toilets were being shipped across 
the Canadian border for sale in New York, I would know. If there were a 
black market, Security Supply and other plumbing wholesalers would see 
a drop in sales and we haven't.
    Rest assured, if plumbing wholesalers were losing market share to a 
``black market,'' I would support H.R. 623. But, frankly, there are 
probably more Cuban cigars coming across the Canadian border into the 
U.S. than contraband toilets.
Cost of H.R. 623 to Plumbing Wholesalers
    I would like to make one comment on the cost to plumbing 
wholesalers if the national standard for plumbing products were to be 
repealed. What happens to the value of the hundreds of thousands of low 
flow toilets that plumbing wholesalers have in inventory throughout the 
country? After the supporters of H.R. 623 go on the radio talk shows 
and late night television shows to trumpet their success, how much will 
this inventory be worth?
    Please remember, that 100 percent of our inventory is a result of a 
law passed by Congress in 1992. Please keep in mind the economic 
consequences to the plumbing industry if Congress now reverses itself 
and repeals the standard. And, eight years from now, what if a new 
Congress decides that low flow plumbing products are good public 
policy?
Water Conservation With 1.6 Gallon Per Flush Toilets
    New York City's toilet rebate program has had a huge impact on 
water use in that city. The toilet rebate program was started on March 
1, 1994 and continued through November 1996. 1.1 million toilets were 
replaced with 1.6 gallon per flush units.
    The average water use in buildings that participated in the program 
declined by 69 gallons per unit per day. This equates to a 29% 
reduction in water usage.
    This savings in water usage translates into a reduction of 29% in 
the treatment of units to potable standard and a reduction of 29% in 
treating waste water for discharge into the environment.
    Because they have reduced water usage, billions of dollars have not 
had to be invested to build additional waste and sewage treatment 
plants.
    The availability of this water has led to a resurgence in the 
reconstruction industry in New York City.
                                summary
    Now is not the time to abandon water conservation goals underlying 
these national standards. The technology for low consumption plumbing 
products has advanced dramatically since the national standard was set 
in 1992, and each new generation of products brings better performance.
    We think this progress toward water conservation will only 
accelerate in the years ahead.
                                 ______
                                 
                                   CTSI Corporation
                                   Tustin, California 92780
                                                      July 27, 1999
    Honorable ladies and Gentlemen: I am writing you on behalf of a 
large and growing coalition who are deeply concerned about Rep. 
Knollenberg's proposal (H.R. 623) to repeal the Plumbing Efficiency 
Standards contained in the 1992 Energy Policy Act. Rep. Knollenberg has 
gathered numerous co-sponsors to this proposal and we feel that their 
cosponsorship is ill-considered for the following reasons:
<bullet> H.R. 623 has the potential of costing the U.S. over $2 billion 
        a year in additional water use, as well as accelerated 
        infrastructure repairs, additions and maintenance. Over the 
        next 20 years, it is projected that $240 billion in capital 
        expenditures will be necessary for wastewater infrastructure 
        alone. Consistent nationwide efficiency measures could postpone 
        these enormous costs for from 5-20 years. Congress, as you 
        know, is now grappling with the problem of State Revolving 
        Funds being insufficient to meet Clean Water Act requirements. 
        Efficiency measures go a long way toward reducing these 
        problems by placing less burden on older infrastructures.
<bullet> It is ironic that many of the co-sponsors to H.R. 523, come 
        from states with tremendous water supply problems:
    Texas, whose populations is projected to grow by 9 million people 
(45%) by 2025;
    California, whose populations is projected to grow by 18 million 
(50%) by 2025;
    Florida, whose populations is projected to grow by 6.5 million 
(45%) by 2025;
    Georgia, whose populations is projected to grow by 3 million (38%) 
by 2025;
    Alabama, which is projecting a 46% increase in population and is 
already in near crisis in terms of water supply;
    Arizona, which is projecting a 53% increase in population and is in 
the desert;
    and Washington State, which, in spite of constant rain in the 
winter, faces shortages every summer.
    Each of these states can pass its own efficiency standards, but 
what of states around them that may not choose to be as responsible? 
States that share the same source of supply? Lawsuits would surely 
follow.
<bullet> The potential additional water that could be wasted by 
        striking national efficiency standards, by our calculations, 
        would be enough to drain the Hoover Dam in 5 years! and for 
        what? Rep. Knollenberg quotes constituents who do not like 1.6 
        gpf toilets, but our company alone has distributed over 500,000 
        ULF toilets over the past 7 years through utility-sponsored 
        conservation programs, and complaints are less than 1%. 
        Manufacturers have spent millions of dollars re-engineering 
        these efficient models, and they work better than most of the 
        old 3.5 gpf fixtures.
<bullet> Of the 500,000 Ultra-Low Flush toilets we have distributed, a 
        large percentage has gone into lower income neighborhoods and 
        has saved residents countless thousands of dollars in water 
        bills. Higher infrastructure costs will be borne by those who 
        cannot afford to invest in savings on their own.
<bullet> Rescinding the Federal Efficiency Standards is not good for 
        anyone. Populations are growing, but the supply of water is 
        not.
    Please carefully consider these important facts and keep the 
plumbing efficiency standards in place--for all of us.
            Most Sincerely,
                                             James P. Craft
                                                                CEO
                                 <ALL>
</pre></body></html>
